<html>
<title> - THE HEALTHY FAMILIES ACT: SAFEGUARDING AMERICANS' LIVELIHOOD, FAMILIES AND HEALTH WITH PAID SICK DAYS</title>
<body><pre>[Senate Hearing 110-296]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-296

THE HEALTHY FAMILIES ACT: SAFEGUARDING AMERICANS' LIVELIHOOD, FAMILIES 
                     AND HEALTH WITH PAID SICK DAYS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING THE HEALTHY FAMILIES ACT, FOCUSING ON SAFEGUARDING AMERICANS' 
          LIVELIHOOD, FAMILIES, AND HEALTH WITH PAID SICK DAYS

                               __________

                           FEBRUARY 13, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate














                     U.S. GOVERNMENT PRINTING OFFICE

33-446 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma
           J. Michael Myers, Staff Director and Chief Counsel
           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       TUESDAY, FEBRUARY 13, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
    Prepared statement...........................................     3
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     4
    Prepared statement...........................................     6
Ness, Debra, President, National Partnership for Women and 
  Families, Washington, DC.......................................    10
    Prepared statement...........................................    12
Heymann, Jody, M.D., Ph.D., Professor at McGill University, 
  Director, McGill Institute for Health and Social Policy and 
  Project on Global Working Families, Montreal, Quebec...........    16
    Prepared statement...........................................    17
Hartmann, Heidi, Ph.D., President, Institute for Women's Policy 
  Research, Washington, DC.......................................    23
    Prepared statement...........................................    25
Bhatia, Rajiv, M.D., MPH, Director of Occupational and 
  Environmental Health for the San Francisco Department of Public 
  Health and Assistant Clinical Professor of Medicine at 
  University of California at San Francisco, San Francisco, CA...    34
    Prepared statement...........................................    36
King, G. Roger, Partner, Jones Day, Columbus, OH.................    38
    Prepared statement...........................................    41

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, 
      prepared statement.........................................    62
    Clinton, Hon. Hillary Rodham, a U.S. Senator from the State 
      of New York, prepared statement............................    63
    Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
      prepared statement.........................................    64
    Dancing Deer Baking Co.......................................    64
    Medical Legal Partnership for Children.......................    65
    Children's Hospital Boston...................................    66
    Jeff Levi, Ph.D., Executive Director, Trust for America's 
      Health (TFAH)..............................................    67
    Response to questions of Senator Kennedy by:
        Deborah Ness.............................................    67
        Jody Heymann, M.D., Ph.D.................................    75
        Rajiv Bhatia, M.D., MPH..................................    82

                                 (iii)


    Response to questions of Senator Enzi by:
        Debra Ness...............................................    71
        Jody Heymann, M.D., Ph.D.................................    80
        Rajiv Bhatia, M.D., MPH..................................    83
        G. Roger King............................................    84
    Response to questions of Senator Coburn by:
        Jody Heymann, M.D., Ph.D.................................    81
        Rajiv Bhatia, M.D., MPH..................................    84
        G. Roger King............................................    85
    Questions of Senator Kennedy to Heidi Hartmann, Ph.D.........    87





 
THE HEALTHY FAMILIES ACT: SAFEGUARDING AMERICANS' LIVELIHOOD, FAMILIES 
                     AND HEALTH WITH PAID SICK DAYS

                              ----------                              


                       TUESDAY, FEBRUARY 13, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senators Kennedy, Sanders, Brown, Enzi, Isakson, 
and Allard.

                  Opening Statement of Senator Kennedy

    The Chairman. We'll get--this is off the record or you can 
put it on. We'll get started in just a few minutes. We have--
Senator Enzi and I had the report from the Aspen Commission. It 
was Governor Thompson and Governor Barnes on the No Child Left 
Behind and we had a conference with our House colleagues and a 
number of members of the press and they were somewhat slow 
arriving. They had all the members of the commissions. Many had 
traveled far distances so we were a few moments tardy but 
Senator Enzi will be here momentarily and we'll get started. 
I'm very grateful for all of your presence here.
    We received good news that we're not going to be 
interrupted by votes. We'll have until 2:30 this afternoon. I 
think we can finish by then. You might not be able to get out 
of here with the snow. That's something that New England does 
and people from Wyoming but we'll get started in just a very 
few moments. I'm very appreciative. We've got an excellent 
panel here.
    We'll come to order. Senator Enzi and Senator Isakson, I 
just reminded our panel that we were necessarily delayed to 
receive really excellent recommendations of the Aspen 
Commission on the No Child Left Behind. We welcome the 
opportunity now to move ahead on this very important issue.
    Each of us knows what it means to be sick. We all had to 
miss occasional days of work because of illness and every 
parent knows what it is like to care for a sick child. As a 
Member of Congress, we don't lose our pay or risk our jobs if 
we stay home when illness strikes but millions of Americans 
aren't so fortunate. Half of the private sector workers in the 
United States do not have paid sick days. Seventy percent don't 
have paid sick days they can use to care for family members. 
You can't take a day off to recover from the flu. They can't 
leave work to care for a child who is running a fever.
    This lack of protection is particularly difficult for women 
and children. Women have moved into the workforce in record 
numbers. They continue to take primary responsibility for their 
children's health. Nearly 80 percent of mothers say they are 
solely responsible for their children's medical care.
    We're talking about hardworking people, like Stephanie 
Scott and Elnora Collins who are here today. Stephanie is a 
full-time teacher at a day care center. She and her colleagues, 
who have been at her workplace for years, have no sick days. 
Elnora is a 67-year-old home care worker who is caring for two 
granddaughters. She has no paid sick days. She tells us, one 
time I was sick, I threw up at a client's house. She loves 
caring for older citizens but she needs time off to care for 
her own health.
    Children need their parents to have paid sick days. I have 
a letter from four pediatricians, the Boston Medical Center in 
the South End Community Health Center that I'll include in the 
record.

    [The material referred to can be found in additional 
materials.]

    The Chairman. But briefly, they say, ``We strongly support 
the Healthy Families Act because we believe it could be one of 
the most powerful treatments we have for children. By 
supporting the Healthy Families Act, you're supporting 
minimizing expensive hospital stays for children and getting 
parents back to work more quickly.'' If we truly care about 
families, we must change our policies. We need laws that let 
working men and women be responsible parents, too.
    The lack of paid sick days is not just a family issue. It's 
also a public health issue. Sick people go to work or sick 
children go to school. They infect co-workers or fellow workers 
and the public. In fact, many workers who have constant contact 
with the public have no paid sick days. Eighty-five percent of 
food service workers and 55 percent of workers in the retail 
industry are denied that benefit.
    Thirty percent of health care workers can't take paid time 
off when they are ill. Paid sick days are the obvious solution 
to prevent the spread of illnesses and reduce medical costs. 
They would result in significant savings to our economy and our 
health care system. That's why employers support paid sick 
days, too.
    Dancing Deer Bakery, a small business in my hometown of 
Boston says a national paid sick day law creates a level 
playing field for all businesses. We hope that a bill will move 
through the Chambers, beyond the President's desk. Paid sick 
days should be a non-partisan issue. A healthy nation is a 
productive nation.
    Paid sick days for workers is a vital step to address 
health needs. That's why I'm re-introducing the Healthy 
Families Act to provide the seven paid sick days to workers 
each year.
    We are very mindful on our committee that this is the 
committee that had the Family Medical Leave bill. Leaders were 
my good friend, Senator Dodd. Five years of hearings before we 
finally passed that. And I know that has unpaid family medical 
leave and Senator Dodd is really leading in trying to make sure 
we make some progress in that area. Senator Murray on our 
committee as well, has a more modest approach, particularly to 
provide time off for parents work with teachers, in terms of 
the educational kind of component. And she is enormously 
committed. Others have different ideas. We hope we'll be able 
to find the common ground and get some work done in this area.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Each of us knows what it means to be sick. We've all had to 
miss occasional days of work because of illness. Every parent 
knows what it's like to care for a sick child.
    As members of Congress, we don't lose our pay or risk our 
jobs if we stay home when illness strikes. But millions of 
Americans aren't so fortunate.
    Half of private-sector workers in the United States do not 
have paid sick days. Seventy percent don't have paid sick days 
they can use to care for family members. They can't take a day 
off to recover from the flu. They can't leave work to care for 
a child who is running a fever.
    Among workers in the lowest income quarter, 80 percent do 
not have the ability to take time off for an illness without 
losing their pay or even their jobs.
    This lack of protection is particularly difficult for women 
and children. Women have moved into the workforce in record 
numbers, but they continue to take primary responsibility for 
their children's health. Nearly 80 percent of mothers say they 
are solely responsible for their children's medical care.
    We're talking about hard-working people like Stephanie 
Scott and Elnora Collins, who are here today. Stephanie is a 
full-time teacher at a day-care center. She and colleagues who 
have been at her workplace for years have no sick days. Elnora 
is a 67-year-old home care worker who is caring for two 
granddaughters. She has no paid sick days. She tells us, ``One 
time I was so sick, I threw up at a client's house.'' She loves 
caring for older citizens, but she needs time off to care for 
her own health.
    We're talking about children like Jennetta Allen of 
Georgia. She says,

          ``Once when I was little I got real sick at school. I 
        waited and waited but Mom never came. . . . When my Mom 
        finally made it home she was crying more than I was. 
        She told me her boss would not let her leave. My Mom 
        was fired because her boss thought I might get sick 
        again!''

    Children need their parents to have paid sick days. I have 
here a letter from four pediatricians who work at Boston 
Medical Center and the South End Community Health Center. I 
will include this letter in the record, but, briefly, they say:

          ``We strongly support the Healthy Families Act 
        because we believe [it] could be one of the most 
        powerful treatments we have for children. By supporting 
        the Healthy Families Act, you support minimizing 
        expensive hospital stays for children, and getting 
        parents back to work more quickly.''
    If we truly care about families, we have to change our 
policies. We need workplace laws that let working men and women 
be responsible parents too.
    The lack of paid sick days is not just a family issue--it's 
also a public health issue. When sick people go to work or sick 
children go to school, they infect coworkers or fellow students 
and the public.
    In fact, a high proportion of workers who have constant 
contact with the public have no paid sick days--85 percent of 
food service workers and 55 percent of workers in the retail 
industry are denied that benefit. Thirty percent of health care 
workers can't take paid time off when they're ill.
    Paid sick days are the obvious solution to prevent the 
spread of illnesses and reduce medical costs. Every day we see 
stories in the paper of stomach illnesses breaking out in 
restaurants or on cruise ships. We learn of flu outbreaks 
leading to hospitalization of the elderly. These diseases are 
very contagious, but their spread can be minimized if sick 
people stay at home.
    Paid sick days also give people the opportunity to obtain 
medical treatment for illnesses or chronic medical conditions. 
We all know that preventive care helps reduce medical costs.
    For all these reasons, paid sick days would result in 
significant savings to our economy and our healthcare system.
    That's why employers support paid sick days too. Dancing 
Deer Bakery, a small business in my hometown of Boston, 
Massachusetts, has written a statement that I will include in 
the record, saying that:

          ``A national paid-sick-days law creates a level 
        playing field for all businesses. . . . We hope that a 
        bill will move through both Chambers and be on the 
        President's desk. Paid sick days should be a non-
        partisan issue. A healthy nation is a productive 
        nation.''

    Paid sick days for workers is a vital step to address 
health needs. That's why I'll be re-introducing the Healthy 
Families Act--to provide 7 paid sick days to workers each year.
    We must also move to take steps to deal with other family 
and work issues. We need to protect workers who seek greater 
flexibility in the workplace. We need to expand family and 
medical leave--an issue which Senator Dodd has led for many 
years. We need to provide affordable child care, such as 
Senator Murray's bill to allow time off for parents to attend 
teacher conferences.
    The world and the workforce are changing, and our laws have 
to catch up. I look forward to hearing from our witnesses today 
about how we can move forward and make paid sick days our 
national law.
    The Chairman. I recognize Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, I ask that my 
prepared statement be a part of the record and included.
    The Chairman. It will be so included.
    Senator Enzi. Normally I would begin by thanking the 
Chairman for holding this important hearing but I've been 
through a whole range of emotions on this and had a lot of 
difficulty with that statement until I read the testimony. I 
agree with the testimony that is to be presented. When paid 
sick leave is provided, it makes a tremendous mental impression 
on people and helps them out with their daily lives.
    One of my concerns is, if we make that a law, is it then 
the same category and the same incentive that it is when it's 
done voluntarily? We've been holding roundtables and I know 
that from an informational standpoint and statistical 
standpoint that doing it this way is adequate. There are a lot 
of other opinions that I would have like to have had brought 
into the mix and we're very limited in a hearing situation to 
do that.
    But I don't want the public to think that business people 
just sit around and say, what do you think Congress would like 
us to do on paid sick leave or vacations or any of the other 
employee benefits that they have to wrestle with--and I say 
wrestle with because I've been one of those small businessmen. 
We do it to be sure that we have employees, as effective 
employees as possible, as consistent of employees as possible 
and we grapple with how to do it and how to beat the 
competition on it. You have to be a little better than the 
other guy in order to get the employee that you want. And 
consequently, across this nation, of those who do provide paid 
sick leave, there is a huge variety of ways of doing that and a 
huge variety in number of days of doing that. I've actually 
read the bill and I've made a lot of comments in the margin on 
it and this dictates a way that some, maybe even a majority of 
businessmen are providing paid sick leave but it isn't the only 
ways that they're doing it and isn't the only amount of time 
and there is a variety between how many days a week people work 
and how many days sick leave there are and ease of calculation 
and ease of record keeping is very important, particularly to 
small businessmen.
    Now I noticed that this excludes businesses of 15 or 
smaller. I'm not sure why it doesn't exclude businesses of 50 
or smaller so that it complies with the Family Medical Leave 
Act. That seems to be the standard we've established for ultra-
small businesses and ones that would have difficulty with 
processing it. I know when I was in the shoe business, we 
started with half a day per month for sick leave. Now that only 
comes to 6 days a year. We also found out that quite often what 
that was, as in addition to their paid vacation because a lot 
of times, they were sick when they needed to go somewhere. Some 
of my accounting practices, I found that was also helpful and 
recommended to a couple of people that most of the accidents 
that they had where people took workers comp, which was a paid 
time off, happened usually the day before hunting season and 
they ought to consider giving hunting season off as a paid 
vacation for their people and it would make a difference. You 
know and you run into the guy that just got back from an elk 
hunting trip and say, I thought you were off with an injury. 
Well, I was off from an injury. I said what did you do? And he 
said, well I went elk hunting. I said, how did you get into the 
backcountry? Well, I hiked. How did you get your elk out? I 
backpacked it. And he was out for a back injury. So there are 
different circumstances and the businessman has to deal with 
that and try to figure out how he can make his employees as 
comfortable as possible with the benefits that he is able to 
afford.
    Oh, yes. Afford. That does play a major role in it. There 
are a lot of things that small businessmen would do for their 
employees if they could afford it. When we're mandating paid 
days off, we're mandating that they pay for it. It's an 
unfunded mandate from the Federal Government. We're not saying 
if you will give your people time off, we're going to allow 
that as an additional tax credit because when you let somebody 
off, you have to fill that position in a small business. It 
isn't like you had an extra position. If you had an extra 
position, you'd have fired the person. So it's a necessary 
position and quite often, it's not necessary all of the year 
but you pay them in the times that the work is really slow so 
that you have them during the times that it's really busy, 
although that is time that often they get sick.
    But you have to pay the person and then you have to pay the 
person that replaces them or you fill in for them yourself. I'm 
aware of a guy in my home town that owns three restaurants and 
he keeps adding more people to his staff but if I want to find 
him, I can go to one of those three restaurants and he'll be 
waiting tables because he didn't have enough people that day. 
Now when he does that, he still has to spend the night doing 
the stuff that he would have done during the daytime, even 
though he tries to pay additional people to do it. So these 
things aren't quite as easy as they sound.
    It would really be nice to give everybody the same amount 
of paid leave that the Federal Government gets. Affording it is 
the difficulty. It would be nice to do the paid vacation the 
same way. Do you know why we don't just prescribe all of those 
things? I do know why we don't prescribe all of those things. 
We haven't figured a way for the small businessman to afford 
it. So I do look forward to the testimony. I appreciate the 
effort that went into it. I do have probably more questions 
than we can cover during the time that will be allotted on it 
and I hope all of you will respond to those questions as well 
because that information will be extremely helpful to us in 
whatever kind of a solution we can come up with.
    Thank you.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    I want to thank the chairman for holding this hearing and I 
also want to thank the panel for their willingness to 
participate in this important dialogue.
    Anyone who works for a living is keenly aware of the time 
demands that work imposes. The task of balancing work and 
family life is never easy, and when illness compounds the 
situation, the challenge becomes even greater. Most private 
sector employers are acutely aware of this reality and 
increasingly responsive to it.
    In the most recent member benefit survey conducted by the 
Society for Human Resource Management, 86 percent of the 
respondents reported that their companies provided paid sick 
leave either under a separate sick leave program, or as part of 
a general paid time off plan. More than 80 percent also 
indicated that they provide both short-term and long-term 
disability insurance coverage. In addition, an increasing 
number utilize even more creative approaches such as paid time 
off, and sick leave banks, or pools.
    The more broadly-based National Compensation Survey reveals 
that on an overall national basis 68 percent of full-time 
employees have access to paid sick leave programs at work.
    Most employers make these provisions both because they know 
that a healthy workforce benefits their business; and, because 
they know that in a competitive labor market, such as the one 
we have right now, they must address this issue to attract and 
retain quality employees.
    Today, the average cost of employee benefits for all 
employers in the private sector is nearly $7.50 an hour. 
Average benefits now comprise nearly 30 percent of total 
payroll costs. That number has been increasing over the years, 
and such numbers support the importance that most employers 
attach to providing meaningful benefit packages, including 
provisions for illness-related absences, for their employees.
    Despite these facts, however, some employees do not have 
paid sick leave available to them at their place of work 
because many of these individuals are part-time employees and 
many work for smaller employers. Those small employers very 
often face the same cost squeeze and financial pressures that 
their own employees face. Many business owners view their 
employees as their own extended family. That is a fact that we 
need to always keep in mind as we discuss either wages or 
benefits and small business. We also must be aware that any 
additional requirements we place on small business may be the 
imposition of an unfunded employer mandate.
    Some estimates suggest that approximately 55 million 
private sector workers are without access to paid sick leave. 
The Health Families Act, as proposed, would extend paid sick 
leave benefits to all of those individuals except those that 
work for establishments with fewer than 15 employees which 
would cover roughly 45 million employees. The legislation 
requires up to 56 hours of paid sick time per employee.
    Currently, the average hourly wage is right around $17.00 
per hour for non-supervisory, non-farm employees. Thus, the 
average cost exposure of the proposed legislation for each 
full-time employee is nearly $1,000. Even if we adjust the pool 
of the approximately 45 million workers to include part-time 
employees who have pro-rata entitlements, the cost exposure 
here is clearly in the tens of billions of dollars.
    To extend this type of leave requirement to businesses, as 
is contemplated by the Healthy Families Act, would be little 
more than an unfunded mandate on small businesses throughout 
the country. In addition, this legislation represents only 
direct labor cost, and does not account for a myriad of other 
indirect costs. The money necessary to pay those increased 
costs must come from somewhere.
    Proponents of this legislation argue that the huge cost of 
this legislation would be offset by productivity savings gained 
from eliminating ``presenteeism'' which is called by some 
individuals the practice of less than healthy individuals 
coming to work. Presenteeism ``losses'' are, at best, highly 
speculative and subjective. Moreover, private sector human 
resource systems have traditionally shown the ability to adapt 
to economic reality. Put another way, businesses do not require 
Federal mandates to instruct them how to operate more 
efficiently, productively and profitably.
    No matter how desirable a particular goal may be, one 
cannot simply dismiss the costs involved as unimportant or 
inconsequential. Here, the costs are decidedly not 
inconsequential, particularly for smaller businesses. The pool 
of available labor dollars is not infinite, and when we mandate 
their expenditure for a specific purpose, we always run the 
risk of unintended consequence. A dollar that must be spent 
here, often results in a dollar that will not be spent 
elsewhere. Imagine the irony for an employee who is granted 
sick leave under this bill, but whose employer decides to 
eliminate or reduce health plan benefits.
    If the end result this bill seeks is indeed healthier 
families, then I would also like to invite every member of this 
committee to work with me on small business health plan 
legislation. That initiative will make America's working 
families healthier by allowing small businesses and 
associations to band together and buy into health plan coverage 
at better rates. Surely as we are rating the ``To Do'' list of 
the 110th Congress, increasing the number of insured Americans 
ranks higher than giving people days off who may not even have 
a health care provider to go to. I know if I were one of the 46 
million uninsured Americans, I would think so.
    Obviously, increased benefits, like increased wages, enjoys 
universal popularity. However, we cannot even contemplate 
mandating such benefits in an economic or policy vacuum.
    We also need to bear in mind that Washington does not 
always have a monopoly on good ideas; and that whenever we act 
prescriptively, we also decrease flexibility and creativity. 
What works in one place of business may not work in another; 
and, what we inflexibly mandate may not be best for all.
    I also believe that our consideration of this legislative 
proposal must be informed by our experience with similar 
legislative initiatives. As some of you may recall last 
Congress, the HELP Committee held a roundtable discussion on 
the Family and Medical Leave Act. During the course of that 
roundtable we learned about many of the practical issues and 
problems associated with implementing that legislation. I'd 
also note that the Department of Labor has recently solicited 
information from the public about many of these same issues.
    The Healthy Families Act--as it was introduced in the last 
Congress--while not an FMLA proposal, does import some of the 
practical problems associated with FMLA that have been 
repeatedly brought to our attention. Among those issues have 
been the practical problems associated with unanticipated, or 
intermittent leave; the issues associated with suspected abuse 
of leave entitlements, medical verification and privacy 
concerns, the existence of vague legislative terms and 
definitions, the issues related to the appropriate increments 
in which leave can be taken, and the incidence and costs of 
leave-related litigation.
    These are not isolated or minor concerns. These concerns 
have not been raised in support of any claim that FMLA should 
be repealed. Quite to the contrary, virtually all the employers 
that have raised these concerns support FMLA, however, they 
believe it must be clarified in several important, real-world 
respects. In a wide variety of instances this legislation 
borrows from FMLA, and imports, and even expands, many of these 
same real concerns to the proposed legislation. An appropriate 
first step would seem to be meaningfully addressing these very 
real issues in the context of our current laws before simply 
repeating them in new ones.
    Unfortunately, a review of this legislation replicates many 
of the practical problems we have witnessed with FMLA, and 
makes them even worse. The legislation lacks definitional 
precision, adequate safeguards against abuse, and due 
recognition of, or provisions to counter, its disruptive impact 
on affected businesses. The legislative language is extremely 
open-ended as to arguably create a Federal mandate of 56 hours 
of paid time off to be used as an employee wishes, and in such 
increments as the employee wishes.
    While I share the Chairman's concern for working families I 
am also concerned for the businesses, particularly the small 
businesses, which employ them. I also appreciate that as both a 
policy matter and a personal matter the achievement of an 
appropriate balance between work and family is a matter of 
great importance. However, these are complex problems and 
complex problems very often defy simple or universal solutions. 
I think we need to recognize this as we move forward, and also 
recognize that as simple and attractive as it may appear, we 
cannot solve all problems through legislative fiat without any 
regard to those that must pay the cost of the mandates we 
impose.
    Mr. Chairman, thank you for holding this hearing today. I 
look forward to hearing from all of our panelists and look to 
see how we can help employees and their families to be healthy 
while providing the flexibility and stability for our Nation's 
small businesses to build and grow their businesses with the 
goal towards hiring more workers.
    The Chairman. Thank you very much, Senator Enzi. The panel. 
We have Debra Ness, who is the President of the National 
Partnership for Women and Families. Before assuming her current 
role, she served as the Executive Vice President of the 
National Partnership for 13 years. Ness has played a leading 
role in positioning the organization as a powerful, effective 
advocate for today's women and families.
    Dr. Jody Heymann is a founding Director of the Institutes 
for Health and Social Policy at McGill, an institution 
dedicated to research of public policy. She is also a founding 
Director of the project of global working families at Harvard; 
first research program to comprehensively examine the condition 
of working families in the United States and around the world. 
She has recently published, Forgotten Families: Ending the 
Growing Crisis, confronting children and working parents in the 
global economy.
    Heidi Hartmann is President of the Institute of Women's 
Policy Research, scientific research organization to meet the 
need for women-centered policy oriented research. She is also a 
Research Professor at the George Washington University and a 
recipient of the McCarthy Fellowship Award for her work in the 
field of women and economics. She is Vice Chair of the National 
Council of Women's Organizations.
    Dr. Rajiv Bhatia is the Director of Occupational and 
Environmental Health, San Francisco Department of Public Health 
and Assistant Clinical Professor of Medicine at the University 
of California at San Francisco. He teaches public health at UC-
Berkley.
    Mr. G. Roger King, a Partner of Jones Day Law Firm, San 
Diego. He specialized in representing employers under Federal 
labor law. He was labor counsel for Senator Taft in 1971 to 
1973, Senate Committee, 1973 to 1975, also a Captain in the 
U.S. Air Force, Judge Advocate, 1972 to 1973. And I had the 
chance to say hello and he remembered being a part of this 
committee working with Senator Javits and others, going back a 
long time. So welcome back to the committee.
    We'll start. Debra Ness, please.

 STATEMENT OF DEBRA NESS, PRESIDENT, NATIONAL PARTNERSHIP FOR 
              WOMEN AND FAMILIES, WASHINGTON, DC.

    Ms. Ness. Good morning. Good morning, Chairman Kennedy, 
Senator Enzi, Senator Isakson. Thank you very much for this 
opportunity to testify.
    I'm Debra Ness, President of the National Partnership for 
Women & Families. We are a non-profit, nonpartisan organization 
that for more than 35 years has been working on issues 
important to women and families.
    I am here to testify in support of the Healthy Families 
Act, a groundbreaking piece of legislation to guarantee workers 
7 paid sick days annually to recover from their own illness or 
care for a sick family member. Congress should waste no time 
passing this bill.
    The reason is simple. Chances are, each of us will get sick 
or need to care for a sick family member some time this year. 
But not all of us have the option of taking time off to get 
better. In the United States today, nearly half of all private 
sector workers do not have a single paid sick day and the 
situation is even more grim for low-income workers, three 
quarters of whom have no paid sick days.
    In fact, 86 million hardworking Americans do not have a 
single paid sick day that they can use to care for a sick child 
or a sick family member.
    I'd like to put a face on some of those statistics. Let me 
tell the story of Robbie Bickerstaff. Her son was hit by a car 
but he didn't want to call his mom because he was afraid she 
would lose her job. When Robbie found out, she of course left 
work to take her son to the emergency room where the doctors 
were able to treat him and set his broken arm. Fortunately, 
Robbie's son was okay but unfortunately, he was right to worry 
about his mom's job. Bickerstaff was fired for leaving her job 
that day.
    Let me tell you the story of Connie Smith, who worked for 3 
years at a fast-food restaurant without ever taking a single 
sick day until one day, she got the stomach flu. After vomiting 
at the restaurant, she told her boss that she simply had to go 
home. His response? He ordered her to finish her shift, which 
ended at 4 a.m. So she did. She continued to work, handling 
food and exposing every customer she served to her illness.
    Currently there is no State or Federal law that ensures 
that workers have paid sick days when they need them. Senators, 
you can change that by passing this bill. The National 
Partnership is leading a very broad coalition in support of the 
Healthy Families Act, a coalition that includes children's, 
civil rights, women's, disability, faith-based, community 
groups as well as labor unions, health advocates, and leading 
researchers at top institutions. It includes organizations like 
9to5, ACORN, the Leadership Conference on Civil Rights, AFL-
CIO, and the U.S. Conference of Catholic Bishops. We are all 
very different organizations but we've come together to support 
this bill because millions of Americans are being forced to 
choose between taking care of a sick child or family member and 
losing a day's pay or even losing their job. In a nation that 
values families, no worker should have to make this impossible 
choice.
    Paid sick days are particularly important to women, since 
women, for the most part, are still the primary caregivers for 
their families. Half of working moms report having to miss work 
when a child gets sick and half of those moms also lose pay, 
which can be a significant financial blow for families at any 
income level.
    Paid sick days are also critically important to the well 
being of children. Children recover from illness faster when 
their parents care for them and having access to paid sick days 
also increases the likelihood that working parents can take 
their children for preventive care and well child visits that 
can help keep them healthy.
    Paid sick days are also good for the public health. Our 
government, the CDC urges us to stay home from work, to keep 
our children out of school and daycare when they are sick but 
workers without paid sick days don't have that option and we 
all suffer as a result.
    Paid sick days are also good for our economy. Studies show 
that presentism--employees' practice of coming to work even 
though they are sick costs our national economy $180 billion in 
lost productivity annually.
    Cost-benefit analysis shows that if workers had just 7 paid 
sick days a year, our economy would experience a net annual 
savings of $8.2 billion due to reduced turnover, higher 
productivity and reduction in the spread of contagious illness 
in the workplace.
    I could go on. Paid sick days are good for low-wage 
workers, for older workers, for seniors, for caregivers. Paid 
sick days are important to all of us and poll and after poll 
has found tremendous public support for paid sick days and 
proposals like the Healthy Families Act.
    Momentum is building and the National Partnership is 
working with organizations across the country. Paid sick day 
bills have been or will soon be introduced in cities and State 
legislatures from coast to coast. These State and local 
initiatives are important but we need more. Americans need paid 
sick days and it shouldn't matter what city or what State they 
live in.
    This debate is really about what we value as a nation. 
We're very good at talking about family values but we need to 
do more than talk. If we truly care about the health, the well-
being and the economic security of our families, then we must 
enact the Healthy Families Act.
    Thank you.
    [The prepared statement of Ms. Ness follows:]
                  Prepared Statement of Debra L. Ness
    Good morning. Chairman Kennedy, Senator Enzi, and members of the 
committee, thank you for the opportunity to testify here today. I am 
Debra Ness, President of the National Partnership for Women & Families, 
a non-profit, nonpartisan advocacy organization with more than 35 years 
of experience promoting fairness in the workplace, access to quality 
health care, and policies that help women and men meet the competing 
demands of work and family.
    I am here to testify in support of the Healthy Families Act, a 
groundbreaking piece of legislation to guarantee workers 7 paid sick 
days annually to recover from their own illness or care for a sick 
family member. Congress should waste no time in passing this bill, 
which is tremendously important to people all across our country.
    The reason is simple. Chances are each of us will get sick or need 
to care for a sick family member this year. But not all of us have the 
option to take time off from work to get better. In the United States 
today, nearly half (48 percent) of private sector workers do not have a 
single paid sick day to use for themselves or to care for a family 
member.\1\ The situation is even more grim for low-income workers: 
three in four (76 percent) have no paid sick days at all.\2\ And 86 
million hard-working Americans do not have a single paid sick day they 
can use to care for a sick child.\3\
---------------------------------------------------------------------------
    \1\ Vicky Lovell, No Time to be Sick: Why Everyone Suffers When 
Workers Don't Have Paid Sick Leave, Institute for Women's Policy 
Research, May 2004.
    \2\ Lovell, No Time to be Sick.
    \3\ Lovell, No Time to be Sick.
---------------------------------------------------------------------------
    Let's put a face on some of those statistics:

    <bullet> Robbie Bickerstaff was fired after leaving work to take 
her son, who had been hit by a car, to the emergency room so doctors 
could set his broken arm. Her son understood the risk and refrained 
from calling her after the accident, because he did not want her to 
lose her job. It turns out that he was right to worry.
    <bullet> In 3 years working at a fast-food restaurant, Connie Smith 
never took a sick day--until she got the stomach flu. After vomiting at 
the restaurant, she told her supervisor that she simply had to go home. 
He ordered her to finish her shift, which ended at 4 a.m. She did, 
exposing every customer she served to the flu.
    <bullet> Donetta Renee Parish reported to work at a Washington, DC. 
grocery store with a severe ear infection because she could not afford 
to take unpaid leave. She was later written up for missing work when 
she stayed home to care for her 2\1/2\-year-old son who had had a 
seizure.

    Currently, no State or Federal law ensures that workers have paid 
sick days when they need them. You can change that by passing this 
bill. The National Partnership is leading a coalition in support of the 
Healthy Families Act--a coalition that includes children's, civil 
rights, women's, disability, faith-based, community and anti-poverty 
groups as well as labor unions, health agencies and leading researchers 
at top academic institutions. It includes 9to5, ACORN, the Leadership 
Conference on Civil Rights, AFL-CIO, National Organization for Women, 
and numerous other large, well-respected organizations. We have come 
together in support of this bill because millions of Americans are 
being forced to choose between taking care of a sick child or family 
member and losing a day's pay--or even losing a job. In a nation that 
values families, no worker should have to make this impossible choice.
    Americans want to be responsible workers and be able to care for 
their families. In 78 percent of today's families, both parents work 
for pay--and the typical couple in America now works close to 90 hours 
per week. But our policies lag desperately behind--and families are 
struggling as a result. We can and must do better--and we will, if we 
truly value families.
    Coalitions are working in cities and States across this country to 
pass measures similar to the Healthy Families Act, and they are making 
progress. But we urgently need a national standard. America needs you 
to make passage of the Healthy Families Act a priority for this 
Congress.
          lack of paid sick days hits low-wage workers hardest
    When a low-wage worker gets sick, or needs to take care of a sick 
child or take an elderly parent to a medical appointment, he or she is 
faced with an impossible choice: lose a day of pay and possibly even 
your job, or take the time you need to take care of your family. Half 
of low-wage working parents report losing pay to stay home and care for 
a sick child or being forced to leave children home alone.\4\ In the 
wealthiest Nation in the world, these are choices no parent should have 
to make.
---------------------------------------------------------------------------
    \4\ Jody Heymann, Forgotten Families, Oxford University Press, 
2006.
---------------------------------------------------------------------------
    Low-wage workers typically have little or no savings to fall back 
on when they need time off but have no paid sick days. For example, a 
recent survey of New York residents found that 71 percent of low-income 
workers report having less than $500 in savings, and 52 percent of 
those workers report having less than $100 in savings.\5\ When sick 
workers have little savings, they are especially vulnerable to extreme 
financial crises and even bankruptcy. One study found that nearly 2 
million Americans experience medical bankruptcy annually, even though 
75 percent of those surveyed had health insurance at the onset of 
illness. Respondents reported that illness and medical bills were the 
cause of 46.2 percent of their personal bankruptcies.\6\
---------------------------------------------------------------------------
    \5\ Community Service Society and Lake Snell Perry & Associates, 
The Unheard Third 2005: Bringing the Voices of Low-Income New Yorkers 
to the Policy Debate, 2005.
    \6\ David Himmelstein, Elizabeth Warren, Deborah Thorne, and 
Steffie Woolhandler, Illness and Injury As Contributors to Bankruptcy, 
Health Affairs Market Watch, 2 February 2005.
---------------------------------------------------------------------------
                  paid sick days are good for children
    Children inevitably get sick. On average, school-age children miss 
at least 3 school days per year due to health issues, and younger 
children have even higher rates of illness.\7\ Providing workers with 
paid sick days that can be used to care for a sick child has a positive 
impact on children's health. Studies show that children recover from 
illness faster when their parents care for them,\8\ and that having 
paid time off is a primary factor in a parent's decision to stay home 
when a child is sick.\9\ Having access to paid sick days also increases 
the likelihood that working parents can take children for the 
preventive care and well-child visits that can help keep kids from 
getting sick or forestall more serious illness.
---------------------------------------------------------------------------
    \7\ Vicky Lovell, No Time to be Sick.
    \8\ S.J. Heymann, Alison Earle, and Brian Egleston, 1996, as cited 
in Lovell, Paid Sick Days Improve Public Health by Reducing the Spread 
of Disease, Institute for Women's Policy Research, 2006.
    \9\ Jody Heymann, The Widening Gap.
---------------------------------------------------------------------------
          paid sick days help workers care for older relatives
    Many workers today care for an older relative, and many more will 
be caring for them in the near future as Baby Boomers age. In 2000, 
12.6 percent of the population was over 65 years old; by 2030, 
Americans over age 65 will comprise 20 percent of the population.\10\ 
Studies have shown that more than a third of Americans (35 percent), 
both women and men, have significant eldercare responsibilities, and 
many are forced to reduce their work hours or take time off to provide 
care.\11\ Providing access to family-flexible sick leave is a critical 
strategy for helping working families deal with the needs of their 
aging relatives.
---------------------------------------------------------------------------
    \10\ Department of Health and Human Services, Administration on 
Aging, Statistics on the Aging Population, 2006.
    \11\ Families and Work Institute, Highlights of the 2002 National 
Study of the Changing Workforce, 2002.
---------------------------------------------------------------------------
  women are disproportionately impacted by the lack of paid sick days
    The lack of paid sick days has a significant impact on working 
women, and is particularly threatening to women's economic security. 
Women are still predominantly responsible for family caretaking. Many 
working women have children, and one in three has additional caretaking 
responsibilities for an elderly relative, a person with a disability, 
or a special need child.\12\
---------------------------------------------------------------------------
    \12\ Jody Heymann, The Widening Gap: Why America's Working Families 
Are in Jeopardy--and What Can Be Done About It, Basic Books, 2000.
---------------------------------------------------------------------------
    Staggering statistics demonstrate the hardship that can be 
associated with women's caretaking responsibilities: half of working 
mothers miss work when a child comes down with a common illness.\13\ 
Many of these women--two-thirds of low-
income mothers and one-third of middle and upper income mothers\14\--
lose pay to care for their sick children. That is a significant 
financial blow for many low- and moderate-income women and their 
families.
---------------------------------------------------------------------------
    \13\ Kaiser Family Foundation, Women Work and Family Health: A 
Balancing Act, Issue Brief, April 2003.
    \14\ Kaiser Family Foundation, Women, Work and Family Health: A 
Balancing Act.
---------------------------------------------------------------------------
    Because women are more likely to work part-time (or full-time by 
cobbling together more than one part-time position), they are less 
likely to have paid sick days. Only 16 percent of part-time workers 
have paid sick days, compared to 60 percent of full-time workers.\15\ 
Accommodation and food service industry workers, the majority of whom 
are women (53 percent) have almost no paid sick time.\16\ Women also 
are disproportionately represented among low-wage workers, the 
population least likely to have access to paid sick days: 59 percent of 
minimum wage workers are women.\17\
---------------------------------------------------------------------------
    \15\ Vicky Lovell, No Time to be Sick.
    \16\ Lovell, No Time to be Sick.
    \17\ Economic Policy Institute, Minimum Wage Issue Guide, http://
www.epi.org/content.cfml/issueguides_minwage, 2007.
---------------------------------------------------------------------------
    Further, women's dual commitments to work and family can negatively 
affect their career paths and income stability if they lack paid sick 
days they can use to care for family members. One study found that 
being female doubles the chance of experiencing job loss because of 
family illness.\18\
---------------------------------------------------------------------------
    \18\ Spilerman and Schrank, Responses to the Intrusion of Family 
Responses in the Workplace, Research in Social Stratification and 
Mobility, 10, 27-61, 1991.
---------------------------------------------------------------------------
                 older workers need paid sick days, too
    Roughly half of Americans 65 years or older participate in the 
labor force,\19\ and this number is expected to increase as the number 
of older Americans increases and more workers delay retirement for 
economic or other reasons. Many of these workers will require time away 
from work to care for their own health or to care for an older spouse 
or other family member.
---------------------------------------------------------------------------
    \19\ AARP Public Policy Institute, Update on the Aged 55+ Worker, 
2005.
---------------------------------------------------------------------------
 establishing a minimum standard of paid sick days is good for public 
                                 health
    Paid sick days are essential to ensuring that workers don't have to 
risk their own or the public's health because they can't afford to take 
a sick day. The U.S. Centers for Disease Control and Prevention (CDC) 
strongly urges us to stay home from work, school, and social gatherings 
when we are sick and, not surprisingly, the CDC encourages parents to 
keep sick children home from school and daycare to avoid the spread of 
illness.\20\ But workers without paid sick days don't have the option 
to do so, and we all suffer as a result.
---------------------------------------------------------------------------
    \20\ Centers for Disease Control and Prevention, http://
www.cdc.gov/flu/symptoms.htm and http://www.cdc.gov/flu/professionals/
infectioncontrol/childcaresettings.htm.
---------------------------------------------------------------------------
    Workers in direct contact with the public every day are the least 
likely to have paid sick days. Eighty-six percent of food and public 
accommodation workers have no paid sick days, and most workers in child 
care centers, retail, and nursing homes also lack paid sick days.\21\ 
Nobody wants a sick worker sneezing in their food, passing illness at 
the store, or infecting children and seniors. We want sick children to 
recover at home and not infect other children at school or in daycare. 
We are all at risk when workers cannot stay home when they are sick or 
need to care for a sick child or family member.
---------------------------------------------------------------------------
    \21\ Lovell, No Time to be Sick.
---------------------------------------------------------------------------
    Giving workers paid sick days makes it possible for them to seek 
the medical help they or a family member needs. It also removes a key 
barrier to health care access, making it possible for them to seek 
preventive care. Preventive care is key to improving workers' overall 
health and decreasing the number of avoidable hospitalizations, thus 
decreasing health care costs. Many people with chronic illnesses such 
as asthma or diabetes could avoid hospitalization if they were able to 
attend outpatient visits to manage their conditions.
              paid sick days are good for the u.s. economy
    Providing paid sick days for workers produces benefits beyond those 
that accrue to individual workers, children and seniors, or even our 
national public health. Healthy workers are critical to a productive 
and vibrant economy. Employers and our economy would benefit 
substantially if workers had 7 paid sick days annually.
    Sick workers in the workplace inevitably hurt more than they help. 
All workers who have no paid sick days go to work sick and spread 
illness to colleagues, lowering the overall productivity of the 
workplace. More than half (56 percent) of human resources executives 
report that ``presenteeism''--employees' practice of coming to work 
even though they are sick--is a problem in their companies.\22\ Studies 
have shown that presenteeism costs our national economy $180 billion in 
lost productivity annually.\23\ When workers are guaranteed a minimum 
number of paid sick days, employers benefit as healthier workers are 
more productive and the spread of illness in the workplace is reduced.
---------------------------------------------------------------------------
    \22\ CCH Incorporated, 2006 CCH Unscheduled Absence Survey, October 
2006.
    \23\ Ron Goetzal et al., Health Absence, Disability, and 
Presenteeism Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers, Journal of Occupational and 
Environmental Medicine, April 2004.
---------------------------------------------------------------------------
    Employers reap the savings from reduced turnover as well. Turnover-
related costs (which include advertising for, interviewing, and 
training replacements) are substantial, generally far greater than the 
cost of providing paid sick time to retain existing workers. A cost-
benefit analysis of the Healthy Families Act demonstrates that if 
workers had just 7 paid sick days per year, our national economy would 
experience a net savings of $8.2 billion per year due to reduced 
turnover, higher productivity, and reduction in the spread of contagion 
in the workplace.\24\
---------------------------------------------------------------------------
    \24\ Vicky Lovell, Valuing Good Health: An Estimate of Costs and 
Savings for the Healthy Families Act, Institute of Women's Policy 
Research, 2005.
---------------------------------------------------------------------------
    The United States lags far behind the rest of the world in 
providing paid leave benefits. A recent study by Dr. Jody Heymann of 
Harvard and McGill Universities highlights just how far the United 
States lags behind other nations including those with some of the 
strongest economies in the world: at least 145 nations provide paid 
leave for short- or long-term illnesses, and 127 of those nations 
guarantee a week or more of paid sick days per year to their workforce. 
The benefits of paid leave are provided to workers in every one of the 
top 10 most economically competitive nations in the world, with the 
glaring exception of the United States.\25\
---------------------------------------------------------------------------
    \25\ Jody Heymann, Alison Earle, and Jeffrey Hayes, Project on 
Global Working Families, The Work, Family, and Equity Index: How Does 
the United States Measure Up?, 2007.
---------------------------------------------------------------------------
    Also of note, just last fall the World Economic Forum announced its 
annual economic rankings, and the United States had fallen from first 
to sixth.\26\ The nations ranked above the United States all guarantee 
some paid sick time to their workers.
---------------------------------------------------------------------------
    \26\ Steven Pearlstein, No Longer No. 1, and No Wonder, The 
Washington Post, Sept. 27, 2006, D10.
---------------------------------------------------------------------------
    We are familiar with the arguments against establishing minimum 
labor standards that provide workers paid sick days, because we heard 
them all in the fight to enact the FMLA. We are convinced that they are 
specious scare tactics; there are simply no objective studies that 
conclude that giving workers good working conditions leads to job loss 
or that these protections are in any way linked to higher unemployment 
rates.\27\ The statistics, and the experience of other economic power-
house nations, clearly demonstrate that these arguments are not based 
in reality.
---------------------------------------------------------------------------
    \27\ Jody Heymann, Alison Earle, and Jeffrey Hayes, Project on 
Global Working Families, The Work, Family, and Equity Index: How Does 
the United States Measure Up?, 2007.
---------------------------------------------------------------------------
           the public overwhelmingly supports paid sick days
    The likelihood of being sick--or of having a child who will get 
sick--does not depend on whether you live in a blue or a red or a 
purple State, so establishing a minimum standard of paid sick days 
deserves bipartisan support. Poll after poll has found tremendous 
support for paid sick days and proposals like the Healthy Families Act. 
For example, 7 in 10 New York City residents across income lines 
believe there should be a law that requires employers to provide full-
time workers at least 7 days of paid sick time annually.\28\ Nine out 
of ten Maryland voters believe that every full-time worker should have 
paid sick days. Similarly, 85 percent of respondents in a national poll 
support the use of paid sick days to care for children and parents who 
are ill.\29\ A recent poll by the National Council for Research on 
Women showed that women are five times more likely to vote for a 
candidate who favors guaranteed paid sick days.\30\
---------------------------------------------------------------------------
    \28\ Community Service Society and Lake Snell Perry & Associates, 
The Unheard Third 2005: Bringing the Voices of Low-Income New Yorkers 
to the Policy Debate, 2005.
    \29\ Job Opportunities Task Force and Gonzales Research & Marketing 
Strategies, Statewide Survey, 2006.
    \30\ The National Council of Research on Women Poll, 2006.
---------------------------------------------------------------------------
                               conclusion
    This debate is really about what we value in this Nation. If we 
want strong families and a strong economy, if we care about the health, 
well-being and economic security of our families, we will waste no time 
in passing the Healthy Families Act.
    Guaranteeing access to paid sick days is the next step in the 
effort to put our desperately outdated workplaces back in sync with the 
realities of families. Paid sick days are the next minimum labor 
standard the Nation needs.
    Momentum is building. The National Partnership for Women & Families 
is working with concerned citizens around the country who are pressing 
for paid sick days. San Francisco voters overwhelmingly approved the 
country's first paid sick days ordinance in November. Thus far in 2007, 
paid sick days bills have been introduced in legislatures in 
Connecticut, Florida, Maine and Massachusetts and will be introduced in 
the District of Columbia, Maryland, Minnesota, Montana, Vermont, 
Wisconsin, and the city of Madison in coming months. These initiatives 
are important, but we need even more. Every American needs paid sick 
days. The time has come to enact a law that provides paid sick days for 
all workers: the Healthy Families Act.
    Mr. Chairman, members of the committee, I thank you for the 
opportunity to participate in this important discussion.

    The Chairman. Thank you.
    Dr. Heymann.

  STATEMENT OF JODY HEYMANN, M.D., Ph.D., PROFESSOR AT MCGILL 
 UNIVERSITY, DIRECTOR, MCGILL INSTITUTE FOR HEALTH AND SOCIAL 
POLICY AND PROJECT ON GLOBAL WORKING FAMILIES, MONTREAL, QUEBEC

    Dr. Heymann. Good morning. There we go. That's a little 
better. Good morning, Senator Enzi, Senator Isakson and 
Chairman Kennedy. Thank you for inviting me here to testify 
today.
    My name is Jody Heymann. I am the Director of the Institute 
for Health and Social Policy at McGill, Founding Director of 
the Project on Global Working Families at Harvard, and on the 
faculty of both universities. I am trained as a pediatrician 
and a policy analyst and for over a decade and a half, I have 
led systematic studies involving over 10,000 working Americans 
as well as studies involving over 55,000 families in the global 
economy.
    I am here today to say that the Healthy Families Act would 
make an enormous difference to working Americans. When we asked 
people across the country, in a representative sample from 
coast to coast, what was the single most important reason that 
they had to disrupt work to care for a family member, it was 
health. That was true for Americans from 25- to 75-years old, 
for men and women across every geographic region. Yet, nearly 
half of private sector workers currently have no paid sick days 
at all and an even larger percentage lack the ability to take 
days off to care for sick family members.
    Sick days matter to employees. They matter because they 
lead to faster recovery from illnesses and employees being less 
likely to spread their illnesses to those they work with. They 
also matter because people are more likely not to lose jobs. In 
fact, in the national study we did, having a health problem 
increased by 50 percent the likelihood of job loss among low-
wage mothers. This matters to the middle class as well. The 
single factor that made the biggest difference in keeping your 
job if you got sick was paid sick days. Among nurses across the 
country, two and a half times as likely to keep your job if you 
had paid sick days once you got sick. So it matters to 
employees and it matters to their families.
    What are the basic facts about families? A majority of 
working Americans are caring for children, the elderly or 
disabled. Seventy percent of mothers with children under 18 are 
in the workforce. A third of working Americans are caring for 
somebody over 65 and two out of seven have at least one member 
in their family with disabilities.
    Let's just take the case of children which we began to hear 
about from Debra and look at it a little bit more. When there 
are no paid sick days available, we know what happens. Children 
are sent to daycare sick with contagious diseases that spread 
to other kids. They are left home alone. They are often unable 
to see physicians for diagnosis or needed medications and end 
up with emergencies and conditions that worsen.
    When paid sick days are available and this is the important 
statistic to remember, families are five times as likely to be 
able to care for their children when they're sick.
    Now it matters to adult care as well. When adults receive 
support from family members when they are sick, they have 
better health outcomes from major illnesses like heart attacks 
and strokes and those same working Americans that we asked 
across the country, who did you need to care for when they got 
sick? Well, 42 percent reported it was their children. The rest 
were reporting a wide range of family members, which is why I 
commend the fact that this act is written to incorporate the 
fact that you can be caring for aunts or uncles, grandchildren 
as well as your own children's spouses who are in desperate 
need of help.
    Businesses benefit at the same time and that's why I'm glad 
it's been raised, the issue of what are the economic 
consequences? Businesses benefit from limiting the spread of 
infectious diseases in the workplace, from lowering job 
turnover rates, from lower recruitment and training costs, 
lower presentism costs and we base this on having spoken with 
businesses across the country.
    Importantly, we know the United States can compete while 
doing this. We've done a study of the countries around the 
world and who is offering paid sick days. One hundred and 
forty-five countries offer paid sick days. In at least 100 of 
these countries, it begins on the first day you are sick. 
Unless we think 7 days is too many, in 100 of these countries, 
it's for a month or more.
    Now, the world business leaders in the world economic forum 
have ranked the most competitive economies around the world and 
every single one of the 20 most competitive economies with the 
exception of the United States, guarantees paid sick days. In 
fact, guaranteeing paid sick days makes you more competitive 
and we have rigorous analyses showing that.
    As for unemployment, which is a question that has been 
raised, there is absolutely no relationship between national 
unemployment or employment levels and offering paid sick days.
    So in conclusion, can the United States afford to provide 
paid sick days and still compete in the global economy? Most of 
the world already has legislation guaranteeing paid sick days. 
All the competitive economies do. I have faith that U.S. 
companies are just as strong and compete as well with it. Will 
it make a difference to the health of American children and 
adults alike in need? Absolutely. It will make a great 
difference and particularly to those in greatest need, low-
income families who are the most likely to lack it. Thank you 
for having me here.
    [The prepared statement of Dr. Heymann follows:]
            Prepared Statement of Jody Heymann, M.D., Ph.D.
    Good morning, Chairman Kennedy, Senator Enzi, and members of the 
committee. My name is Jody Heymann. I am the Director of the Institute 
for Health and Social Policy at McGill University, Founding Director of 
the Project on Global Working Families at Harvard University, and on 
the faculty at both McGill and Harvard Universities. For the past 
decade and a half, I have led a research team at Harvard and now at 
both McGill and Harvard, which focuses on understanding the conditions 
working families face in America and in a globalized economy, and what 
can be done to improve the conditions of working adults, their 
children, their elderly parents, and other family members.
    Trained as a pediatrician and a policy analyst, I began this work 
when it became clear from individual families that the conditions 
parents faced in the workplace and in their communities in the United 
States were having a dramatic effect on the health of American 
children. Over the past decade and a half, I have led systematic 
studies involving over 10,000 Americans--from every State and across 
all income and demographic groups--as well as studies involving over 
55,000 families in the global economy, and have examined public 
policies across the United States and across 180 other economies we 
interact and compete with.
    Thank you for inviting me here to testify today. I am here to urge 
you to support the Healthy Families Act. The Healthy Families Act will 
make a crucial difference to the health and livelihoods of American 
adults and their families. The provisions in the act are readily 
feasible and affordable while competing in the global economy.
                      working families in america
    The clear majority of working Americans care for children, 
disabled, or elderly adults.\1\ According to the Bureau of Labor 
Statistics, 70 percent of mothers with children under 18 are in the 
workforce.\2\ At the same time, the National Study of the Changing 
Workforce found that between 25 percent and 35 percent of working 
Americans are currently providing care for someone over 65.\3\ 
According to the Census Bureau, 2 in every 7 families report having at 
least one member with disabilities.\4\ While both men and women provide 
important care, women are still much more likely than men to assume 
primary caregiving responsibilities for family members of all ages.\5\ 
\6\ \7\
    While the majority of working Americans are caring for family 
members--children, spouses or partners, parents, grandchildren, and 
grandparents--the United States does not have most of the basic 
protections the rest of the world can count on. While the United States 
compares well to many other countries in having policies that ensure an 
equitable right to work for all racial and ethnic groups, regardless of 
gender, age or disability, the United States lags far behind the rest 
of the world when it comes to most policies protecting working 
families. Just to cite a few examples, 168 countries offer guaranteed 
leave with income to women in connection with childbirth; 66 countries 
ensure that fathers either receive paid paternity leave or have a right 
to paid parental leave; 107 countries protect working women's right to 
breastfeed; 137 countries mandate paid annual leave; and 145 countries 
provide paid sick days or leave for short- or long-term illnesses. The 
United States does not guarantee any of these yet.\8\
    And in the absence of legislation, the private sector has not 
filled the gap. Nearly half of private sector workers have no paid sick 
days at all. An even larger percentage lack the ability to take days 
off to care for sick family members.\9\ While many families cannot 
reliably count on paid sick days, working poor families are at the 
highest risk. Our research team found that 76 percent of low-income 
working parents did not consistently have paid sick days over a 5-year 
period.\10\
           why sick days are such an important place to start
    The research group I lead carried out an important study to learn 
from working Americans about their greatest needs when it comes to 
caring for family members. We interviewed a representative sample of 
Americans across the country every day for a week to learn about work 
disruptions they experienced in order to meet the needs of family 
members. The greatest needs were in two areas: caring for the health of 
family members and meeting school or child care needs. Meeting the 
health needs of family members was a top priority for working Americans 
from 25- to 75-years old in our study, for men and women, and for 
people across every geographic region. It is important to note that the 
need to care for children accounted for only 42 percent of work 
disruptions that were related to family. Fifteen percent were to care 
for parents, 12 percent to care for spouses or partners, 7 percent for 
grandchildren, and 24 percent for other family members.\11\ Because of 
the range of family needs, I fully support the definition of family 
coverage in the Healthy Families Act; it accurately reflects the needs 
and commitments of American families.
sick days' impact on the health of working americans and their families
    When you look at the evidence on the importance to child and adult 
health of having family members involved in their care, then it should 
not be a surprise that this is a top priority for Americans. Parental 
availability is vital for ensuring children's physical health. Children 
sent to daycare sick with contagious diseases exacerbate the higher 
rate of observed infections in daycare centers,\12\ \13\ \14\ \15\ 
including higher rates of respiratory and gastrointestinal 
infections.\16\ \17\ \18\ Children left home alone may be unable to see 
physicians for diagnoses, needed medications, or emergency help if 
their conditions worsen. Furthermore, parental care may be important 
for children even when substitute sick child care is available. Studies 
of hospitalized children have shown that sick children have shorter 
recovery periods, better vital signs, and fewer symptoms when their 
parents share in their care.\19\ \20\ \21\ \22\ The presence of parents 
has also been found to shorten children's hospital stays by 31 
percent.\23\ Without paid sick days, working parents have little choice 
but to send their sick children to day care or school, have young 
children stay home alone, or miss needed meetings with doctors with 
potentially serious health consequences.
    At the same time, the proportion of adults having to meet the needs 
of elderly and disabled adult family members while working is growing 
and will continue to do so as the American population ages. The 
percentage of the U.S. population made up of individuals aged 60 and 
older is estimated to increase more than 1.5 times and the percentage 
of the U.S. population made up of individuals aged 80 and older is 
estimated to double by 2050.\24\ A wealth of research has shown that 
when adults receive support from family members when sick, they have 
substantially better health outcomes from conditions such as heart 
attacks \25\ \26\ and strokes.\27\ An extensive body of research also 
demonstrates that elderly individuals live longer when they have higher 
levels of social support from friends and family members.\28\ \29\
    The ability of workers to address their own health needs is equally 
critical. Research has shown that taking the necessary time to rest and 
recuperate when sick encourages a faster recovery \30\ and may prevent 
minor health conditions from progressing into more serious illnesses 
that require longer absences from work and more costly medical 
treatment.\31\ \32\ \33\ If working adults are able to stay home when 
they are sick, they are also less likely to spread their illness to 
those they work with.\34\
    Workplace policies are essential to the ability of working adults 
to meet both their own health needs and the health needs of their 
family members. Our research found that the largest determinant of 
whether or not American parents can care for their children when they 
get sick is the availability of paid sick days. We have found that 
parents who have paid sick days are more than five times as likely to 
be able to care for their children themselves when they get sick as 
parents who do not have paid sick days.\35\ \36\
  impact on the ability of americans to get jobs, keep jobs, and earn 
                            a decent living
    Without paid sick days, working families are placed at risk 
economically, experiencing wage and job loss when they take time off to 
provide care for family members.\37\ \38\ \39\ \40\ Alison Earle, a 
senior member of our research group, and I conducted the most 
comprehensive longitudinal study of working poor families and job loss 
in the United States. We found that the ability of working poor mothers 
to keep a job was dramatically affected by the health of the mother and 
the health of her child, even after taking into account the mother's 
years of education, her skills, and the local environment in which she 
was looking for work. Having a health problem led to a 53 percent 
increase in job loss among low-wage mothers and having a child with 
health problems led to a 36 percent increase.\41\
    We know paid sick days could make an enormous difference in the 
ability of adults to return to work and keep their jobs. In a 
subsequent study we carried out of nurses, most of whom were middle 
class, having sick days made all the difference in their ability to 
keep jobs after developing heart disease or having a heart attack. Of 
all the working conditions studied, paid sick days were the only 
benefit significantly associated with an increased likelihood of 
returning to work; nurses with paid sick days were 2.6 times more 
likely to return to work after a heart attack or angina.\42\
                          impact on businesses
    Offering paid sick days has positive benefits for employers, 
including limiting the spread of infectious diseases in the workplace 
by letting employees stay home when sick.\43\ \44\ As just one example, 
the spread of infectious disease at the workplace is the reason that 
the U.S. Centers for Disease Control and Prevention recommended that 
Americans with influenza--a disease that leads to 200,000 
hospitalizations and over 36,000 deaths in an average year \45\--stay 
home when they are sick.\46\ In health care and service settings, 
providing sick days to employees also helps protect the health of 
patients and customers. For example, one study found a decreased risk 
of respiratory and gastrointestinal outbreaks among residents in 
nursing homes that provide their employees with paid sick days.\47\
    At the same time, workplaces with paid sick days experience lower 
job turnover rates, leading to lower recruitment and training costs and 
a higher level of productivity and decreased unnecessary 
absenteeism.\48\ \49\ In addition, a recent study found that customer 
satisfaction and commitment to service providers were lowest when 
consumers viewed the employer as having a high rate of turnover.\50\
                 sick days are feasible and affordable
    While there are clear economic benefits to paid sick days, it's a 
natural question to ask whether the United States can mandate paid sick 
days and still compete in the global economy. Having examined data on 
the public policies for working families in 177 countries around the 
world, we can answer this with a clear yes. One hundred and forty-five 
countries guarantee paid sick days. In at least 100 countries, paid 
sick days begin with the first day of illness.\51\
    By global standards, the seven days proposed in the Healthy 
Families Act is quite modest. One hundred and two countries guarantee 1 
month or more of paid sick days.\52\ 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The World Economic Forum, which brings together the top business 
leaders from around the world, has ranked the most competitive national 
economies.\53\ All of the 20 most competitive countries, with the 
exception of the United States, guarantee paid sick days, and 18 of 
them provide 31 or more sick days with pay.\54\ In fact, we have 
examined the relationship between national economic competitiveness and 
paid sick days and leave. Those countries which are most economically 
competitive are consistently more likely to guarantee paid sick days 
and leave for employees' own health, for the care of children's health, 
and to meet the health needs of other adult family members.\55\ It 
makes sense. If you guarantee paid sick days, you have healthier 
workers and a healthier next generation--both essential to competition.

                      Table 1.--Ten Most Competitive Economies and Their Sick Day Policies
----------------------------------------------------------------------------------------------------------------
                                                                                     Provides more than 10 paid
             Country/Economy                Ranking        Any paid sick days?                sick days
----------------------------------------------------------------------------------------------------------------
Switzerland..............................         1   Yes.........................  Yes
Finland..................................         2   Yes.........................  Yes
Sweden...................................         3   Yes.........................  Yes
Denmark..................................         4   Yes.........................  Yes
Singapore................................         5   Yes.........................  Yes
United States............................         6   No..........................  No
Japan....................................         7   Yes.........................  Yes
Germany..................................         8   Yes.........................  Yes
Netherlands..............................         9   Yes.........................  Yes
United Kingdom...........................        10   Yes.........................  Yes
----------------------------------------------------------------------------------------------------------------
* Rankings are from the World Economic Forum's Global Competitiveness Report 2006	2007. Information on paid sick
  days is taken from the Work, Family, & Equity Index, 2007.

                               conclusion
    Finally, I'd like to speak for a moment on a personal note, as a 
doctor and as a mother. When I cared for children as a doctor, like 
other pediatricians, I relied entirely on the ability of parents to 
provide care for their children. When I discharged a child from the 
hospital after a serious asthma attack, the prescription and 
instructions for care went with the mother and father--and on the 
shoulders of parents rested whether the child would have a healthy 
recovery or return within days to the emergency room. For parents whose 
work let them take sick days to care for their children, whether after 
an asthma attack, to get a routine vaccination, or to check that the 
child met important developmental milestones, this was a fair 
responsibility to place on their shoulders. But for too many American 
parents, I've learned they have no chance to provide adequate care for 
their children--no matter how desperately they want to--because they 
are forced to choose between taking the needed hours to care for their 
children's health and earning income that is essential to that care.
    As a young mother, I stood outside my son's childcare center and 
listened sadly to the experience of another parent. The childcare 
center served medical school faculty and hospital workers from every 
kind of job. The mother I spoke to had succeeded in leaving welfare for 
work and had placed her children in childcare. Like many children 
during their first year in childcare, hers were sick often with 
respiratory infections and fevers high enough that they were not 
allowed to go to the center. My children had the same hurdles, but I 
could take leave from work. Her job offered no paid sick days. At the 
end of the year, she was dismissed, unemployed, and falling deeper into 
poverty because of the days she missed when her children were sick.
    After a decade and a half of our research, confirmed over and over 
again by the research of other groups, we know these experiences are 
not the exception.
    In short, the United States currently lags dramatically behind all 
high-income countries, as well as many middle- and low-income countries 
when it comes to paid sick days designed to protect the health of 
working Americans and their families. Can the United States afford to 
provide paid sick days and still compete in the global economy? The 
answer is clearly yes. Most of the world already has legislation 
guaranteeing paid sick days. All the most competitive economies do. 
Will it make a difference to the health of American children and adults 
alike in need of care? An enormous one, particularly for the health and 
well-being of those in greatest need--low-income families and families 
with a child or adult with frequent illnesses or a chronic health 
condition.
    The Healthy Families Act is superbly constructed to help meet the 
essential needs of working adults and their families and at the same 
time is readily achievable. Thank you again for holding these hearings 
and for taking the time to move forward on these critically important 
issues facing American working families. If I or my staff can be of 
further help to you as you continue to deliberate on these issues, 
please do not hesitate to contact us.
                                Endnotes
\1\ Heymann J. (2000). The Widening Gap: Why America's Working Families 
    are in Jeopardy and What Can Be Done about It. New York: Basic 
    Books.
\2\ U.S Bureau of Labor Statistics. (2006). Employment Characteristics 
    of Families in 2005. Washington, DC.: U.S. Dept. of Labor. 
    Available online at: http://www.bls.gov/news.release/pdf/famee.pdf.
\3\ Bond, J.T., C. Thompson, E. Galinksy & D. Prottas. (2002). The 
    National Study of the Changing Workforce. New York: Families and 
    Work Institute.
\4\ Wang Q. (2005). Disability and American Families: 2000. Washington, 
    D.C.: U.S. Census Bureau. Available online at: http://
    www.census.gov/prod/2005pubs/censr-23.pdf.
\5\ Dalenberg, D., J. Fitzgerald, & J. Wicks. (2004). Direct valuation 
    of personal care by households. Population Research & Policy Review 
    23:73-89.
\6\ Bond, J.T., C. Thompson, E. Galinksy & D. Prottas. (2002). The 
    National Study of the Changing Workforce. New York: Families and 
    Work Institute.
\7\ Heymann J. (2000). The Widening Gap: Why America's Working Families 
    are in Jeopardy and What Can Be Done about It. New York: Basic 
    Books.
\8\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
    Equity Index: How Does the United States Measure Up? Boston/
    Montreal: Project on Global Working Families. Available online at: 
    http://www.mcgill.ca/files/ihsp/WFEIFinal 
    2007.pdf.
\9\ Lovell V. (2004) No Time to Be Sick: Why Everyone Suffers When 
    Workers Don't Have Paid Sick Leave. Washington, DC.: Institute for 
    Women's Policy Research. Available online at: http://www.iwpr.org/
    pdf/B242.pdf.
\10\ Heymann J. (2000). The Widening Gap: Why America's Working 
    Families are in Jeopardy and What Can Be Done about It. New York: 
    Basic Books.
\11\ Heymann J. (2000). The Widening Gap: Why America's Working 
    Families are in Jeopardy and What Can Be Done about It. New York: 
    Basic Books.
\12\ Loda F.A., W.P Glezen, & W.A. Clyde. (1972). Respiratory disease 
    in group day care. Pediatrics 49:428-437.
\13\ Sullivan P., W.E. Woodward, L.K. Pickering, & H.L. Dupont. (1984). 
    Longitudinal study of occurrence of diarrheal disease in day care 
    centres. Am J Public Health 74:987.
\14\ Dahl I.L., M. Grufman, C. Hellberg, & M. Krabbe. (1991). 
    Absenteeism because of illness at daycare centers and in three-
    family systems. Acta Paediatr Scand. 80:436.
\15\ Mottonen M. & M. Uhari. (1992). Absences for sickness among 
    children in day care. Acta Paediatr. 81:929.
\16\ Loda F.A., W.P Glezen, & W.A. Clyde. (1972). Respiratory disease 
    in group day care. Pediatrics 49:428-437.
\17\ Strangert K. (1976). Respiratory illness in preschool children 
    with different forms of day care. Pediatrics 57:191.
\18\ Doyle A.B. (1976). Incidence of illness in early group and family 
    day care. Pediatrics 58:607.
\19\ Robertson J. Young Children in Hospital. London, England: 
    Tavistock.
\20\ Van der Schyff G. (1979). The role of parents during their child's 
    hospitalization. Aust Nurs J. 8:57-61.
\21\ Mahaffy P. (1965). The effects of hospitalization on children 
    admitted for tonsillectomy and adenoidectomy. Nurs Res. 14:12-19.
\22\ Palmer S.J. (1993) Care of sick children by parents: A meaningful 
    role. J Adv Nurs. 18:185.
\23\ Taylor M. and P. O'Connor. (1989). Resident parents and shorter 
    hospital stay. Archives of Disease in Childhood 64(2): 274-276.
\24\ United Nations Population Division. (2004). World Population 
    Prospects: The 2004 Revision Highlights. New York: Department of 
    Economic and Social Affairs, UN. Available online at: http://
    www.un.org/esa/population/publications/WPP2004/
    2004Highlights_finalrevised.pdf.
\25\ Bennet S.J. (1993). Relationships among selected antecedent 
    variables and coping effectiveness in postmyocardial infarction 
    patients. Research in Nursing and Health 16:131-139.
\26\ Gorkin L., E.B. Schron, M.M. Brooks, I. Wiklund, J. Kellen, J. 
    Verter, J.A. Schoenberger, Y. Pawitan, M. Morris, & S. Shumaker. 
    (1993). Psychosocial predictors of mortality in the Cardiac 
    Arrhythmia Suppression Trial-1 (CAST-1). American Journal of 
    Cardiology 71:263-267.
\27\ Tsouna-Hadjis E., K.N. Vemmos, N. Zakopoulos, & S. 
    Stamatelopoulos. (2000). First-stroke recovery process: The role of 
    family support. Archives of Physical Medicine and Rehabilitation 
    81:881-887.
\28\ Seeman T.E. (2000). Health promoting effects of friends and family 
    on health outcomes in older adults. American Journal of Health 
    Promotion 14:362-370.
\29\ Berkman L.F. (1995). The role of social relations in health 
    promotion. Psychosomatic Medicine 57:245-254.
\30\ Gilleski D.B. (1998). A dynamic stochastic model of medical care 
    use and work absence. Econometrica 66:1-45.
\31\ Aronsson G., K. Gustafsson, & M. Dallner. (2000). Sick but yet at 
    work: An empirical study of sickness and presenteeism. Journal of 
    Epidemiology and Community Health 54:502-509.
\32\ Grinyer A. and V. Singleton. (2000). Sickness absence as risk-
    taking behaviour: A study of organizational and cultural factors in 
    the public sector. Health, Risk, and Society 2:7-21.
\33\ Johannsson G. (2002). Work-life balance: The case of Sweden in the 
    1990s. Social Science Information 41:303-317.
\34\ Skatun J.D. (2003) Take some days off, why don't you? Endogenous 
    sick leave and pay. Journal of Health Economics 22(3):379-402.
\35\ Heymann S.J., S. Toomey, & F. Furstenberg. (1999). Working 
    parents: What factors are involved in their ability to take time 
    off from work when their children are sick? Archives of Pediatrics 
    & Adolescent Medicine 153:870-874.
\36\ Heymann J. (2000). The Widening Gap: Why America's Working 
    Families are in Jeopardy and What Can Be Done about It. New York: 
    Basic Books.
\37\ Murphy B., H. Schofield, J. Nankervis, S. Bloch, H. Herman, & B. 
    Singh. (1997). Women with multiple roles: The emotional impact of 
    caring for ageing parts. Ageing and Society 17:277-291.
\38\ Joshi H., P. Paci, & J. Waldfogel. (1999). The wages of 
    motherhood: Better or worse? Cambridge Journal of Economics 23:543-
    564.
\39\ National Alliance for Caregiving and American Association of 
    Retired People. (2004). Caregiving in the U.S. Available at http://
    www.caregiving.org/data/04finalreport.pdf.
\40\ Heymann J. (2000). The Widening Gap: Why America's Working 
    Families are in Jeopardy and What Can Be Done about It. New York: 
    Basic Books.
\41\ Earle A. & S.J. Heymann. (2002). What causes job loss among former 
    welfare recipients? The role of family health problems. Journal of 
    the American Medical Women's Association 57:5-10.
\42\ Earle A., J.Z. Ayanian, & S.J. Heymann. (2006). What predicts 
    women's ability to return to work after newly diagnosed coronary 
    heart disease: Findings on the importance of paid leave. Journal of 
    Women's Health 15(4): 430-441.
\43\ Lovell V. (2004) No Time to Be Sick: Why Everyone Suffers When 
    Workers Don't Have Paid Sick Leave. Washington, DC.: Institute for 
    Women's Policy Research. Available online at: http://www.iwpr.org/
    pdf/B242.pdf.
\44\ Skatun J.D. (2003) Take some days off, why don't you? Endogenous 
    sick leave and pay. Journal of Health Economics 22(3):379-402.
\45\ Centers for Disease Control and Prevention. (2006). Key Facts 
    about Influenza and the Influenza Vaccine. Available online at: 
    http://www.cdc.gov/flu/keyfacts.htm.
\46\ Centers for Disease Control and Prevention. (2006). Good Health 
    Habits for Preventing the Flu. Available online at: http://
    www.cdc.gov/flu/protect/habits.htm.
\47\ Li J.H., G.S. Birkhead, D.S. Strogatz, & F.B. Coles. (1996). 
    Impact of institution size, staffing patterns, and infection 
    control practices on communicable disease outbreaks in New York 
    State nursing homes. American Journal of Epidemiology 143(10):1042-
    9.
\48\ Lovell V. (2005). Valuing Good Health: An Estimate of Costs and 
    Savings for the Healthy Families Act. Washington, DC.: Institute 
    for Women's Policy Research. Available online at: http://
    www.iwpr.org/pdf/B248.pdf.
\49\ Watkins M.P. (2004). The Case for Minimum Paid Leave for American 
    Workers. Seattle: Economic Opportunity Institute. Available online 
    at: http://www.eoi 
    online.org/MinimumPaidLeave/Minimum%20LeaveBlueprint2004.pdf.
\50\ Casey T.F. & K. Warlin. (2001). Retention and customer 
    satisfaction. Compensation Benefits Review 33:27-31.
\51\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
    Equity Index: How Does the United States Measure Up? Boston/
    Montreal: Project on Global Working Families. Available online at: 
    http://www.mcgill.ca/files/ihsp/WFEIFinal2007.pdf.
\52\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
    Equity Index: How Does the United States Measure Up? Boston/
    Montreal: Project on Global Working Families. Available online at: 
    http://www.mcgill.ca/files/ihsp/WFEIFinal2007.pdf.
\53\ Lopez-Claros A., M.E. Porter, X. Sala-i-Martin, & K. Schwab. 
    (2006). The Global Competitiveness Report 2006-2007. Hampshire, UK: 
    Palgrave Macmillan.
\54\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
    Equity Index: How Does the United States Measure Up? Boston/
    Montreal: Project on Global Working Families. Available online at: 
    http://www.mcgill.ca/files/ihsp/WFEIFinal2007.pdf.
\55\ Earle A. & J. Heymann. (2006). A comparative analysis of paid 
    leave for the health needs of workers and their families around the 
    world. Journal of Comparative Policy Analysis 8(3):241-257.

    The Chairman. Heidi.

 STATEMENT OF HEIDI HARTMANN, PH.D., PRESIDENT, INSTITUTE FOR 
            WOMEN'S POLICY RESEARCH, WASHINGTON, DC.

    Ms. Hartmann. Good morning, Mr. Chairman.
    The Chairman. Good morning.
    Ms. Hartmann. Senator Enzi, Senator Isakson. Thank you very 
much for the invitation to testify here this morning. I 
represent the Institute for Women's Policy Research, which is a 
think tank focusing on issues of importance to women. I'd like 
to acknowledge the work of Dr. Vicky Lovell on our staff, who 
has helped prepare the testimony today and who has conducted 
the research that I will be summarizing.
    And Mr. Chairman, before I begin, I'd like to thank you for 
your leadership, not only on the Healthy Families Act but on so 
many issues important to working women. I'd like to mention 
especially let us say your encouragement to the Bureau of Labor 
Statistics to reinstate the Women Workers Data series, a data 
set that we used today in presenting this research. So thank 
you very much.
    I'd also like to acknowledge Holly Fechner's contribution 
in crafting the Healthy Families Act. She took an idea, only an 
idea brought to her by some researchers back in 2000 and 
working with many other people along the way, including leaders 
of the business community and the health profession. She has 
drafted a well thought out law that we are able to hold 
hearings on today.
    Since the year 2000, when we first brought that idea to 
your staff, IWPR has conducted research on many aspects of the 
Healthy Families Act, working with other researchers, members 
of Congress, State and municipal legislators and advocates 
across the country.
    Today I want to just briefly summarize the most important 
findings and ask that the full testimony be included in the 
record. Our most recent research uses the brand new 
Confidential Data Set, the National Compensation Survey housed 
at the Bureau of Labor Statistics, which collects data from the 
nation's employers about the benefits they provide their 
workers.
    The first and most important point is that millions of U.S. 
workers are without any paid sick days. Fifty-seven million 
workers in March of 2006, the most recent survey date, lack 
paid sick days. Forty-eight percent, nearly half of all private 
sector workers lack paid sick days. Twenty-two million women 
workers lack paid sick days.
    When Mr. King will testify in a few moments that 75 percent 
of employers provide some paid days off, he is correct. They 
do. But that includes vacation and holidays. Having July 4th is 
great but it won't help you with an illness unless you happen 
to be sick on July 4th.
    Actually, it's true that half of all workers have no paid 
sick days. I wanted to also stress that if any employer has the 
new style PTO--paid time off--the flexible leave that is 
becoming more common, those employers are counted in these data 
as providing paid sick days. If we can take a look for a moment 
at Figure 1 (see Ms. Hartmann's prepared statement), it shows 
the industries that have coverage for their workers with paid 
sick days and it goes from a high of 80 percent of workers with 
paid sick days and utilities and finance and insurance to a low 
of only 22 percent in food service. If we look at only those in 
that industry who actually handle the food, it's only 15 
percent who have paid sick days and if we look further at a 
smaller group, waiters and waitresses, it's only 8 percent who 
have paid sick days. So 92 percent of waiters and waitresses 
have no paid sick days. Childcare workers--80 percent have no 
paid sick days. Retail sales clerks--57 percent have no paid 
sick days.
    Dr. Bhatia will testify that from a public health 
standpoint, food service jobs are among the most important jobs 
that should be protected with paid sick days. The very workers 
we come into contact with every day--food, childcare, retail 
services--they have among the worst coverage.
    Besides industry and occupation, who are the workers who 
most often lack paid sick days? Part-time workers, yes. Only 20 
percent have paid sick days. Eighty percent don't have any. But 
considering all full time workers, only 62 percent have some 
paid sick days. That means that nearly half--40 percent--don't 
have any.
    Low pay, yes. If we take a look at Figure 2 (see Ms. 
Hartmann's prepared statement), we see that only 20 percent in 
the bottom quarter have some paid sick days. Eighty percent 
don't have any.
    The Chairman. Excuse me, do you have these charts in a 
smaller form? I have difficulty seeing----
    Ms. Hartmann. Yes, they should be in the testimony.
    The Chairman. I have them. Thank you. One of my wonderful 
staff has just placed it in front of me. Thank you.
    Ms. Hartmann. Sorry. But I'd like to also call your 
attention not just to the bottom quartile where we can assume 
the lowest wage workers will have the least paid sick days but 
look at the second quartile from the bottom, where 40 percent 
don't have paid sick days and in the third quartile, 46 percent 
don't have paid sick days and even if you look in the highest 
paid quartile, 28 percent do not have paid sick days so that 
means nearly one-third of all workers, even in the top, don't 
have paid sick days. The lack of paid sick days, therefore, 
goes throughout the economy in virtually every sector from the 
lowest to the highest paid.
    We also found in the new National Compensation Survey that 
the average worker has to wait more than two and a half months 
to use any sick days the employer may have on the books.
    Finally, we have looked at the cost to the economy from the 
turnover that exists because all of these people do not have 
paid sick leave and the cost is actually $31 billion a year. 
These are new 2006 estimates but we'll be--they are 
provisional. We'll make new estimates when we have a new bill 
and the benefits to workers would be $22 million. So the 
benefit from the gain in productivity far outstrips the cost of 
$22 billion, $31 billion gain, $22 billion cost. So the economy 
as a whole gains.
    In conclusion, I would like to say that workers need 
expanded paid sick days policies. The change will be good for 
our economy. It will even save employers money, $9 billion and 
enacting the Healthy Families Act will therefore increase the 
total output in the economy and improve the operation of the 
U.S. economy. Thank you. If I or my staff can be of further 
help, please do not hesitate to contact us.
    [The prepared statement of Ms. Hartmann follows:]
             Prepared Statement of Heidi I. Hartmann, Ph.D.
    Mr. Chairman and members of the committee, I am Heidi Hartmann, 
President of the Institute for Women's Policy Research, an independent, 
scientific research institute focusing on women's economic issues. 
Trained as a labor economist, with the Ph.D. degree from Yale 
University, I have studied women's employment issues for more than 30 
years. I am also a Research Professor at George Washington University. 
I am pleased to have the opportunity to testify today on the impact of 
the Healthy Families Act on workers, businesses, the general economy, 
and public health.
    research documents the need and points toward effective policies
    The Institute for Women's Policy Research (IWPR) has been 
conducting research on the adequacy of existing paid sick days policies 
since 2000. During this period, we have analyzed confidential data 
collected from employers by the U.S. Bureau of Labor Statistics to 
assess coverage provided voluntarily by employers; explored workers' 
use of paid time off policies with data collected by the U.S. 
Department of Health and Human Services; completed scans of medical and 
economics literature for data on the likely effects of expanding paid 
sick days programs; and worked closely with other researchers to 
develop valid approaches to measuring consequences workers experience 
when they lack adequate paid sick days. IWPR has provided data and 
policy analysis on this topic to Members of Congress, State 
legislatures, municipal governing bodies, and stakeholder groups 
working on the issue. We have completed non-partisan analysis at 
critical junctures in several campaigns for expanded paid sick days 
policies, including the movement in San Francisco that led to voter 
endorsement of a paid sick days ballot initiative in November 2006.
current paid sick days policies leave tens of millions with no coverage 
                                  \1\
    Only 58 percent of the non-agricultural wage-and-salary workforce 
is covered by a formal paid sick days policy for which they are 
actually eligible (Table 1). \2\ This leaves 42 percent--more than 57 
million workers--without paid sick days. Nearly 23 million of these 
workers are women. Workers in the public sector have much better 
coverage than in the private sector. Considering the private sector 
alone, fully 48 percent of employees, nearly half, lack eligibility for 
any paid sick days.

                  Table 1.--Percent and Number of Workers With and Without Paid Sick Days, 2006
----------------------------------------------------------------------------------------------------------------
                                           Workers with paid sick     Workers without paid sick
                                                    days                        days             Total number of
                                        --------------------------------------------------------   workers \1\
                                          Percent        Number       Percent        Number
----------------------------------------------------------------------------------------------------------------
Private sector.........................         52       58,517,000         48       54,538,000      113,055,000
State and local government.............         87       16,735,000         13        2,501,000       19,235,000
Total, private and State/local \2\.....         57       75,252,000         43       57,038,000      132,290,000
Federal Government.....................        100        2,709,000          0                0        2,709,000
Total, private and public sectors......         58       77,960,000         42       57,038,000      134,999,000
----------------------------------------------------------------------------------------------------------------
Notes: Excludes agricultural, military, private household, and self-employed workers. Rows and columns may not
  sum to totals due to rounding.
\1\ Workforce numbers for 2006 use the Current Employment Statistics; IWPR's report No Time To Be Sick: Why
  Everyone Suffers When Workers Don't Have Paid Sick Days (Institute for Women's Policy Research, 2004) used the
  Current Population Survey, for the 2003 workforce.
\2\ These numbers and percentages are comparable to those of Table 1 in the IWPR publication No Time To Be Sick:
  Why Everyone Suffers When Workers Don't Have Paid Sick Days (Institute for Women's Policy Research, 2004).

Source: Institute for Women's Policy Research analysis of the March 2006 National Compensation Survey, the
  November 2005 through October 2006 Current Employment Statistics, and the November 2005 through October 2006
  Job Openings and Labor Turnover Survey.

    In some industries, coverage is notably worse than the overall 
average (Table 1 and Figure 1). Fewer than one-quarter of workers in 
the accommodation and food service industry have paid sick days (22 
percent); coverage in construction is nearly as bad, at 25 percent. 
Employers in administration and waste services (which includes many 
clerical workers) and in arts, entertainment, and recreation extend 
paid sick days to only about one-third of their workers (31 and 35 
percent, respectively). Retail trade also trails the average, with 45 
percent of workers covered. Many of these industries with below average 
coverage are those with workers that all of us come into contact with 
every day: food service workers, cashiers, sales clerks. At the other 
end of the scale, roughly three-fourths of workers in wholesale trade; 
health care and social assistance; information; and management have 
paid sick days (71, 71, 74, and 77 percent, respectively), and more 
than four of every five workers in finance and insurance and in 
utilities are covered (82 and 85 percent, respectively).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Coverage is best in larger establishments: \3\ Three-fourths of 
workers in the largest establishments (those with 5,000 or more 
employees) have paid sick days, while only two-fifths of workers in the 
smallest establishments (with one to nine workers) do (77 percent vs. 
42 percent; Table 2). For all establishments covered by the FMLA, 58 
percent of workers are eligible for paid sick days. For smaller 
establishments, with fewer than 50 employees, 42 percent are eligible 
for paid sick days.

    Table 2.--Worker Eligibility For Employer-Provided Paid Sick Days
 Policies in the Private Sector, By Establishment Characteristics, 2006
------------------------------------------------------------------------
                                                            Percent of
                                                           workers with
                                                            employer-
                                                          provided paid
                                                            sick days
------------------------------------------------------------------------
Industry:
  Accommodation and food service.......................              22
  Construction.........................................              25
  Administration and waste services....................              31
  Arts, entertainment, and recreation..................              35
  Retail trade.........................................              45
  Mining...............................................              49
  Other services.......................................              49
  Manufacturing........................................              52
  Transportation and warehousing.......................              56
  Real estate and rental...............................              67
  Educational services.................................              68
  Professional and technical services..................              69
  Wholesale trade......................................              71
  Health care and social assistance....................              71
  Information..........................................              74
  Management...........................................              77
  Finance and insurance................................              82
  Utilities............................................              85
  All..................................................              52
Number of Employees:
  1 to 9...............................................              42
  10 to 24.............................................              40
  25 to 49.............................................              44
  50 to 99.............................................              41
  100 to 499...........................................              55
  500 to 4,999.........................................              71
  5,000 or more........................................              77
  1 to 49 workers......................................              42
  50 or more (FMLA covered)............................              58
  All..................................................              52
Region:
  New England..........................................              61
  Mid-Atlantic.........................................              56
  East North Central...................................              48
  West North Central...................................              51
  South Atlantic.......................................              49
  East South Central...................................              48
  West South Central...................................              49
  Mountain.............................................              52
  Pacific..............................................              55
  All..................................................              52
------------------------------------------------------------------------
Note: Excludes agricultural, military, private household, and self-
  employed workers. Rows and columns may not sum to totals due to
  rounding.
Source: Institute for Women's Policy Research analysis of the March 2006
  National Compensation Survey, the November 2005 through October 2006
  Current Employment Statistics, and the November 2005 through October
  2006 Job Openings and Labor Turnover Survey.

    By region, paid sick days coverage ranges from a low of 48 percent 
in the East North Central region (which includes the States of 
Illinois, Indiana, Michigan, Ohio, and Wisconsin) and the East South 
Central region (which includes the States of Alabama, Kentucky, 
Mississippi, and Tennessee) to a high of 61 percent in New England 
(Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, and 
Vermont; Table 2).
          lower-wage workers are shut out of current policies
    The availability of paid sick days varies enormously along job 
characteristics such as occupation, work hours, and wage level (Table 
3). In general, professional and other white-collar workers have the 
best paid sick days coverage, and those in lower-level service-sector 
jobs are the least likely to have any paid sick days. Among 
occupations, paid sick days rates are the highest for lawyers, 
managers, and computer, math, architecture, and engineering 
professionals, at 84 percent, 83 percent, and 81 percent, respectively. 
Three of every four workers in business and financial occupations, 
community and social services, and life, physical, and social sciences 
also have paid sick days (78 percent, 77 percent, and 75 percent, 
respectively). At the other end of the spectrum, only one in seven food 
service workers has paid sick days (15 percent). Protective services 
and construction workers also have very low coverage, at 22 percent and 
18 percent, respectively.

Table 3.--Worker Eligibility For Employer-Provided Paid Sick Days in the
              Private Sector  By Job Characteristics, 2006
------------------------------------------------------------------------
                                                            Percent of
                                                           workers with
                                                            employer-
                                                          provided paid
                                                            sick days
------------------------------------------------------------------------
Occupation:
  Food Preparation and Services........................              15
  Construction and Extraction..........................              18
  Protective Services..................................              22
  Personal Care and Service............................              37
  Transportation and Material Moving...................              41
  Production...........................................              41
  Sales................................................              46
  Building services, Grounds Cleaning, and Maintenance.              53
  Installation, Maintenance, and Repair Services.......              58
  Arts, Entertainment, Sports..........................              62
  Education and Training...............................              62
  Healthcare Support...................................              65
  Office and Administrative Support....................              68
  Healthcare Practice and Technical....................              71
  Life, Physical, and Social Sciences..................              75
  Community and Social Services........................              77
  Business and Financial...............................              78
  Architecture and Engineering.........................              81
  Computer and Math....................................              81
  Management...........................................              83
  Legal................................................              84
  All..................................................              52
Wage Level:
  Fourth (bottom)......................................              21
  Third................................................              54
  Second...............................................              62
  First (top)..........................................              72
  All..................................................              52
Work Schedule:
  Full-time............................................              62
  Part-time............................................              20
  Full-year............................................              53
  Part-year............................................              26
  Full-year, full-time.................................              63
  Not full-year, full-time.............................              21
  All..................................................              52
------------------------------------------------------------------------
Notes: Excludes agricultural, military, private household, and self-
  employed workers. Rows and columns may not sum to totals due to
  rounding. Cutoffs for wage quartiles: first (top), $21.66 or more;
  second, $13.50 to $21.65; third, $9.23 to $13.49; and fourth (bottom),
  less than $9.23.

Source: Institute for Women's Policy Research analysis of the March 2006
  National Compensation Survey, the November 2005 through October 2006
  Current Employment Statistics, and the November 2005 through October
  2006 Job Openings and Labor Turnover Survey.

    Full-time workers are more than three times as likely to have paid 
sick days as part-time workers (62 percent vs. 20 percent). While 
working a short week does provide some flexibility to respond to health 
needs, many part-timers have less than full-time hours involuntarily, 
and others work multiple part-time jobs in order to patch together a 
full-time income. (Despite the fact that 19 percent of women and 24 
percent of men would prefer to work more hours than they currently 
do,\4\ some firms deliberately limit workers' hours in order to avoid 
having them become eligible for benefits such as paid sick days.) Thus, 
the lack of paid sick days for part-time workers is as serious an issue 
as the incomplete coverage of full-time workers. Workers on part-year 
schedules also have very restricted access to paid sick days, with only 
one-quarter covered (26 percent).
    Differences in paid sick days coverage by wage level are as extreme 
as those by occupation. At the top, nearly three-fourths of workers 
have access to paid sick days (72 percent; Figure 2 and Table 3).\5\ 
Coverage drops to three-fifths for workers in the second wage quartile 
(62 percent), and then to just over half for those in the third wage 
quartile (54 percent). Only about one-fifth of workers in the bottom 
wage quartile have paid sick days (21 percent). (The wage threshold for 
the bottom wage quartile is $9.23, approximately the same as the hourly 
wage which, if worked full-time throughout the year, would provide a 
poverty-line income for a family of four.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to having differential access to paid sick days, 
workers at different wage levels are offered different numbers of paid 
sick days (Table 4). After 1 year on the job, workers in the top wage 
quartile average 10 paid sick days. Those in the second wage quartile 
have nearly 8 days; in the third, 7; and in the bottom, 6.5. With 10 
years of job tenure, those at the top accrue nearly an additional 3 
days, for a total of 12.7, while those in the bottom wage quartile have 
only one more paid sick day, giving them 7.5 days annually. The lowest-
wage workers also have to wait longer to qualify for paid sick days 
than higher-wage workers: an average of 3.5 months, or nearly twice the 
job tenure requirement of 1.9 months offered to workers in the top wage 
quartile.

     Table 4.--Number of Paid Sick Days By Years of Job Tenure, and
                 Eligibility Periods,  By Wage Quartile
------------------------------------------------------------------------
                                             Number of paid
                                                sick days     Number of
                                                 after:         months
               Wage quartile                ----------------   between
                                                       10      hire and
                                             1 year   years  eligibility
------------------------------------------------------------------------
Top........................................    10.0    12.7         1.91
Second.....................................     7.8     9.1         2.33
Third......................................     7.1     8.4         3.12
Bottom.....................................     6.5     7.5         3.48
All........................................     8.1     9.8         2.59
------------------------------------------------------------------------
Notes: Excludes agricultural, military, private household, and self-
  employed workers. Rows and columns may not sum to totals due to
  rounding.

Source: Institute for Women's Policy Research analysis of the March 2006
  National Compensation Survey, the November 2005 through October 2006
  Current Employment Statistics, and the November 2005 through October
  2006 Job Openings and Labor Turnover Survey.

   workers with paid sick days take 3.9 days per year for their own 
        illnesses and 1.3 days to care for other family members
    According to IWPR analysis of the 2004 National Health Interview 
Survey, workers who are covered by paid sick days policies miss an 
average of 3.9 days of work per year for their own illness and injury 
(excluding maternity leave).\6\ (Workers who lack this benefit take 
approximately one fewer day off for sickness per year, at an average of 
3.0 days.) But, of course, individual workers vary enormously in their 
need for paid sick days. Zero is the most typical number of days taken 
off for illness: half (50 percent) of those with a paid sick days 
policy do not miss a single day of work because of illness in an entire 
year. Others--those with chronic illnesses, or medical emergencies--
need more than 1 week in at least some years.
    According to the U.S. Department of Labor's 2000 Family and Medical 
Leave Act Survey of Employees, workers take 0.33 days of FMLA-type 
leave to care for ill children, spouses, and parents for every day of 
leave taken for their own health needs. Thus, on average, we estimate 
that workers need 1.3 days of paid sick time per year to care for 
family members.\7\ Again, this need will vary considerably by 
individual circumstances. For instance, parents of school-age children 
may need to attend to their children at home for approximately 4 days 
per year,\8\ and workers with responsibility for elderly parents or 
disabled adult children may need more time as well.
    The Healthy Families Act, as proposed in the last congressional 
session, would also provide time off work with pay for workers to 
obtain preventive and other care from doctors. This is likely to 
involve 3.5 hours for doctor visits per year, on average, for workers' 
own health needs.\9\
 the healthy families act would bring benefits to workers, businesses, 
                        and the overall economy
    Workers and their families. Establishing a minimum paid sick days 
standard through a bill such as the Healthy Families Act, proposed in 
the last session, would bring immediate benefits to workers who 
currently lack paid sick days. They would likely take an average of one 
additional day off work for their own health-care needs, and thus 
recuperate more completely and faster from illnesses, injuries, 
surgery, and other medical treatments.\10\ Their families would not 
suffer the lost income associated with staying home on unpaid leave 
when working is impossible.
    The preliminary 2006 estimated benefit to workers in new sick pay 
under a model program proposed to the 109th Congress as the 2004 
Healthy Families Act would be $19.6 billion. This is the amount of new 
pay that workers who did not have sick pay before, or whose sick days 
were limited, would be expected to receive each year.
    Children recover their health faster with parents' involvement,\11\ 
and having paid time off is the primary factor in parents' decisions 
about staying home when their children are sick.\12\ Thus, workers who 
are granted new paid sick days will experience better health outcomes 
for their children and, likely, lower health-care expenditures. Parents 
who are allowed to take their children to the doctor during work hours 
without missing pay may also be better able to carry out recommended 
treatments and routine care, such as immunizations and well-child 
check-ups. And family care will not cause workers to lose as much 
income as they now do. Now, half of working mothers, and 75 percent of 
low-wage working mothers, lose pay when they stay home with a sick 
child.\13\ This is a costly, stressful burden to impose on families 
already struggling to shoulder the responsibilities of work and family.
    With better paid sick days programs, families may also be able to 
avoid some short-term nursing home stays for elderly relatives. Over 21 
million full-time workers are caregivers for aging family members.\14\ 
It is not unusual for an older patient to be dismissed from a hospital 
as too healthy to need such a high level of medical care, but not being 
healthy enough to be home alone. If an adult child can take a couple 
days off work to provide needed care, the patient may be able to 
transition directly home. With nursing homes charging an average of 
$158 per day,\15\ and skilled in-home care also costly, families that 
can take care of their own relatives can enjoy substantial savings.
    Employers. With improved sickness absence programs, businesses will 
gain in at least three ways. First, and most significant in monetary 
terms: Rates of voluntary turnover will drop, as workers find their 
current compensation package more attractive and are, therefore, less 
inclined to search out another job. Research shows that turnover rates 
will drop by between 4 and 7 percentage points, for different 
demographic groups of workers.\16\ Replacing workers is very expensive: 
Even in the low-wage labor market, filling a vacant position and 
bringing a new worker up to full productivity can cost 43 percent of 
annual pay.\17\ A more general rubric is that an employer must pay 25 
percent of a worker's total yearly compensation (including the cost of 
benefits) to replace a worker.\18\
    This benefit alone will save employers more than the total cost of 
additional wages, payroll taxes, and administrative expenses of the 
Healthy Families Act.
    A second major benefit for employers is that, when at work, their 
workers will be healthier. That is, those who are too sick to perform 
at full capacity will be at home, rather than receiving their full 
compensation for being at work but not being productive. Savings 
associated with better management of workers' presenteeism will help 
offset new wage payments to workers who, appropriately, stay at home 
when they are sick.
    Finally, employers will reap benefits in lower overall sickness 
rates when workers with contagious diseases remove themselves from the 
workplace and avoid passing germs to their colleagues. Thirty percent 
of workers report having become sick from someone in their office 
during the last flu season \19\; many have experienced the phenomenon 
of a cold or flu spreading through a worksite, taking out one worker 
after another. This is much less likely to happen if workers can stay 
home when they are in a contagious phase of a disease. Employers know 
that presenteeism is not a good thing: More than half (56 percent) say 
it is a problem for them.\20\
    The preliminary 2006 estimate of the total benefits of a bill such 
as the Healthy Families Act introduced in the last session of Congress 
is $31.2 billion, which far outstrips the estimated total cost of $22.3 
billion.\21\
    Public health. The issue of contagion has very important 
implications for public health, in addition to its impact on individual 
employers. Should a serious pandemic erupt--such as might occur if the 
bird flu mutated to be transmittable between humans--it will be 
critical that infected workers reduce their social contacts as much as 
possible while they are in a contagious phase. But even less serious 
flu outbreaks can be ameliorated by good paid sick days policies that 
allow workers to sensibly withdraw from worksites to avoid spreading 
disease. Research has shown that the incidence of disease within 
workplaces is lessened when workers have paid sick days.\22\ That also 
means that fewer individuals are bringing germs home to their own 
families and friends. And that is why the Centers for Disease Control 
and Prevention recommend that people who have the flu stay home.\23\
    The economy at large. The productivity effects of expanded paid 
sick days will benefit not only individual employers--they will add to 
overall economic productivity. Reducing total sickness absence by 
keeping sick workers out of offices and reducing voluntary job turnover 
will help to maximize workers' output. Job-protected paid sick days are 
especially important to women workers. Still today women workers bear 
the larger share of family care, and thus having the right to leave and 
return to their jobs, and not lose pay, is of far greater benefit to 
women. A bill to guarantee workers several paid sick days per year 
(that can also be used for family care) will lengthen and strengthen 
women's attachment to their jobs, enabling them to gain job seniority 
and improve their long-term productivity. A paid sick days bill will 
help women's average time on the job catch up with men's, contributing 
ultimately to greater pay equity between women and men.
    Holding down involuntary job loss will also contribute to economic 
productivity. There is an ever-growing accumulation of anecdotal 
evidence about this effect, collected by worker rights organizations 
such as 9to5 \24\ as well as the Center for WorkLife Law at the 
Hastings School of Law.\25\ As no government surveys measure this 
phenomenon, it is difficult to estimate the dollar value of recovered 
productivity that would accrue from better paid sick days policies that 
keep workers from being fired for missing work when they, or members of 
their families, are sick. As a rough estimate, using known data on the 
share of the low-wage workforce that lacks paid sick days (79 percent), 
rates of hiring in low-wage industries, and the share of low-wage new 
hires that replaces workers (as opposed to filling new positions), IWPR 
calculates that involuntary turnover related to the lack of paid sick 
days for low-wage workers likely costs employers nearly $2 billion 
annually. This cost estimate is based on using a parameter of 3.3 
percent of job loss in the low-wage labor market is involuntary due to 
the lack of paid sick days. The productivity impact of inadequate paid 
sick days policies is certainly very substantial. Productivity losses 
of this nature are a drain on the economy as a whole, in addition to 
their direct impacts on workers and employers.
    IWPR's research clearly shows the need for expanded access to paid 
sick days and, further, that such access will bring benefits not only 
to workers but also to businesses and the economy overall. In fact the 
benefits substantially outweigh the costs, indicating that enactment of 
such a requirement would improve the operation of the U.S. economy. Our 
research also documents that workers make modest use of paid sick days 
policies--the most typical number of days taken off per year is zero, 
and workers who have paid sick days miss only one more day of work than 
those without. I urge the Congress to develop this legislation to 
address the needs of workers for paid sick days and improve overall 
productivity and economic growth.
    If I or my staff can be of further help to you as you continue to 
deliberate on these issues, please do not hesitate to contact us. Thank 
you for holding this hearing and for the opportunity to testify.
                              methodology
    The IWPR analysis of paid sick days coverage rates begins with 
analysis of the March 2006 National Compensation Survey (NCS). 
Collected by the U.S. Bureau of Labor Statistics (BLS), this payroll 
survey includes more than 10,000 private-sector establishments of all 
sizes and 41,985 individual jobs. (Private household and military 
employers and the self-employed are not included.) IWPR staff conducted 
the analysis of the confidential microdata set onsite at the BLS under 
contract with the BLS. Weighting variables calculated by the BLS allow 
generalization of findings to the entire U.S. private-sector workforce. 
The March 2006 NCS did not survey local and State governments, so 
participation rates for workers in those sectors are from IWPR's 
previous analysis of the 1996-1998 Employee Benefits Survey, the 
precursor to the NCS.
    The NCS queries employers on numerous benefits provided to workers 
for which the employer incurred a cost. Regarding paid sick days 
benefits, it specifically collects data on whether jobs are covered by 
a policy allowing workers to stay home, with pay, when they are sick. 
(Thus, general paid-time-off policies that do allow this use are coded 
as being paid sick days programs.) Individual incumbents in those jobs 
may not yet have met employer-imposed eligibility thresholds related to 
job tenure. That is, the NCS provides data on ``access'' to paid sick 
days, but not on ``participation.'' To adjust for eligibility, data on 
the percent of workers who are new hires, taken from the BLS' Job 
Openings and Labor Turnover Survey, by industry, were combined with 
data from the NCS on the average number of days between date of hire 
and eligibility for paid sick days policies (78 days). In the analysis 
presented here, ``participation'' refers to the share of the workforce 
that has ``access'' to paid sick days, according to the NCS, and has 
also met the average eligibility threshold.
    Workforce size estimates use the Current Employment Statistics 
payroll survey.
    In estimating the 2006 benefits of the Healthy Families Act, the 
2003 estimates presented in Valuing Good Health: An Estimate of Cost 
and Savings for the Healthy Families Act (Washington, DC.: Institute 
for Women's Policy Research, 2005) were used, with final dollar values 
for wages and other factors inflated to 2006 dollars using the CPI.
    To estimate the costs of involuntary job loss by low-wage workers, 
the most likely to lack paid sick days, IWPR combined information from 
several sources. The size of the low-wage workforce was estimated as 
the lowest paid quartile, using the sources described above; 79 percent 
of these lack paid sick days according to IWPR analysis of the 2006 
National Compensation Survey. Monthly new hires from the Job Openings 
and Labor Turnover Survey for Accommodation and Food Service were used 
to proxy new hires for the low-wage labor force as a whole. IWPR then 
adjusted these numbers downward to obtain an estimate of the amount of 
job replacement, as opposed to job growth, based on data from the BLS 
for those with a high school degree or less.\26\ We estimate that 3.3 
percent of all turnover in the low-wage labor market is involuntary job 
loss due to the lack of paid sick days. Finally, we estimate the annual 
compensation cost of the low-wage worker from Valuing Good Health 
(inflated to 2006 dollars) and, following that report, assume that 
turnover costs equal 25 percent of total annual compensation.
                                Endnotes
    \1\ Data presented here are from Institute for Women's Policy 
Research analysis of the March 2006 National Compensation Survey, which 
collected information on employment benefits from over 10,000 non-
agricultural private-sector establishments. (Private households were 
not surveyed.) The survey's data on workers' ``access'' to paid sick 
days was adjusted to reflect actual participation in these programs 
using data on new hires from the Job Openings and Labor Turnover 
Survey, to account for workers who have not yet met job tenure 
eligibility criteria for participation in offered paid sick days 
programs.
    \2\ Refers to the workforce excluding Federal, military, and 
private household employees and the self-employed.
    \3\ These data are for establishments--individual physical business 
locations; the National Compensation Survey does not collect data at 
the level of firms. (A firm may comprise a number of individual 
establishments.)
    \4\ Jeremy Reynolds, ``When Too Much Is Not Enough: Actual and 
Preferred Work Hours in the United States and Abroad,'' Sociological 
Forum 19, 1 (2004): 89-120.
    \5\ The top wage quartile includes workers making $21.66 or more 
per hour; second, $13.50 to $21.65; third, $9.23 to $13.49; and fourth 
(bottom), less than $9.23.
    \6\ Vicky Lovell, Valuing Good Health in San Francisco: The Costs 
and Benefits of a Proposed Paid Sick Days Policy (Washington, DC.: 
Institute for Women's Policy Research, 2006).
    \7\ Rutgers University Center for Women and Work analysis of data 
from U.S. Department of Labor, Family and Medical Leave Surveys, 2000 
Update, April 12, 2005.
    \8\ Vicky Lovell, No Time to be Sick: Why Everyone Suffers When 
Workers Don't Have Paid Sick Leave (Washington, DC.: Institute for 
Women's Policy Research, 2004).
    \9\ Lovell 2006.
    \10\ Anne Grinyer and Vicky Singleton, ``Sickness Absence as Risk-
Taking Behavior: A Study of Organizational and Cultural Factors in the 
Public Sector,'' Health, Risk and Society 2 (March 2000): 7-21.
    \11\ Sarah J. Palmer, ``Care of Sick Children by Parents: A 
Meaningful Role,'' Journal of Advanced Nursing 18 (February 1993): 185-
191.
    \12\ Jody S. Heymann, Alison Earle, and Brian Egleston, ``Parental 
Availability for the Care of Sick Children,'' Pediatrics 98 (August 
1996): 226-230.
    \13\ Roberta Wyn, Victoria Ojeda, Usha Ranji, and Alina 
Salganicoff, Women, Work, and Family Health: A Balancing Act 
(Washington, DC.: Henry J. Kaiser Family Foundation, 2003). <http://
www.khpa.ks.gov/healthquest/pdfs/Balancing_Act_ 
Issue_Brief.pdf>
    \14\ National Alliance for Caregiving and AARP, Caregiving in the 
U.S. (Bethesda, MD: National Alliance for Caregiving, 2004).
    \15\ MetLife, The MetLife Market Survey of Nursing Home & Home Care 
Costs (Westport, CT: MetLife Mature Market Institute, 2004).
    \16\ Philip F. Cooper and Alan C. Monheit, ``Does Employment-
Related Health Insurance Inhibit Job Mobility?'' Inquiry 30 (Winter 
1993): 400-416.
    \17\ Walter E. Johnson and Dan M. Tratensek, ``Employee Turnover,'' 
Do-It-Yourself Retailing 180 (June 2001).
    \18\ Employment Policy Foundation, ``Employee Turnover--A Critical 
Human Resource Benchmark,'' HR Benchmarks (December 3, 2002): 1-5 
<www.epf.org> (January 3, 2005).
    \19\ National Foundation for Infectious Diseases, New National 
Survey Shows Employees Feel Pressured to Go to Work, Despite Being Sick 
with Flu <http://www.nfid.org/pdf/docs/workplace_flu_release.pdf> 
(February 8, 2007).
    \20\ CCH Incorporated, ``Findings from the 2006 Unscheduled Absence 
Survey'' <http://hr.cch.com/thenews> (January 24, 2007).
    \21\ Institute for Women's Policy Research analysis updating the 
findings presented in Vicky Lovell, Valuing Good Health: An Estimate of 
Cost and Savings for the Healthy Families Act (Washington, DC.: 
Institute for Women's Policy Research, 2005) to account for inflation.
    \22\ Jiehui Li, Guthrie S. Birkhead, David S. Strogatz, and F. 
Bruce Coles, ``Impact of Institution Size, Staffing Patterns, and 
Infection Control Practices on Communicable Disease Outbreaks in New 
York State Nursing Homes,'' American Journal of Epidemiology 143 (May 
1996): 1042-1049.
    \23\ U.S. Department of Health and Human Services, Influenza 
Symptoms, Protection, and What to Do If You Get Sick <http://
www.cdc.gov/flu/pdf/symptoms.pdf> (February 8, 2007).
    \24\ 9 to 5: National Association of Working Women, 10 Things that 
Could Happen to You if You Didn't Have Paid Sick Days <http://
www.9to5.org/downloads/booklet.pdf> (February 9, 2007).
    \25\ Joan C. Williams, One Sick Child Away From Being Fired: When 
``Opting Out'' is Not an Option (San Francisco: UC Hastings College of 
Law, WorkLife Law, 2006).
    \26\ Daniel E. Hecker, ``Occupational Employment Projections to 
2014,'' Monthly Labor Review (November 2005): 70-101.

    The Chairman. Thank you very much.
    Rajiv.

STATEMENT OF RAJIV BHATIA, M.D., MPH, DIRECTOR OF OCCUPATIONAL 
 AND ENVIRONMENTAL HEALTH FOR THE SAN FRANCISCO DEPARTMENT OF 
 PUBLIC HEALTH AND ASSISTANT CLINICAL PROFESSOR OF MEDICINE AT 
           UNIVERSITY OF CALIFORNIA AT SAN FRANCISCO

    Dr. Bhatia. Good morning, Mr. Chairman, Senator Isakson, 
Senator Enzi. My name is Rajiv Bhatia. I served as the Director 
of Occupational and Environmental Health for the City and 
County of San Francisco since 1998. I also teach at the 
University of California. My research focus is on methods to 
study the health impacts of social, economic and environmental 
policies. It has always been important to me that health is 
valued with economic concerns equally. In fact, health is the 
reason that we promote economic concerns in the first place.
    In November 2006, San Francisco became the first place in 
the United States to require employers to provide sick days. 
Sixty-one percent of the voters approved this ballot 
initiative, in part because of the impacts on public health. In 
my testimony, I want to focus on three important issues that 
have already been, in part, mentioned by the other witnesses 
here today.
    First, I want to talk about the trade-offs that workers 
without paid sick days have to face. Second, the risk of 
infectious disease in the workplace and third, the economic and 
social costs of avoidable hospitalization.
    For the tens of millions of workers that don't have paid 
sick days, you're asking them to make a choice between two 
pretty unacceptable adverse health impacts--not taking care of 
themselves or their children or risking eviction or hunger or 
potentially a loss of future economic employment. About 14.1 
million households pay 50 percent of their income or more in 
rent. They are severely rent burdened. They have a few hundred 
dollars extra a month.
    Twelve percent of U.S. households are food insecure and 4 
percent are hungry. When a worker without paid sick days has to 
make a choice, they are making a choice between two pretty 
unacceptable health consequences.
    The health impacts of these choices don't stop just with 
the individuals who don't have the sick days; they affect all 
of us. We've heard about the spread of infectious disease. 
Three of the most important infectious diseases that are really 
easily spread from person to person are influenza, stomach flu 
and meningitis. These diseases are spread just by touching or 
shaking hands or contact with the surface or sneezing--things 
that happen easily at workplaces or schools.
    Up to 20 percent of the population gets the flu. Thirty-six 
thousand people die from it. These viral gastroenteritis and 
viral meningitis affect tens of thousands of children a year. 
The Center for Disease Control recommends when you have 
influenza, stay home from work when you're sick. Paid sick days 
lets Americans make a responsible choice.
    The third and I think very important reason for us to 
provide paid sick days has to do with food service workers. We 
go to restaurants every day. We go to catered parties and food 
service workers are working here without paid sick days. They 
know--we know food service workers are not supposed to go to 
work sick but food service workers may not recognize the 
symptoms of a food borne illness. They may defer it to earn 
some extra money and they are putting--in that short period of 
time, they can be spreading the disease, not only just to a few 
people through a restaurant but thousands of people if they are 
working in a food processing plant.
    As we know, only 15 percent of workers in the food service 
industry have paid sick days and this is among the lowest rate 
of occupations.
    Finally, I want to talk about hospitalizations. There are 
few hospitalizations for chronic diseases that are entirely 
preventable with appropriate and timely care. There are 14.7 
million diabetics in this country. There are 600,000 
hospitalizations for diabetes. There are 30 million asthmatics 
with 500,000 hospitalizations every year. Early treatment can 
prevent these hospitalizations and save, for example, up to 
$13,000 for the hospitalization costs of asthma.
    In order to get this timely caring, you not only need 
health insurance but you need time off. You need 
transportation. Sick day benefits, in my experience, have been 
one that helps patients get to their doctor appointments and 
prevents these hospitalizations. This can have tremendous 
social costs. It can particularly prevent and help our public 
safety hospitals who are caring for the majority of low 
income--a lot of low-income workers without paid sick days.
    I want to conclude by just highlighting the significance of 
employment and social policies in general, on public health. 
The United States spends the most of the developed world on 
health: $6,000 per year--15 percent of our GDP. This is over 
twice the spending of every other western democratic market 
economy in the world and our health performance is the poorest. 
Canada and England--we live a full year less than people in 
Canada and England--3 years less than Spain, Sweden and 
Switzerland. The fact that our health performance is poor 
underscores what public health professionals know--that we 
don't provide the social and economic and environmental 
conditions for good health for all Americans and that is why 
these other countries are outperforming us in health. I am very 
encouraged that you're considering the public health 
consequences of this law. I sincerely hope that we can have 
paid sick days for all Americans, not only because it's humane, 
because it's in the interest of public health. Thank you.
    [The prepared statement of Dr. Bhatia follows:]
             Prepared Statement of Rajiv Bhatia, M.D., MPH
    My name is Rajiv Bhatia. I have a Medical Doctorate from Stanford 
University and a Masters in Public Health from the University of 
California at Berkeley. I have practiced medicine since 1989 and 
environmental public health for the past 11 years. Since 1998, I have 
served as the Director of Occupational and Environmental Health for the 
city and county of San Francisco's Department of Public Health. I also 
hold the position of Assistant Clinical Professor of Medicine at the 
University of California at San Francisco.
    I want to thank the committee for recognizing that having paid sick 
days can have important public health consequences. In November 2006, 
San Francisco became the first place in the United States to require 
employers to provide paid sick days. Sixty-one percent of the voters 
approved this ballot initiative and the law took effect February 5, 
2007.
    In part, San Franciscans passed this law understanding its 
importance to health. I believe that there are a number of important 
public health reasons to provide paid sick days. These include:

    1. Enabling workers to take the time off needed to manage and/or 
recover from an illness and care for ill family members.
    2. Protecting co-workers and the public from infectious disease.
    3. Reducing the social and economic costs of avoidable 
hospitalizations.

    When most people are ill, they need and want to take the time off 
to access health care or simply to recuperate. Sick children need to 
stay home from school and need their parents or caregivers to take care 
of them. While not all people who are sick would choose to stay away 
from work or school, paid sick days allow workers to make this 
important choice without sacrificing other equally important needs.
    For the 66 million workers without paid sick days benefits, an 
illness in the family means having to make an extremely difficult 
choice. Should they take unpaid time off from work to care for 
themselves or their children; or, should they go to work sick or send 
their children to school sick? For low-income workers, not going to 
work for even a few days may mean not having enough money to pay the 
rent or buy food. Some workers may also be insecure in their jobs, not 
knowing whether an absence from work may translate into the loss of a 
job. These workers must consider unemployment, hunger, and eviction 
when making a choice about staying home to take care of themselves or a 
family member. Such competing pressures mean that workers without paid 
sick days are more likely to go to work sick or let their children go 
to school sick. In fact, research tells us that parents who had paid 
sick days were 5.2 times as likely to care for their children when they 
were sick.\1\
---------------------------------------------------------------------------
    \1\ Heymann SJ, Toomey S, Furstenberg F. Working parents: what 
factors are involved in their ability to take time off from work when 
their children are sick? Arch Pediatr Adolesc Med. 1999;153(8):870-4.
---------------------------------------------------------------------------
    The health impacts of these difficult choices are not limited to 
workers and their families. Going to work or school with an infectious 
disease can mean transmitting it to others. Several common infectious 
diseases are transmitted in workplaces, schools, and other public 
institutions through casual contact. For example, influenza virus is 
spread mainly from person to person through coughing or sneezing. Or 
people may become infected by touching something with flu viruses on it 
and then touching their mouth or nose. Every year in the United States, 
5 percent to 20 percent of the population gets the flu; more than 
200,000 people are hospitalized from flu complications; and, about 
36,000 people die from flu.
    Viral gastroenteritis, often called the ``stomach flu,'' is 
contagious and spread through close contact with infected persons.\2\ 
Rotovirus, the most common cause of severe diarrhea among children, 
results in the hospitalization of approximately 55,000 U.S. children 
each year.\3\
---------------------------------------------------------------------------
    \2\ Viral gastroenteritis is caused by a variety of viruses 
including rotaviruses, noroviruses, adenoviruses, sapoviruses, and 
astroviruses.
    \3\ Centers for Disease Control 2006.
---------------------------------------------------------------------------
    About 90 percent of cases of viral (``aseptic'') meningitis, which 
causes inflammation of the tissues that cover the brain and spinal 
cord, are caused by viruses known as enteroviruses which are also 
spread through casual contact. In the United States, there are between 
25,000 and 50,000 hospitalizations due to viral meningitis each year.
    For all these common diseases--influenza, stomach flu, viral 
meningitis--infection can be prevented by allowing a sick worker to 
stay away from their workplace and by keeping sick children home from 
school. In fact, the U.S. Centers for Disease Control Web site provides 
the very common sense recommendation to people with influenza: ``stay 
home from work and school when you are sick.'' All things being equal, 
having paid sick days enables all Americans to follow our Federal 
public health recommendations.
    The public health importance of keeping sick employees out of the 
workplace is far more significant for some occupations. For occupations 
such as health care workers, child care providers, and people who 
handle food, there is the potential for a sick worker to transmit an 
infectious disease to many, many people. In the case of food handlers 
or food service workers, there is the potential for transmission to 
hundreds or thousands of others. The spread of foodborne illness by an 
infected worker can happen at a catered party or at a neighborhood 
restaurant, but it can also happen in food processing plants and result 
in outbreaks of illness nationally. Overall, foodborne diseases cause 
approximately 76,000,000 illnesses, 325,000 hospitalizations, and 5,000 
deaths in the United States each year.\4\
---------------------------------------------------------------------------
    \4\ Mead PS, Slutsker L, Dietz V, McCaig LF, Bresee JS, Shapiro C, 
Griffin PM, Tauxe RV. Food-Related Illness and Death in the United 
States. Emerging Infectious Diseases. Centers for Disease Control and 
Prevention, Atlanta, Georgia, USA Pathogens responsible for foodborne 
illnesses include the Norwalk viruses, the Hepatitis A virus, 
Salmonella typhi, Shigella species, Staphylococcus aureus, and 
Streptococcus pyogenes.
---------------------------------------------------------------------------
    Of course, people with foodborne illnesses who work in the food 
industry should not be going to work. In reality, we rely on workers to 
recognize the illness and their employers to self-enforce requirements 
that protect the public. A worker may recognize a symptom but may not 
associate it with a foodborne illness.\5\ It takes time and often a 
visit to the doctor to find out that you have a foodborne illness. A 
food worker may not want to take unpaid time to obtain a diagnosis or 
may defer care until the symptom worsens, in the meantime, potentially 
infecting co-workers and patrons. A recent published review of 
foodborne Hepatitis A outbreaks in the United States demonstrated that 
in many cases the infected food handler either did not seek medical 
care or delayed getting medical care.\6\ Unfortunately, only 15 percent 
of workers in the food service industry have paid sick days--the lowest 
rate among major groups of industries.\7\ Paid sick days would help a 
food service worker get a timely diagnosis and help them stay away from 
work until they recover.
---------------------------------------------------------------------------
    \5\ Signs or symptoms in persons who handle food may include 
diarrhea, vomiting, open skin sores, boils, fever, dark urine, or 
jaundice.
    \6\ Fiore A. Hepatitis A transmitted by Food. Clinical Infectious 
Diseases 2004;38:705-15.
    \7\ Based on analysis of 2006 data by Vickie Lovell. Institute for 
Women's Policy Research. Washington, DC.
---------------------------------------------------------------------------
    Providing paid sick days is also a strategy that can be employed to 
reduce the burden of chronic diseases, which are responsible for a 
growing share of national health care costs. Many of the admissions to 
our hospitals for chronic diseases such as asthma, hypertension, and 
diabetes are entirely preventable with timely and effective outpatient 
and primary care.\8\ Many of these hospitalizations occur in working 
age adults and among children. In 2004, there were almost 200,000 
hospitalizations for childhood asthma alone.\9\ Early treatment of a 
flare-up of asthma in a doctor's office or clinic can prevent 
deterioration to the point where hospital care is required. In 
California, a single hospitalization for asthma costs over $13,000.\10\ 
Getting timely primary care requires not only access to services and a 
way of paying for services, but also transportation, time, and the 
ability to leave work. A paid sick day benefit removes one of key 
barriers that people face in utilizing timely primary care.
---------------------------------------------------------------------------
    \8\ Billings J, Anderson GM, Newman LS. Recent findings on 
preventable hospitalizations. Health Affairs 1996 Fall;15(3):239-49.
    \9\ Akinbami LJ. The State of Childhood Asthma, United States, 
1980-2005. Advance Data Number 381 December 12, 2006.
    \10\ California Office of Statewide Health Planning and Development 
2006. Available at: http://www.oshpd.cahwnet.gov/oshpdKEY/
hospitalcharges.htm.
---------------------------------------------------------------------------
    If we look at the patterns of hospitalizations in States and cities 
across the United States, we see that such preventable hospitalizations 
are more common in areas with a high proportion of low-income 
households. Lower-income workers are also the least likely to have paid 
sick days benefits. Providing paid sick days for all workers is a 
common-sense solution that addresses health disparities and reduces the 
strain on public hospitals that provide our safety net of services to 
low-income individuals.
    I would like to conclude my testimony by highlighting the 
significance of employment policies such as paid sick days for the 
health of all Americans. According to the Organization for Economic 
Cooperation and Development, the United States spends more on health 
care services than any other country in the world. We spend $6,102 per 
person, amounting to 15 percent of our GDP.\11\ Despite spending double 
that of countries we consider peers, life expectancy in the United 
States is a full year less than in Canada and England and 3 years less 
than Spain, Sweden, and Switzerland. These startling facts on our 
performance in health underscore what public health professionals are 
acknowledging more and more. Health is largely a function of our day-
to-day living and working conditions. One of the most important roles 
our government can play is to help ensure that day-to-day living and 
working conditions support health. One reason these other countries may 
be outperforming with respect to health is that they have paid 
attention to ensuring a minimum set of healthy working conditions.
---------------------------------------------------------------------------
    \11\ Organization for Economic Cooperation and Development Health 
Data 2006. Available at: http://www.oecd.org/document/16/
0,2340,en_2825_495642_2085200_1_1_1_1,00.html.
---------------------------------------------------------------------------
    I am proud that San Francisco has led the Nation in providing paid 
sick leave to workers. Paid sick leave is a humane policy; and it is 
also a practical and cost-effective public health policy to reduce 
disease transmission, avoid unnecessary hospitalization, and help bring 
health care costs down. For these many reasons, I hope that you will 
consider providing a minimum number of paid sick days to workers 
throughout the country.

    The Chairman. Thank you.
    Mr. King.

  STATEMENT OF G. ROGER KING, PARTNER, JONES DAY, COLUMBUS, OH

    Mr. King. Thank you, Mr. Chairman, Senator Enzi, Senator 
Isakson. I do want to note on a personal basis, it's very, very 
heartfelt that I'm back here with this committee. I had an 
opportunity to work with Senator Kennedy and his staff in the 
1970s, as he noted, with Senator Javits and Senator Taft and it 
was a great experience. Senator, thank you for your warm 
welcome.
    The Chairman. Thank you very much.
    Mr. King. There can be no question that paid leave is 
important. My practice, over 30 years, has been working with 
employers from all different phases of industry throughout this 
country. I don't know of one employer that would come here 
today and argue many of the points that have been made except 
perhaps the economics.
    The employer community in this country is committed to paid 
leave. Seventy-five percent, as noted, of the employers in this 
country provide one form or another of paid leave and they do 
so on a voluntary basis. That's something we should not lose 
sight of. There is a commitment and there will continue to be a 
commitment. It makes good business sense to recruit workers, 
retain workers, reduce turnover, to increase productivity, to 
prevent the spread of illness in the workplace--those are all 
very legitimate and I commend the panel here this morning for 
their intellectual and emotional commitment to this concept.
    It's one we all can agree on. There is no question about 
that. But as those of us that worked in the legislative arena 
know, it doesn't stop there. It's not that easy and I'd like to 
go through some concerns from the employer perspective, a very 
legitimate stakeholder in this discussion.
    We've heard from the worker perspective and that's quite 
important, no question. But this is what I hear as I travel the 
country and talk to employers. First, we would respectfully 
submit on behalf of many in the business community that the 
legislative branch and executive branch need to fix FMLA and 
they need to do it now. You'll get a much more receptive 
audience among employers in this country if you address that 
question. FMLA is a great statute. As Chairman Kennedy 
mentioned, many years were devoted to hearings and study on 
that particular legislation. Bipartisan support for it. Well 
accepted by the employer community, well accepted in this 
country but it needs attention now. It needs to be looked at. 
We have rules and regulations that are conflicting and many of 
those rules and regulations don't work. In the intermittent 
leave area particularly, we have tremendous problems. So those 
need to be addressed.
    Again, I would submit, if we can get over that hurtle, 
we'll have a much more receptive business audience or employer 
audience, if you will, for additional mandated leave.
    The second point I would note is on the metrics or the cost 
of this legislation. I note the testimony from the George 
Washington Institute of $22.3 billion. I would submit to this 
committee that's a serious underestimate of the cost of this 
proposed legislation. If you do some sample or quick math, the 
statement has been made here this morning that there are 57 
million workers in this country that do not have one form or 
another of paid leave. I question that because as noted, 
vacation leave is folded into PTO. It is available for people 
who do have illness. But put that aside for a moment. If you 
take the metric of 57 million workers times 56 hours in a given 
year times approximately $25 an hour and that's what it costs 
when you're fully loaded with all benefits and with all 
compliance costs, you're talking somewhere in terms of $79.8 
billion--or more. That's a substantial cost. And the arguments 
that are being made here is that smaller employers don't offer 
this. Well, that varies. But let's assume that premise is 
correct. You're putting a tremendous financial burden on the 
employers in this country that have the least ability to pay 
for it. That's something we need to talk about. The cost of 
this legislation is and would be considerable.
    The third point I would carry back to this committee from 
various employers of various sizes is that employers are 
overwhelmed with the cost of compliance with various Federal, 
State and local laws. Many of these laws are conflicting. Many 
of them overlap. They are hard to follow and the stealth cost, 
if you will, simply engaging in appropriate compliance, is 
very, very difficult. As I've noted in my prepared remarks and 
I would like those included in the record, if I might, we have 
situations under the present FMLA situation where we have FMLA, 
the Americans with Disabilities Act and State Workers 
Compensation statutes forming what I would deem and many of my 
colleagues have deemed the Bermuda Triangle of Compliance. It's 
very difficult. If we were to have the HFA, the Healthy 
Families Act, the Fair Labor Standards Act and the FMLA Act, 
State Workers Compensation statutes and many now local and 
State regulations on top of that in the leave area, we're in 
another Bermuda Triangle of Compliance. It's exceedingly 
difficult. That's something that needs to be thought about in 
some great detail.
    With respect to the legislation itself and having been a 
member of the staff of this committee and having drafted 
legislation, I understand how difficult it is draft legislation 
in this area or any other area--exceedingly difficult. But I 
must tell you that in reviewing the proposal, Mr. Chairman, 
that was put in the last Congress, there are many, many 
difficulties from just a sheer mechanics perspective, let alone 
a policy perspective.
    Let me share just a few of those. First, there is no 
minimum requirement for nexus with the workplace. As I read 
this statute, you could start on Monday and be entitled to paid 
leave on Tuesday. Under FMLA, you have to have at least a year 
of employment and 1,250 hours. Senator Enzi mentioned the basic 
qualification situation. Under FMLA, we have at least 50 
employees before coverage begins. Here, it's 15. Further, this 
statute would permit, in theory, an employee to work for 
various employers throughout the year and qualify for paid 
leave for each of those employment situations. Further, paid 
time off as mentioned, a well now accepted concept in our 
Nation's benefit structure but paid sick leave has really 
folded into that particular paid time off approach. You have 
traditional vacation, you have paid sick leave, you have 
personal leave, you have any number of different types of 
leave. Our employers that have paid time off like that in 
compliance with the equivalency requirements of the statute--I 
think it's debatable. Further, many of those particular paid 
leave off time scenarios don't pay the person that does not 
show up for work add-ons, like shift pay, differential pay, 
night shift pay. Are those to be added on? I don't know. That 
would be in addition to the figure I shared with this 
committee.
    The definition of family. I agree in part, it's quite broad 
but it goes way beyond that. It talks about someone that has an 
infinity with others living in a particular work and family 
environment. I don't know what that means. Does it mean if 
people go to college that are friends and live in the same 
apartment or same dorm room, that they're covered? I would hope 
not. I think that goes well beyond what we're talking about 
here.
    Further, we have questions about part-time and full-time. 
One of the problems with the basic figures that we're talking 
about here are many part-time workers do not have this type of 
coverage. I would concede that. But those are entry-level 
positions. Often people working while they're going to college, 
often working while they are in an educational environment and 
by definition, a part-time employee has time off during the 
week to address many of the needs that you've heard here today.
    I could go on but I've listed in great detail concerns 
about this legislation in my prepared testimony. Finally, I 
want to close with--one of my biggest frustrations when I 
worked on the Hill and also as a member of the business 
community and I do consider myself in that broad definition. 
Witnesses come here and just testify against things. That 
doesn't really help. I think there are some definite areas here 
that we could reach an agreement on or at least ought to have 
that kind of dialogue.
    One, we ought to look at the Fair Labor Standards Act and 
again examine comp time. If we had some flexibility for 
workers, mothers and others, to have some time off on work week 
one and make it up in work week two, that would be of 
tremendous help. So far, we've not been able to have that 
dialogue on the Fair Labor Standards Act reform. We should.
    Second, tax credits for employers, particularly small 
employers that perhaps do not have the financial resources to 
address paid leave. We ought to look at that.
    Third, public health. I agree. Public health is exceedingly 
important. Perhaps we ought to look at additional funding for 
public health clinics, particularly that offer after hours or 
evening hours access. I have found in my experience working 
with employers that workers that can get to a public health 
clinic after they have left work can have tremendous treatment 
and health in preventive disease areas.
    Further, we should have more money, I would submit, in the 
elderly daycare and child daycare programs, tremendously 
important for employers in this country.
    Further, one concept I'd share with this committee that is 
catching on, relatively new, is the old office health nurse is 
back. This nurse or other health practitioner comes into the 
workplace, works with employees, works with workers to address 
their health needs. Tremendous cost benefit analysis.
    But in the end game, if you will, what we're really talking 
about here is health insurance reform, health care reform in 
this country. The employer community cannot bear all of that 
cost. This committee is well aware of that. But that's the 
dialogue we really need to have.
    Thank you very much.
    [The prepared statement of Mr. King follows:]
                 Prepared Statement of G. Roger King *
    Good morning Chairman Kennedy, Senator Enzi, and members of the 
Senate Health, Education, Labor, and Pensions Committee. My name is G. 
Roger King, and I am a partner in the Jones Day law firm. Jones Day is 
an international law firm with 2,200 lawyers practicing in 30 offices 
located both in the United States and throughout the world. We are 
fortunate to count more than 250 of the Fortune 500 employers among our 
clients. I have been practicing labor and employment law for over 30 
years and I work with employer clients located in various parts of the 
country with varying workforce numbers. I have been a member of various 
committees of The Society for Human Resource Management (SHRM) and The 
American Society of Healthcare Human Resources Association (ASHHRA) and 
I also participate in the work of other trade and professional 
associations that are active in labor and employment matters. My 
testimony today is based on my personal and professional experience.
---------------------------------------------------------------------------
    * Mr. King wishes to acknowledge the assistance of his associate 
Rebekah Bennett, a member of the Jones Day Labor & Employment Group in 
preparing this testimony.
---------------------------------------------------------------------------
    In the previous Congress, Chairman Kennedy with the co-sponsorship 
of other Members of this Body introduced two virtually identical bills 
the provisions of which I understand are the subject matter of today's 
hearing--S. 932 and S. 1085. Both of these bills have been captioned 
the ``Healthy Families Act'' (``HFA'') and have as their fundamental 
objective the requirement that any private or public sector employer in 
the country with 15 or more employees provide at least 7 paid days (or 
56 hours) of sick leave annually to their employees. It is my further 
understanding that the committee's objective today is to discuss the 
potential effects of the requirements of the HFA on workers, employers, 
the economy in general and on public health.
    Initially, I believe six fundamental policy and structure 
observations are appropriate to review regarding the HFA:

    <bullet> First, based on well-established data, employers in this 
country are not opposed to the concept of paid leave for their workers 
and have an excellent record in providing such leave on a voluntary 
basis. Indeed, numerous studies and analyses have conclusively 
established that 75 percent of the country's employers provide, in one 
form or another, paid leave including paid sick leave. (U.S. Department 
of Labor, Bureau of Labor Statistics, the 2006 Employee Benefits 
Survey). This system of voluntary compliance, which includes 
collectively bargained policies and procedures, has worked 
exceptionally well and should not be disturbed. To the extent that 
positions or employers do not provide paid sick leave, such positions 
often are entry level in nature or constitute initial or part-time 
employment. Frequently, human capital market forces quickly respond to 
such situations with workers leaving or progressing out of such entry 
level positions to higher paid positions and jobs that do offer paid 
leave.
    <bullet> Second, given the above-noted employer commitment to the 
paid leave concept, and a high percentage of employers providing such 
leave--including paid leave for sick time--a fundamental question that 
should be asked by this committee is whether the HFA or a similar 
legislation is needed. I would submit the answer to such a question is 
in the negative. Employers in this country are already burdened by 
numerous Federal, State and local regulations which result in millions 
of dollars in compliance costs. These mandated, and largely unfunded, 
``cost of doing business'' requirements in certain instances not only 
hinder and impede the creation of new jobs, but also inhibit our 
Nation's employers from competing globally. Simply stated, a compelling 
case needs to be established before any additional regulations and 
statutes are imposed upon our Nation's employers in this area.
    <bullet> Third, enactment of the HFA would create a second 
``Bermuda benefits triangle'' for employers with FMLA, HFA and 
corresponding and often conflicting State laws forming such a triangle. 
Employers already face the difficult Bermuda compliance triangle 
composed of the American With Disabilities Act (ADA), FMLA and various 
State workers compensation statutes.\1\ The potential overlap of all of 
the above statutes will pose considerable practical/operational and 
legal burdens on the employment community in this country. Such 
additional administrative burdens, and the cost of same, including loss 
of productivity and ability to compete with offshore employers, must be 
addressed before the Congress proceeds with consideration of the HFA.
---------------------------------------------------------------------------
    \1\ See, e.g., Chapman, Russell D., Garay, Joyce-Marie, Avoiding 
the ``Bermuda Triangle": Navigating the ADA, FMLA and Workers' Comp 
Void, Compensation & Benefits Review, Vol. 34, 
No. 3, 58-67 (2002); Bell, Christopher G., The ADA, FMLA, and Workers' 
Compensation: The Bermuda Triangle of Employment Law, SHRM Legal Report 
(1997).
---------------------------------------------------------------------------
    <bullet> Fourth, the fundamental mechanics and metrics included in 
the HFA regarding ``equivalency'' and the requirement that employers 
provide annually 7 paid days of sick leave, would appear to be 
fundamentally flawed and raise serious policy, practical and expense 
concerns. To begin with, the term or phrase ``sick leave'' is a term or 
concept that is no longer used by a substantial number of employers in 
this country. Paid sick leave has been replaced or folded into 
comprehensive leave programs such as paid time off (``PTO'') and other 
similar leave policies and procedures. This approach combines 
traditional paid sick leave days, vacation days and other paid leave 
time (e.g., personal days, attendance incentive pay, etc.) into a 
consolidated or comprehensive paid leave program. Under this approach, 
a worker is given the option of when to take such paid leave time and 
may choose to do so within general constraints for any reason for which 
he or she chooses, including taking leave for personal or family 
illness situations. The ``equivalency'' provision of the HFA raises 
serious questions as to how such PTO and analogous programs would deem 
to be ``equivalent'' to the 
7-day paid sick leave requirement of the HFA. Indeed, the cost of 
regulatory staff and time associated with such ``equivalency'' reviews 
no doubt would be considerable as would be the cost of the inevitable 
litigation that will arise from such determinations. Consider the 
following hypotheticals:

        <bullet>  An employer has a paid time-off program that provides 
        employees with 20 paid days off which an employee may use as he 
        or she wishes (encompassing paid vacation leave, sick leave and 
        personal days). The program has no separate ``category'' for 
        sick leave. Does this program meet the ``equivalency'' test?
        <bullet>  An employer has a paid time-off program that provides 
        full-time employees (those who work 40 or more hours per week) 
        with 20 paid days off, but does not provide a similar benefit 
        for part-time employees (defined as those employees who work 
        less than 40 hours per week). How will this program have to be 
        adjusted to meet the ``equivalency'' test?
        <bullet>  An employer has a paid time-off program that includes 
        20 paid days off, which includes vacation days, personal days, 
        and attendance incentive days which can be used by an employee 
        for illness situations. The employer also provides employees 
        with 5 paid sick days per year. Does this employer have to add 
        2 paid sick days annually to meet the ``equivalency'' test?
        <bullet>  An employer provides employees with 5 paid sick days 
        per year along with other paid leave time and permits exempt 
        employees to accrue compensation time for hours worked over 40 
        in a given work week. Does this employer have to add 2 paid 
        sick days annually to meet the ``equivalency'' test?
        <bullet>  An employer provides, at no cost to employees, a 
        short term and/or a long term disability plan that provides 
        paid sick leave time to employees. Is the employer in 
        compliance with the HFA's ``equivalency'' requirement?

    <bullet> Fifth, while employers in this country have embraced the 
spirit and the concept of the Family Medical Leave Act (FMLA) and are 
committed to its continuation, this statute and its implementing 
regulations need to be fixed before any other federally mandated leave 
requirements are enacted. Notwithstanding FMLA's laudable policy 
objectives and the high degree of acceptance that it has achieved with 
employers it simply does not work well in a number of areas. Further, 
certain of the regulations implementing FMLA are in particular need of 
renewed scrutiny and redrafting. It has been well-documented in 
proceedings both in this committee and in committees of the Other Body 
that FMLA in its current regulatory enforcement state is confusing, 
subject to abuse and a source of considerable litigation. As this 
committee is well aware, The U.S. Department of Labor (DOL) has 
presently pending a request for information (RFI) regarding a number of 
issues with respect to the regulations that implement FMLA. I submit 
that this committee may be well informed by many of the comments that 
the DOL will receive in response to its RFI. Specifically, I would urge 
this committee to review the following issues that have arisen with 
respect to FMLA compliance:

    (1) Definition of what constitutes a ``serious health condition'';
    (2) The use (and abuse) of intermittent leave;
    (3) The inadequacy of notice and certification before a leave 
period begins;
    (4) The time period to measure eligibility for FMLA leave;
    (5) The time in which a worker is eligible to commence FMLA leave;
    (6) Employer communication with health care providers and 
verification of ``serious health condition'' claims; and
    (7) Impact on attendance incentive programs.

    Intermittent leave is one area that particularly deserves this 
committee's attention. Two different regulations, the regulation 
permitting intermittent leaves when there is no planned and scheduled 
medical treatment on the day of the absence and the regulation 
embracing chronic conditions as covered ``serious health conditions,'' 
intersect to create one of the biggest problems for employers in terms 
of day-to-day operations. Together, these regulations allow an employee 
to have unscheduled absences of up to 60 single work days per year or 
approximately 25 percent of all workdays for conditions that may not be 
a serious health condition. This means that an employee could be absent 
for 1.2 days every single week in a calendar year or a consecutive 12-
month period. Additionally, intermittent leave could be taken in as 
little as 10- or 15-minute increments with the potential, therefore, 
for an employee to take off a portion of his or her workday everyday in 
the calendar year or in a consecutive 12-month period. Further, if the 
employee manages to work 1250 hours in the previous 12 months, the 
employee will be eligible to continue this cycle.
    Problems arising from other FMLA compliance issues as noted above 
have also resulted in considerable litigation. One example of such 
litigation is the recent case Rucker v. Lee Holding Co., d/b/a Lee's 
Auto Mall, 471 F.3d 6 (1st Cir. 2006). In this case, the Court of 
Appeals for the First Judicial Circuit ruled that an employee could 
meet the 12-month FMLA eligibility requirement by combining separate 
periods of employment, including the employee's current employment 
period together with a prior period of employment with such employer 
that was separated by a period of 5 years. The underlying regulation 
that is applicable to such issues--29 C.F.R. 825.110--lacks clarity and 
has provided the result noted above which from any perspective is 
neither practical nor workable.
    <bullet> Sixth, to the extent that the HFA is premised on the 
concept of ``presenteeism'' [a relatively new term used to describe 
workers who remain on the job, or come to work, but who are not as 
productive as usual due to stress, depression, injury, or illness], I 
would submit that additional analysis and research needs to be 
undertaken regarding this workplace issue. For example, the most 
frequently cited illnesses on which the presenteeism studies' cost 
estimates are based are depression (approximately $36 billion), and 
other chronic conditions such as back problems, arthritis, headaches, 
and stress (approximately $47 billion). An employee's inability to work 
productively because of depression or arthritis is unlikely to be 
resolved by 7 days of paid sick leave. Further, the Journal of 
Occupational and Environmental Medicine reports that family health-
related work absence accounted for only 6 percent of all health-related 
productivity loss.\2\ The same article also states that because costs 
vary significantly by worker characteristics, intervention needs vary 
by specific subgroups. Additionally, if lost productivity is a true 
cost of presenteeism, employers will no doubt conduct their own cost-
benefit analysis and will, if appropriate, adjust their leave policies 
to correct for lost productivity. This will ensure that employers 
receive the full benefit of enacting such a program (without offsetting 
such a benefit with compliance and recordkeeping costs associated with 
the HFA). Finally, to the extent presenteeism is a problem in the work 
place there are other solutions. For example, many employers already 
provide employees with alternatives to working 5-day weeks and 9-to-5 
schedules. Specifically, many employers permit employees to 
telecommute, provide flexible work arrangements, and compensation time. 
These alternatives are more likely to effectively address the chronic 
conditions (headaches, arthritis, etc.) that impact presenteeism 
issues.
---------------------------------------------------------------------------
    \2\ Stewart, Walter F., Ricci, Judith A., Chee, Elsbeth, 
Morganstein, David, Lost Productive Work Time Costs from Health 
Conditions in the United States: Results from the American Productivity 
Audit, J. Occup. Environ. Med., vol. 45, no. 12, pp. 1234-1246 (2003).

    In addition to the above outlined concerns and issues, HFA as 
drafted in the last Congress presents numerous ambiguities and 
questionable policy and legal conclusions. Certain of these policy and 
legislative drafting issues include the following:
                          section 2: findings
Discrimination
    <bullet> Subsections 13 through 15 discuss the gender stereotypes 
associated with family caretaking responsibilities. It is debatable 
that the HFA would assist in any meaningful manner the present 
regulatory scheme and related statutes that prohibit gender 
stereotyping. For example, employers are already subject to civil 
rights laws, such as Title VII of the Civil Rights Act of 1964, that 
effectively address these issues. For example, an employer that 
penalizes men who take leave for caretaking purposes, or denies men 
such leave while granting women a similar accommodation are in 
violation of Title VII, which specifically prohibits evaluating 
employees by assuming or insisting that they match a certain gender 
stereotype.\3\
---------------------------------------------------------------------------
    \3\ See Price Waterhouse v. Hopkins, 490 U.S. 228, 251 (1989) (``As 
for the legal relevance of sex stereotyping, we are beyond the day when 
an employer could evaluate employees by assuming or insisting that they 
matched the stereotype associated with their group, for `[i]n 
forbidding employers to discriminate against individuals because of 
their sex, Congress intended to strike at the entire spectrum of 
disparate treatment of men and women resulting from sex stereotypes.'') 
(internal citations omitted).
---------------------------------------------------------------------------
                         section 4: definitions
``Applicant''
    <bullet> Why is an applicant contained in the definition of 
``employee'' in section 4? Are applicants for employment to be covered 
by this legislation? If so, on what basis? How would an applicant for 
employment qualify for HFA leave and how much paid leave time would an 
applicant be entitled to receive?
``Covered Employee''
    <bullet> How long does an employee have to be employed to be 
covered by this legislation? If applicants are covered, presumably 
there is no minimal employment period. Seemingly, an employee or 
applicant could start work on Monday and be eligible for some number of 
paid leave days on Tuesday.\4\ In contrast, under FMLA an employee is 
required to be employed by an employer for 12 months and have at least 
1,250 hours of service with such employer before the employee is 
eligible for the act's benefits and coverage. 29 U.S.C. 
Sec. 2611(2)(A). The FMLA approach would appear to be a more 
appropriate eligibility requirement.
---------------------------------------------------------------------------
    \4\ It is not clear under section 5(b)(1) how much ``accrual'' an 
employee is required to receive in a given calendar quarter.
---------------------------------------------------------------------------
``Employer''
    <bullet> The definition of ``employer'' under the HFA includes 
entities that employ 15 or more employees for each working day during 
each of 20 or more calendar work weeks in the preceding calendar year. 
By contrast, before FMLA is applicable, an employer must employ at 
least 50 employees within 75 miles of a worksite. 29 U.S.C. 
Sec. 2611(2)(B)(ii). Why should the HFA be applicable to business 
entities that are quite small and may have difficulty in being 
compliant? The FMLA definition of ``employer'' would appear to be more 
appropriate.
                section 5: provision of paid sick leave
    <bullet> This section mandates that 7 days of sick leave with pay 
shall be annually provided for employees working 30 or more hours per 
week and that a pro rata number of days of paid sick leave be available 
with pay on an annual basis for employees working less than 30 hours 
per week or 1,500 hours throughout the year involved. The financial 
impact of such an unfunded mandate on employers should be carefully and 
thoroughly researched. Although, as noted above, many employers in this 
country provide paid leave in excess of such 7-day requirement, 
employers with workforces in the 15-50 category may experience 
financial difficulty in complying with such requirement. Further, even 
those employers that have the resources to be compliant may experience 
considerable additional costs of compliance if the HFA is enacted, 
especially depending on how the HFA ``equivalency'' test is applied.
Full-Time Employee Definition
    <bullet> Why is the definition of full-time employees under the HFA 
at 30 hours per week when the traditional work week in this country is 
40 hours? Indeed, this is the definition generally utilized under the 
Fair Labor Standards Act. Further, the HFA's requirement of providing 
paid sick leave for employees working less than 30 hours per week, even 
on a pro rata basis, is inconsistent with many employer leave plans and 
would appear to be unreasonable in many employment settings. For 
example, is there a minimum number of hours that an employee must work 
to qualify for HFA coverage? Presumably, an employee could work only 1 
hour a week and still qualify for fractional paid leave benefit. Would 
an employee working for multiple employers be entitled to more than 7 
paid sick leave days annually? How would employees working multiple 
part-time jobs be treated under the HFA?
Definition of Pay
    <bullet> The HFA does not define the word ``pay'' in either section 
4 or section 5. Does this term include all types of compensation 
associated with a given work day even though the employee would not be 
present and working? For example, would it include such compensation as 
incentive pay, differential pay, specialty pay, weekend bonus pay, 
night shift differential, bonus pay, and other similar compensation 
arrangements that generally only result in an employee receiving such 
additional compensation if and when such a employee appears for and 
completes a work day? Does the term ``pay'' include all benefits that 
would otherwise be applicable from working such day? For example, would 
the employee receive accrual credit for pension and other like benefits 
when a mandated paid sick leave day situation arises and the employee 
does not work on such day? Stated alternatively, many employer paid 
sick leave and PTO plans only pay an employee on leave their straight 
time hourly rate without payment of differentials or other compensation 
tied directly to the employee working his or her shift. Arguably, under 
the HFA this approach may not meet the equivalency requirement and such 
employers, therefore, would be required to increase the amount of 
compensation an employee would receive while on paid sick leave. There 
is obviously considerable ambiguity in this area and there is mandated 
in this section of HFA alone the potential to place millions of dollars 
of additional paid leave expenses on our Nation's employers.
Intermittent Use
    <bullet> The calculation of how the paid sick leave system would 
work is particularly troubling. Section 5(c), the calculation section, 
would permit paid leave to be on an hourly basis or in the smallest 
``increment that the employer's payroll system uses to account for 
absences or use of leave.'' This literally could be in minute 
increments as many employers track absences in such minute incremental 
amounts. Indeed, as discussed above, this concept is already a 
tremendous problem area under FMLA.
Use Standards
    <bullet> Section 5(d) is extremely broad in defining when a worker 
could qualify for sick leave and would no doubt result in considerable 
disagreement and potential litigation. For example, an absence 
resulting from obtaining medical diagnoses or care, or preventive 
medical care is very broad and is in need of considerable additional 
specificity. Again, this is a problem area under FMLA which has an 
analogous open-ended definition of ``serious health condition.'' 29 CFR 
Sec. 825.114.
Definition of Family
    <bullet> Equally troubling under section 5(d) is the potential for 
use of the mandated paid sick leave for an individual that has an 
``affinity whose close association with the employee is the equivalent 
of a family relationship.'' What does this mean? This phrase is 
obviously susceptible to a very broad inclusion of a variety of 
individuals. Does it include frequent visitors to a household? Does it 
include domestic partners? Does it include ``friends'' living together, 
for example, while away at college?
Scheduling
    <bullet> Section 5(e) would only require an employee to make a 
``reasonable effort to schedule leave.'' This open-ended and minimal 
requirement of notice to an employer for unscheduled leave will pose 
significant practical and operational problems.
Foreseeability
    <bullet> Section 5(f) regarding notification procedures is 
similarly deficient as it only requires oral and written notice 7 days 
in advance of any leave that is foreseeable. This period is too short 
and will pose considerable problems for many employers. By contrast, 
FMLA requires in most instances 30 days advance notice for qualified 
foreseeable leave. 29 U.S.C. Sec. 2612(e)(1).
No Dispute Resolution Mechanism
    <bullet> The HFA contains no mechanism for an employer to question 
or challenge a certification that an employee may receive to qualify 
for the required paid leave. By contrast, under FMLA, employers may 
require the employee to obtain a second medical certification from a 
health care provider selected by the employer. 29 U.S.C. Sec. 2613.
Certification
    <bullet> Section 5(f) requires certification only if the employee 
takes leave for more than 3 consecutive work days. This very ``loose'' 
standard will no doubt impede the employer's ability to curb abuse. 
Further, under section 5(f)(2) an employee is given up to 30 days 
before a certification would need to be provided to an employer. This 
period is too long. Finally, section 5(f)(2)(B)(ii) states that:

          ``A health care provider shall make reasonable efforts to 
        limit the medical facts described in clause (i)(III) that are 
        disclosed in the certification to the minimum necessary to 
        establish a need for the employee to utilize paid sick leave.''

    What does this mean? It would appear to severely limit an 
employer's ability to use the certification requirements (such as they 
are) to prevent abuses of paid sick leave.
Equivalency
    <bullet> The section 5(g) ``equivalency requirement'' in addition 
to the problems noted above, also contains a mandate that ``an employer 
may not eliminate or reduce leave in existence on the date of 
enactment'' of the HFA. This edict would appear to contradict other 
sections of the HFA that will require employers to substantially modify 
their leave policies to become compliant with the HFA.
    <bullet> Further, section 5(g)(2) is troubling as it states:

          ``An employer may not eliminate or reduce leave in existence 
        on the date of enactment of this Act, regardless of the type of 
        such leave, in order to comply with the provisions of this 
        Act.''

    As noted above, does this subsection prohibit even minor 
adjustments to an employer's current leave programs? For example, would 
an employer that has a paid time-off program that does not specifically 
identify sick leave be prevented from changing in any manner how this 
paid time-off system works, including the eligibility and accrual 
levels associated with such plan?
Enforcement Authority
    <bullet> Section 8 of the HFA provides the Department of Labor with 
broad investigative and enforcement authority. What will be the cost of 
such enforcement and oversight? Does the Department have the resources 
to carry out these new obligations?
    <bullet> This section also provides for private lawsuits for lost 
wages and benefits, re-
instatement and other equitable relief, and attorney fees for a 
prevailing employee. Given the numerous ambiguities in the HFA, this 
section would appear to be an open invitation for considerable 
litigation, including class action lawsuits that already are causing 
our Nation's employers to pay millions of dollars in unnecessary legal 
fees and costs.
Effect on Other Laws (No Preemption)
    <bullet> Section 10 of the HFA is an ``anti-preemption'' provision 
and would permit State and local laws to co-exist with, or supersede, 
the provisions of the HFA. If the Congress does proceed to enact 
further mandated leave legislation, either paid or unpaid, considerable 
attention must be directed to the question of whether there should be 
uniform national standards. The varying and often conflicting State 
statutes and regulations regarding leave pose significant 
administrative costs for employers and can result in confusion and 
potential error. Neither employers nor workers are well-served with 
such a difficult regulatory scheme. The approach taken with respect to 
ERISA preemption should be given serious consideration.
Effect on Existing Employment Benefits
    <bullet> Section 11(a) of HFA states that its provisions shall not 
be read to diminish the ``obligation of an employer to comply with any 
contract, collective bargaining agreement, or any employment benefit 
program or plan that provides greater paid sick leave rights to 
employees in the rights established under this right.'' Subsection B 
states ``the rights established for employees under this Act shall not 
be diminished by any contract, collective bargaining agreement or any 
employment benefit program or plan.'' The above subsections read 
together with section 5(g)(2)--the Equivalency Section--would appear to 
unduly ``lock in'' current employer leave program provisions and make 
any change of same unlawful, including in collective bargaining 
settings. This approach is too rigid and will restrict both employers 
and unions in collective bargaining from having any flexibility in 
making even minor adjustments in benefit plan provisions.
Encouraging More Generous Leave Policies
    <bullet> Section 12 of the HFA makes the following interesting 
policy statement:

          Nothing in this Act shall be construed to discourage 
        employers from adopting or retaining leave policies more 
        generous than policies that comply with the requirements of 
        this Act.

    <bullet> Unfortunately, if the HFA is enacted based on the 
experience of many employers under FMLA, and the problems outlined 
above that can be anticipated with the enactment of the HFA, employers 
of all sizes may be discouraged from implementing any additional 
improvements in their paid leave programs--assuming after paying for 
their additional paid leave costs, administrative expenses, and 
litigation costs associated with the HFA that they would even have any 
resources left to make such improvements. Indeed, in many instances it 
may be that the added administrative and litigation costs and other 
compliance expenses associated with the HFA will drain any resources 
that otherwise would have been available for paid leave benefit 
improvements.\5\
---------------------------------------------------------------------------
    \5\ Ironically, the testimony in a number of congressional hearings 
has documented how, as a result of the FMLA, some employers are moving 
toward eliminating their more generous pre-FMLA programs and other 
companies are being urged by consultants not to adopt programs more 
generous than the FMLA. See Senate Testimony of Deanna R. Gelak, SPHR 
on behalf of the FMLA Technical Corrections Coalition and the Society 
for Human Resource Management, July 14, 1999, p. 22. For example, 
Thomas E. Burns, corporate director of compensation and benefits, NYNEX 
Corporation, New York, N.Y., testified before the U.S. House 
Subcommittee on Oversight and Investigations, at the June 10, 1997 
hearing, (page 14) that ``NYNEX Corporation's sickness disability 
benefit plan provides up to 52 weeks of paid salary continuation for 
each illness. Since the FMLA was enacted, NYNEX has experienced a 42 
percent increase in the percentage of incidental absences from 1992 to 
1995, despite a reduction in the workforce of 7,000 employees. 
Incidental absences are those of 7 days or less for an employee's own 
illness.''

    Mr. Chairman, Senator Enzi, and other members of the committee, 
thank you for permitting me to share my views with you this morning. I 
---------------------------------------------------------------------------
would be happy to answer any questions that you might have.

    The Chairman. Very good. Thank you for your suggestions and 
ideas. I'm always--this is always a subject matter that I find 
enormously compelling because I--shortly after I entered the 
Senate, I found out that my son had osteosarcoma in this leg 
and he had to have it amputated and he had to get a treatment 
up in Boston and he had to go two and a half days every 3 weeks 
for 2 years. I never showed up for work here in the United 
States Senate. Never showed up. Talked to Mike Mansfield and 
said, I'm outta here on these Fridays. You have an important 
vote and need my vote, this is it but I'm gone.
    I think if I hadn't gone, the people of Massachusetts would 
generally have thrown me out and they probably should have. But 
I never had to worry about missing a paycheck all during that 
time. And yet, I always remember these parents being in those 
rooms where other children who were getting treatment and what 
they were facing every time, every few weeks, they were going 
to miss a day or two being with their children.
    We ought to be able to work this out. I mean, this is 
about--I don't buy into this. Maybe there are abuses in certain 
areas--abuses in a lot of areas around here about the 
exploitation on this. It's difficult for me to buy those 
arguments easily.
    I'm interested in these health--we're doing a good deal of 
talk on our committee about how we're going to try and save 
resources and how we're going to find common ground and the 
preventative aspect stands out as one of the ones that everyone 
sort of agrees on and you talk about a preventive aspect of 
this kind of thing. We can all get into all of our various 
parts of things which we think can be done in terms of 
preventive care, boy, this is certainly one of them, if you're 
talking about education. You're talking about schools, you 
talked about teachers and what's happening in schools all over 
this country, particularly my part of the country and colder 
areas. New England, what happens to a number of children that 
are missing each day from these kinds of health challenges that 
Dr. Bhatia has mentioned.
    Let me just--I'd like to ask, on the public health, the 
Center for Disease Control. I'd like to try and keep it this on 
what they say, what the real type public health, what the 
Center for Disease Control say about children. I mean, we know 
that children recover a lot faster. I remember 40 percent, I 
don't what it is but it's a lot faster when they are with a 
parent. We all know that. We know there are going to be a 
certain number of children that are going to get sick over the 
course of this year. We know that--pretty predictable in terms 
of the flu and the rest of these. What is the Center for 
Disease Control and our State agencies say about the public 
health implications of this, Doctor? I'll ask Dr. Bhatia first.
    Dr. Bhatia. The public health implications----
    The Chairman. Well, take first of all, the CDC. You quoted 
some studies in the CDC and then if you can, tell us about the 
various public health. Another area I'm very interested in is 
the pediatricians' talk about this. Jody, you might talk about 
that a little afterwards about what the doctors--so we try and 
keep this, to the extent that we can--on what those that are 
the trained medical professionals feel about this issue as a 
public health issue, as a preventative issue. What's in the 
best interests of children? They have a pretty good--we've got 
to worry about our employers certainly but we also have 
children and family members that are important to give 
consideration to as well.
    Dr. Bhatia. So I don't think it's just the CDC. I think 
there is a pretty wide consensus that when there is a 
contagious disease, you try to avoid contact. In an adult 
situation, perhaps you can say, okay, adults shouldn't be 
shaking hands--but with kids, you can't control that situation. 
So it's not--the CDC is pretty clear with certain infectious 
diseases, don't go to school. Don't go to work. That is their 
official recommendation. It's on their Web site, it's on their 
fact sheets. These recommendations are also made by physicians. 
They are so commonly made--I don't think that they are 
published anywhere as recommendations. They are codified in our 
school districts. Our school districts tell parents, if you 
have a child with a fever, don't bring that child to school. 
Stay home 24 hours after the last time the child has fever and 
I think that most parents would like to follow these 
recommendations but as I was saying, I think that there is a 
number of competing pressures--work pressures, economic 
pressures that are also health issues that are making many 
people have to make tradeoffs between one adverse public health 
consequence, not following those public health--their doctor's 
recommendations and risking hunger or risking eviction. These 
are diseases that affect tens of millions of people every year, 
several times a year and these are fairly clear 
recommendations.
    I want to mention one other thing about the tradeoffs. The 
tradeoffs cause stress and I think research has shown 
increasingly that stress is, in itself, is a factor that 
operates biochemically to affect diseases, ranging from obesity 
to infectious disease. So not only are these kids not getting--
having the time to get better from their infectious diseases, 
not only are they spreading them, they are being put--their 
families and them are being put at greater risk of infectious 
diseases and other illnesses because of the stress that is 
ensuing.
    The Chairman. And finally, if Jody could talk about the 
pediatricians, not only on the stress but it's the stress on 
the employer, too. They are worried about their child at home 
that's sick, in terms of productivity and where they're going.
    Dr. Heymann. Thank you, Mr. Chairman. Let me give a series 
of numbers here, both about adults and children. I think one 
very striking one about adults is influenza. So these are 
Center for Disease Control numbers. Influenza leads to 200,000 
hospitalizations a year, over 36,000 deaths in an average year 
and we know very clearly what the recommendations are. You get 
sick, you should stay home.
    We also know that it's infectious after people have 
symptoms, that they are coughing and sneezing on people, 
they're spreading it at the workplace and what happens 
commonly, if people don't have paid sick days, is they go to 
work sick. This is an enormous dollar cost, by the way. They 
spread it to others at work. Those folks are home some of the 
time. When they're not home, they're at work. Presentism--not 
at full capacity but the health costs are enormous.
    When it comes to children, there are several things we 
should be aware of. When children are sent to childcare sick, 
which they are and they are so commonly that if you ask daycare 
teachers, they'll tell you about the Tylenol sign. That's when 
the children have a little pink collar because the parents have 
given the child Tylenol to mask the fever before sending them 
to the childcare center and the little child dribbles out the 
pink Tylenol onto their shirt but then they go there and what 
happens is, at noon, the fever goes up. The Tylenol has worn 
off. The child has diarrhea, vomiting, spreads it to the other 
kids and we know this leads to three and four times the rate of 
infections among children in these centers.
    When parents are present, in contrast, even in serious 
illnesses like hospitalizations, the hospital stays are 
decreased by 31 percent. That's an enormous amount of cost 
savings.
    I guess the last thing I want to mention on these health 
numbers, which is included in my prepared remarks and I hope 
that will also be included in the written testimony, is 
thinking about these other countries that are doing it. Why? 
Because I think it does go to this core issue of can we afford 
to do it? For sure, if 19 out of 20, all but us in the most 
competitive economies are providing paid sick days. Our 
companies are as good. We can make this work, too. It is 
noteworthy that those top economies are also higher ranked in 
terms of their health outcomes.
    Thank you.
    The Chairman. Debra, I'll come back. My time is 2 minutes 
over here. I'll come to you in just a minute. Don't forget what 
you were going to say.
    Senator Enzi.
    Senator Enzi. Thank you. You know, we talk about the stress 
of the employee who has these problems. I don't want you to 
think that the employer isn't under any stress. Everything that 
we've talked about here are things that most of the businessmen 
that I know would love to be able to give to their employees. 
They think it is essential. They just haven't figured out how 
to pay for it. The hearing is extremely helpful. There will be 
some people out there that will be introduced to this concept 
that haven't been before and they'll make some adjustments. And 
it will make a difference.
    Now as far as the legislation itself, there are a lot of 
unintended consequences that I think would happen if we were to 
go ahead and pass this because I don't think we have any 
concept of what those businessmen, the ones between 50 and 500 
employees are going through with their decisions and this 
affects all of them but a lot of them above that, 75 percent of 
them above that provide this benefit already. I was kind of 
surprised that 25 percent of big businesses don't. But I'm more 
worried about the small businesses and how they get along and I 
know that some people in small business, to try and figure out 
the dilemma of how to handle this, have said, I'm going to go 
ahead and pay my people sick leave and I'm going to pay it on 
every paycheck. I'm going to show it on that paycheck as paid 
sick leave. They don't have to have any excuses for taking sick 
leave off. Hopefully they take that money, they save it for 
when they do have something but it's a way that they can have 
the money for it but it's also a way that when they think maybe 
they're sick--they know they got paid for it so maybe they'll 
determine whether they really need to come to work or not.
    Now, of course, we all hope that nobody comes to work 
really sick but I can tell you that the employers do because 
they don't have anybody to fill in for them.
    I'm an accountant and I had a little trouble with some of 
the numbers in this bill. We usually talk about 40 hours but 
this drops down to 30 hours for qualification and then 20 hours 
for pro-ration and I was trying to figure out--20 hours is two-
thirds of 30 hours but when you multiply that by 7 days the 
employer has to come up with some minutes that he has to work 
out there, I also noticed that you could take this in 1-hour 
increments or smaller increments if people keep track of their 
time on that basis and I think a lot of people keep track of it 
in 6-minute increments. So I guess we're giving people 
permission to have 6 minutes worth of being sick. That's the 
way it will work out and somebody will have to do all the 
record keeping on it.
    Mr. King, you mentioned some of the lack of clarity in the 
bill's equivalency provisions coupled with the requirement that 
existing leave policies be frozen. Do you have any opinion as 
to what employers would be advised to do with their existing 
leave problems and entitlements were this bill likely to be 
enacted?
    Mr. King. Senator Enzi, I can refer the committee to the 
experience in employer area after FMLA was enacted. Many 
employers, including very large Fortune 500 employers, said the 
cost of compliance is such that we will not increase or add on 
to our current benefit package. And that has been the 
experience with many. The costs on the margin here to comply 
can be considerable so I think that what you will see if 
legislation such as this were enacted, would be less resources 
(a) available for paid leave and (b) a great reluctance on many 
employers' part to put more money in this area, which is 
counterproductive.
    I might note in reference to the public health discussion 
also, certainly employers agree with virtually everything that 
has been said here regarding the CDC. We don't want sick 
workers coming to our place of business. That's not good for 
productivity. It's not good for clients or customers. Many 
employers have flex time situations where they permit a 
different hour for the person to come in or a different day. 
Many of our employers in this e-age we live in, this electronic 
age we live in, permit employees, workers to work from their 
home. They telecommute. There are many things that can and 
should be done in this area.
    This legislation, Senator, has a lot of areas that just 
from a pure mechanical legislative drafting perspective, as I 
mentioned, needs attention.
    Senator Enzi. Thank you. Actually I think you were very 
kind on that. I think there are a lot of attorneys across this 
country that would say to the small businessmen, cancel your 
paid time off. You're going to have to make it up for sick 
leave and we don't know where the sick leave is going to go 
after this. Those who are providing more than 7 days sick leave 
will be encouraged to cut back to 7 days of sick leave and the 
advice they will be given is, blame Congress. They said that 
was adequate sick leave, so cut it back.
    Mr. King. Senator, if I may, I hear that all the time and 
what you also may see is vacation banks or other paid leave 
time being decreased to meet the mandate of the statute. So I 
think you are correct in your analysis.
    Senator Enzi. I think maybe some attorneys would worry 
about their liability if they didn't give some advice like that 
but I guess they don't worry about liability or they'd be 
doctors.
    I have questions for all of you and most of them have some 
more levels of detail in them that I'd like to have so I'll 
provide those in writing because I am interested in whether it 
is your intention that we cover cosmetic things, like Botox and 
teeth whitening and there were some comments about nursing home 
costs in there and I'm wondering if you think we ought to shift 
the cost of nursing homes over to employers, also the cost of 
friends? I don't know why we picked 7 days. It could be 14 
days. In the presentism study that was cited, flex time among 
Federal workers increases morale. On the presentism study--I've 
got a lot of questions on how those numbers were derived. I've 
got some questions on these other countries that have the lower 
rates, what their employee compensation is to begin with and 
what their rate of unemployment is. I've got some questions 
about flex time, of course, because we allow Federal employees 
to do that because it increases morale and we know that it does 
but we deny private employers from doing that same thing. I 
have whole lists of questions here that I'd like to have 
answered and so I hope that you'll respond in writing to these 
as you get them. Thank you.
    The Chairman. Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman and 
thank you for holding this important hearing. My apologies for 
not being here earlier. I was over at a Veterans Committee 
meeting and what was interesting and one of the aspects of the 
discussion at the Veterans Committee meeting was the pride that 
everybody, including the Bush Administration, took in the 
quality of care that our veterans are receiving at the VA and I 
found it rather amusing, Mr. Chairman, after all the attacks on 
big government, how government can't do anything, we have 
everybody saying that the Veterans Administration is providing 
cost effective, high quality care to our veterans. Maybe that's 
a lesson that we might want to think about when we keep 
attacking the government and how it can't do anything. The 
importance of this hearing, I think, and I'm going to ask Dr. 
Heymann a question in a moment and I think we have to do this a 
lot, Mr. Chairman.
    You know, I hear people saying, America, we're No. 1. We're 
No. 1. Well, if you look around the world in terms of how we 
treat our children and how we treat our working families, we're 
not No. 1. We're way, way, way on the bottom and I think we 
need more discussion to ask why countries in Scandinavia, in 
Europe can virtually eliminate childhood poverty while we have 
the highest rate of children poverty in the world.
    I think, Mr. Chairman, we should be asking why, in this 
country, millions of workers go to work today and you know 
what? They have zero--zero vacation time or 1-week vacation 
time when all over the world, people are guaranteed 3, 4, 5 
weeks of paid vacation. So when people talk about us being No. 
1, yeah, we have the most unfair distribution of wealth and 
income of any major country on earth. We're No. 1 there.
    [Applause.]
    Senator Sanders. We have the highest rate of childhood 
poverty of any country on earth, we're No. 1 there. But maybe--
maybe the Chairman is going to quiet you down, so let's--I'll 
save him the----
    The Chairman. Gently, gently.
    [Laughter.]
    Senator Sanders. But the real issue is how we can be No. 1 
in protecting the needs of working families and our kids and I 
would hope--I would hope that that is where we strive to be No. 
1.
    Senator Enzi has very appropriately pointed out the 
problems facing small businesses. He's absolutely right, 
certainly in the case of the State of Vermont. We know that. 
But we also know that in the tax bill that the President has 
just presented to the Congress, guess what? The Walton family 
that owns Wal-Mart is going to get $32 billion in tax relief. 
While we have the highest rate of childhood poverty in the 
industrialized world. Maybe we should start changing those 
priorities.
    What I wanted to ask Dr. Heymann is--and I think you've 
already gone over this--is the United States No. 1 in paid sick 
leave?
    Dr. Heymann. Unfortunately, the United States is very far 
down the list on paid sick leave and you mentioned other family 
priorities. In fact, it's very far down the list overall. We've 
heard a lot about the FMLA today but it's unpaid leave. I'll 
mention that that leaves us near the bottom. We have data on 
173 countries--168 of these provide for paid leave for women at 
childbirth. Who doesn't? The Sudu, Liberia, Swaziland, Papa New 
Guinea and the United States of America. That's it.
    Now when it comes to the paid sick days, 145 provide paid 
sick days and as I mentioned, 100 of these--it's from day one, 
for over 100 of these, it's at least a month. Seven days is 
quite few by those measures.
    In terms of Senator Enzi's question about unemployment, 
which is an important one, the answer is that many of these 
countries have lower rates of unemployment and when you look at 
the relationship between the duration of their paid sick days 
and unemployment, which we have, for all countries, there is 
absolutely no relationship there. The only relationship is the 
competitiveness. When we do this against the Competitive Index 
from the World Economic Forum, the top quarter of competitive 
countries offer the most paid sick days. The bottom quarter 
offers the least paid sick days. We don't think that's a 
coincidence. It's because having a healthier workforce is a 
competitive advantage, as is having better educated children.
    Thank you.
    Senator Sanders. You raised the Family and Medical Leave 
Act and I remember how hard we had to struggle to pass that and 
yet, if you don't have money, it doesn't do you any good 
because you've got to go work to pay the bills. How many 
countries in the world--well, you just told us. In that regard 
and I would hope that everybody recognizes that when your child 
becomes ill, your parents become ill, you want to be able to 
spend time with them. That's kind of pretty basic. And yet, we 
provide zero guarantee, zero pay for low-income workers, many 
of whom can't even take advantage of that Leave Act, is that 
correct?
    Where do we rank internationally in terms of providing 
health care to all of our people?
    Dr. Heymann.
    Dr. Heymann. Why, I think we know unfortunately again, 
compared to most industrialized countries, we're very far down 
that list.
    Senator Sanders. What about maternity leave?
    Dr. Heymann. Maternity leave, we're basically at the 
bottom.
    Senator Sanders. What about vacation time for American 
workers?
    Dr. Heymann. Vacation time--137 countries around the world 
guarantee paid annual leave. We don't guarantee any.
    Senator Sanders. Mr. Chairman, we've got a lot of work to 
do. The United States should not be at the bottom of the 
international community in terms of benefiting its workers.
    [Applause.]
    The Chairman. [Pounding gavel to restore order.] Thank you, 
thank you. Please.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. Dr. Heymann, I 
want to make sure I heard what you said a minute ago. You said 
the--you talked about the top quarter of the most competitive 
and the bottom quarter and the correlation was, the bottom 
quarter didn't have paid sick leave and the top quarter did. Is 
that correct?
    Dr. Heymann. So what I said is, we looked at duration of 
sick leave and quality of sick days and the most competitive 
countries are the ones providing it and you can look at it both 
across the countries. The other way we looked at it, is we took 
this World Economic Forum list--the list put together by top 
business leaders and we said, what about the top 20 countries? 
And I'll just give you some of the top 10: Switzerland, 
Finland, Sweden, Denmark, Singapore, United States, Japan, 
Germany, Netherlands, UK. That's the top 10 in rank order. 
Everybody but the United States guarantees paid sick days in 
that list and the United States is falling in competitiveness. 
We're now ranked No. 6. We used to be ranked No. 1 and I think 
that's about a chronic under investment.
    Senator Isakson. Doctor, thank you. The reason, before I 
lose my train of thought here.
    Dr. Heymann. I'm sorry.
    Senator Isakson. The reason I asked that question is--and 
you sort of noted it at the end of your answer. The people that 
are at the bottom don't have required annual sick leave, 
except, in the top 10 is the United States that doesn't have 
any required sick leave, which is the point I want to get to, 
is something that Mr. King alluded to. While the United States 
does not have mandatory, minimum number of paid sick leave 
days, it is true that a significant portion of the United 
States of America's employers voluntarily have benefit programs 
for sick leave for their employees, I think. I know Ms. Ness 
said that 57 percent had paid sick leave and 43 percent don't 
or something like that and then Mr. King said 75 percent had 
it. I think the difference is formal policy versus informal 
policy, is that not correct?
    Dr. Heymann. That's--if I could answer--is it okay if I 
answer that?
    Senator Sanders. Sure.
    Dr. Heymann. Senator, I think it is important and valid 
question and in fact, again, of those top ten, just to take as 
an example, they all, except for the United States, have higher 
rates of paid sick days, even when you include informal policy 
as well as formal policy. While there is informal policy in the 
United States, it covers half of the private sector and 
importantly, I've heard from many employers that among those 
employers who do provide it, they're having a hard time because 
they are competing against other companies down the street that 
aren't. Among those who would like to provide it, many of them 
feel that putting it in the law would give them a level playing 
field.
    But in direct answer to your question about those other top 
competitive economies, they all have higher percentages of 
employees receiving paid sick days than we do.
    Senator Isakson. My point is that I respect all the things 
that Senator Sanders said but this is a great country and 
America does a lot of things voluntarily that it doesn't get a 
lot of credit for and so does American business and the point 
of my whole statement is, Mr. King makes a very valid point. 
And that is, we need to look at--no one is opposed to what is 
being talked about today. That's the first thing but it's how 
you--the devil is in the details and every time you deal with 
these issues and isolated mandates based on circumstance, they 
accumulate. And to some pretty unbelievable mandates on 
business and the question about re-looking at the Family 
Medical Leave Act as you address this area of sick leave is 
tremendously important. Second, the reason--in a positive 
sense, not a negative sense and I think Mr. Sanders' 
recognition of the importance of small business is critical--I 
ran a small business for 22 years before I came here and many 
times, Federal mandates for minimums become maximums and 
ceilings because you don't have the flexibility as an employer 
to do what's right for the employee.
    And as bad as many employers are categorized and castigated 
by statements that really are taken out of context and 
inappropriate. The fact of the matter is that any good business 
person that runs a business and owns it is very compassionate 
about their employees because they have no business without 
their employees. And I'm making a speech here rather than a 
statement but--I want everybody to understand--it really 
bothers me a lot when we take out after this country as being 
so bad about everything when we're so great about everything, 
much of it voluntarily and on our volition and not because some 
government mandated that it happens so as we--and I appreciate 
all your testimony. I think this is a great thing for us to 
look at and improve because I care about the plight of every 
worker but let's look at it in the context and the perspective 
of all the--and this is not a question for you, necessarily, 
Doctor. It's a speech I'm making right now and I apologize for 
that but we need to look at these things in the context of all 
of them and not let them stack and accumulate.
    Last point----
    Dr. Heymann. Would it be all right to mention one thing 
from a small business perspective in response to this?
    Senator Isakson. As long as you don't take all the rest of 
my time.
    Dr. Heymann. Okay, I'll be very brief. Senator Kennedy 
mentioned Dancing Deer. They are a small business. We did a 
case study of them because they treat their employees well. 
They right now don't have paid sick days. They'd like to have 
them very much because this kind of law will mean that they can 
compete with other bakeries while offering it. So I think there 
really is an important perspective. In no way does the fact 
that some companies don't offer it now means they are not good 
companies. It means that the public policy can help them as 
well, as we've heard.
    Senator Isakson. Well, Chairman Kennedy, if you would or 
have your staff, I want to ask you a point of information later 
on, on the accumulation provision in the bill. It appears to 
me--it says it allows accrual of sick leave days but no more 
than 7, which leads me to believe that you can accumulate 7 in 
1 year and roll those forward and add them to the 7 in the next 
year, so it could go as high as 14, the way it's worded. And I 
think we need to take a look at that because that would have an 
unintended consequence that I don't think the Senator intends 
to do.
    The Chairman. That's right. Thank you.
    Senator Brown.
    Senator Brown. Thank you very much, Mr. Chairman. Last 
month, Senator Kennedy led the fight here in this Senate for a 
higher minimum wage. Opponents to the minimize wage said that 
it will make business--it will put some people out of work, it 
might even put some businesses out of business. It will put 
minimum wage workers, low-income workers out of work, that it 
will overall hurt the economy all over the country.
    Our answer to that and Senator Kennedy's answer and the 
answer of many of us was that to look at those States which had 
higher minimum wages, state-imposed minimum wages and found 
that in fact, those States, by and large, are more prosperous 
States than those without higher minimum wages. We're hearing 
the same kind of argument and opposition to this proposal--that 
this will make America less competitive as a nation. Both Ms. 
Hartmann and Dr. Heymann, if you would, answer to that with a 
little more specificity. Ms. Hartmann mentioned in her 
testimony and I apologize for being late and having to leave. I 
have other hearings I have to do today but replacing workers is 
very expensive. Even in the low-wage labor market, filling a 
vacant position and bringing a new worker up to full 
productivity can cause 43 percent of annual pay. I would like 
Ms. Hartmann to expand on that a bit and Dr. Heymann, if you 
would expand on the competitiveness, why, in fact, the United 
States--you've made clear we stand out as a country that 
doesn't do this while others do--but why, in fact, this would 
make us, if you would, delineate in this global economy, why 
this will make us more productive, faster growing and a better, 
stronger economy and Ms. Hartmann, if you start.
    Ms. Hartmann. Thank you very much for the question. 
Basically, what we found in doing this research is that 
turnover rates differ between companies where workers do have 
paid leave and where they don't and that differential and 
turnover means that when a company puts in paid leave, they can 
expect their turnover to fall. We value that turnover with a 
number that comes from the Employment Policies Foundation, 
which is a business think tank. So we used their number of 25 
percent rather than the 45 percent that we mentioned in the 
testimony. So we low-balled, if anything, the estimates, which 
are savings from reducing turnover and what we found was that 
the savings from reducing turnover outweigh what you would 
actually pay the workers for leave. The reason my numbers 
differ from Mr. King's is that we look at the amount of leave 
that people would actually use so in the economy as a whole, 
again, if you have paid sick leave now, you use only one more 
day of sick leave per year than if you have unpaid leave. So 
the amount of increase that you would get is small and we 
measured that increase as a cost and the cost of providing that 
money to workers is substantial--it's $20 billion but the cost 
of the reduced turnover and adding to it, the reduced spread of 
flu in the workplace, we get a savings of $32 billion. So on 
that, there is about a $9 billion difference. So anything that 
economists can say, where the gainers can pay the losers and 
then have a surplus--that's considered Fredo optimal. It's 
considered that you are increasing total output in the economy 
so it's basically a net gain for the society because we can 
actually gain more than we lose. So all the points that Mr. 
Enzi and others have made are very valid but you also have to 
look at it from the point of view of society as a whole and if 
you can do any change, which saves the economy more money than 
it would spend, then all economists would say, do it.
    [Applause.]
    Senator Brown. Dr. Heymann, if you would address the issue 
of making us more competitive.
    Dr. Heymann. Sure. On a national level, there are really 
three things that make an enormous difference in making us--any 
country competitive, including us. One, is the education of the 
population. Second, is the health of the population and the 
third is the training and skills that are specific to the job. 
And in that last one, I want to mention, we've done a study of 
very successful companies across the country and around the 
world from Alabama to Connecticut, from China to Ireland to 
Norway to South Africa. Our competitors, as well as our local 
companies, including manufacturers of clothing to bricks to 
call centers and all of the CEOs, human resource people at 
every level talk about the same thing. If you can keep your 
employees on the job, active, there a long time, there is so 
much job specific knowledge that the productivity goes up 
markedly. So this gets back to what I think Heidi was saying in 
terms of turnover rates and what we know from our own work, 
paid sick days reduce turnover dramatically among those who 
have been sick. So that kind of training retention--big impact 
on a company by company basis and long-term impact for the 
country. The other areas--health--the population health numbers 
are just striking. What makes the biggest difference in health 
long term are the prevention measures. We know this from really 
countless studies and the countries that have this kind of 
policy in place have much better health outcomes.
    Finally, development of children. Paid sick days makes 
parents five times as likely to care for their kid's health. 
When their kids are healthy, their development is better, their 
education is better. That really is a tremendous long-term 
investment and we know the statistics bear this out on the 
countries. Thank you.
    Senator Brown. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I guess--from my 
own background, I come from a small business person's attitude 
but in addition to that, many of us represent small businesses 
that are in rural areas. One of the problems that you have, as 
a small businessman, is you have an employee who is trained to 
do one specific function for that business. If they don't show 
up for work, the business can't take care of its clients or its 
customers or whoever is utilizing that and it creates a 
hardship for the business owner, who by the way, is a 
hardworking American. Many times, small business people put in 
more hours than anybody on the payroll because they know that 
when they're not there, the business doesn't function.
    So I have a concern about those particular types of 
businesses and I guess I look at it from a total compensation 
package. I think the comment that says that well, if you're 
looking at the total compensation, some types of employees 
prefer different types of benefits from the business than other 
types of employees. It depends on where they are in their work 
cycle. It depends on what type of community they are in and 
those types of things and it seems to me that when we have 
mandates, we take away that flexibility.
    I have a question for Mr. King. Has any effort been made to 
analyze on a local basis, how this may impact small 
communities, for example. If you have a business that provides 
one particular type of service to a small community, I guess if 
the person who wants the service has to drive 60 miles, that's 
not anything that's going to help that local community. So has 
any study been done on that?
    Mr. King. Senator, not to my knowledge and that's a real 
problem. This legislation, as introduced in the last Congress, 
covers small businesses with 15 employees, which is a dramatic 
difference from FMLA that goes to 50. So that's a very real 
concern and one other point I would just make in the attack on 
the business community to a certain extent here. We don't 
disagree with turnover data. We don't disagree with all of the 
things that have been said. Paid leave is very desirable. The 
flexibility question is a very real one. This country, by the 
way, Senator Sanders, and the business community has billions 
of dollars of benefits--billions of dollars. If someone did an 
economic analysis, a true economic analysis, the amount of 
money that the business community in this country voluntarily 
provides--I'd like to see where we rank. I would say we're 
probably No. 1 by far in pure dollars. But Senator, you're 
absolutely right. The practical impact on the small business 
person is very real and to my knowledge, it's not been thought 
out.
    Senator Allard. Doctor--how do you pronounce your----
    Dr. Bhatia. Dr. Bhatia.
    Senator Allard. Bhatia.
    Dr. Bhatia. If I may and I know that San Francisco is just 
one place but we've passed a number of mandates in the past few 
years. They include a living wage, a minimum wage and now sick 
days and soon to be universal health care requirement. One of 
my responsibilities is ensuring food safety for the 6,000 
restaurants and we track the openings and closings of the 
restaurants, their size, their employees and we've been asked 
by the local business association, restaurant association, what 
effect is this having on openings and closings and over the 
past 8 years that I've been doing this and in the course of 
these mandates, there has been no change in the openings and 
closings of these restaurants. These restaurants--6,000 small 
business--mostly small businesses appear to be running about 
the same that they always have. So that's just one anecdotal 
experience from one place.
    Senator Allard. I wonder if that explains why more 
California businesses are moving to Colorado.
    [Laughter.]
    Dr. Bhatia. Well, I don't think our 6,000 restaurants, the 
small businesses of San Francisco, the small markets, are 
moving to Colorado.
    Senator Allard. That's right. Thank you, Mr. Chairman.
    The Chairman. Just thank you all very much. We'll have 
other questions. Debra--and I wanted to just finally and I just 
have a question of you on the implementation of this 
legislation and your reaction to your own kind of studies about 
having supported other kinds of protections for workers, 
whether you feel that this a zero sum game, that if they 
advance this, they're going to get cut back on some of the 
other benefits. What's your own kind of experience? But on the 
implementation, how complex do you think this would be?
    Ms. Ness. Well, I don't think there is any evidence that 
this is a zero sum game or that providing paid sick days, a 
minimum number of paid sick days, has proven to be economically 
challenging to countries that do it or businesses in this 
country that do it. There are many who do and do it because it 
makes a lot of sense and they have managed to do it without a 
great deal of administrative difficulty.
    I hate for us to think about the ability to take time when 
you're sick or to get preventive health care as a privilege or 
a benefit. It seems to me that we should be thinking of this as 
a minimum labor standard.
    Earlier on we were talking about the public health benefits 
and we focused primarily on children. I would say we also urge 
adults to get preventive health care all the time. We tell them 
to get mammograms. We tell them to get colonoscopies. But yet 
if they don't have the days off to do that, I don't know any 
place you can do that on weekends or evening hours. We know 
that there are people in this country now that have not just 
one but two and increasingly three chronic conditions and 
that's going to get worse and the costs of that are huge to our 
healthcare system. Five percent of the population is 
responsible for 50 percent of our health care costs yet we know 
people being able to take a little bit of time out to get the 
preventive care they need can keep them from reaching the point 
where they need extensive hospitalizations or more expensive 
healthcare down the road and from a personal point of view, 
people who don't get that care--they spiral downward very fast. 
It's not just they miss a day or two of work. They get sicker. 
They potentially lose their job. They potentially lose their 
health insurance if they were lucky enough to have it. And for 
those people, the costs are enormous. We now know that about 50 
percent of all bankruptcies are probably a result of medical 
bills triggered by illness. So I hope we can get a place where 
we think of this as a minimum labor standard. Thank you.
    The Chairman. Thank you.
    [Applause.]
    Ms. Hartmann. Senator Enzi, I'd like to congratulate you 
for your leadership with the Work for Us Investment Act and one 
of the things you did in that act was highlight the importance 
of pay and equity between women and men and one of the things 
that paid sick leave would do, would actually improve pay 
equity between women and men because it would reduce turnover 
on the job and women still bear the brunt of leaving work 
because of illness. When you look at the unemployed, something 
like 40 percent of women say that they left their last job and 
now can't find work for family reasons. So if you have a paid 
sick day or two to tide you over so you don't have to lose your 
job, you will be able to increase your seniority on the job. 
You'll increase your productivity on the job and that will 
raise your wage. So I think that this minimum labor standard 
should really be seen as something that will help redress the 
imbalance between men and women in the labor market and really 
raise women's pay and I'd just like you to be aware of that 
because I know this is a very important issue for you.
    [Applause.]
    Senator Enzi. If we really want to increase or decrease 
that gap, we're going to have get more women to do non-
traditional jobs and we're going to have to get more people to 
move out to Wyoming, where we have a lot of those jobs that are 
very good jobs that they could do and they'd get paid $60,000 
to $80,000 a year for them and get paid medical leave and get--
I'm told, vacation.
    The Chairman. Where is this magnificent place?
    [Laughter.]
    Senator Enzi. This is in Gillette, Wyoming and every time I 
make this kind of announcement, we get one or two more people 
that come out there and take advantage of it. But most people 
don't want to leave whatever kind of a job with whatever kind 
of a benefit because they are afraid of change. I'm a little 
disappointed that today we haven't talked about the pressing 
issue of getting health insurance for more employees. Of 
course, when we do the paid medical leave, that will drive up 
some of the business costs and every time the costs go up by 1 
percent, 100,000 people get dropped out of the insurance market 
because small business can't afford it. And that's from some 
very good studies. So I don't know whether they would consider 
this part of the cost, if they'd say, okay, you can get off to 
go take care of it but we're not going to pay for it anymore. 
That would be a huge disadvantage. So somehow, we've got to 
figure out how to solve all of these problems and I don't think 
we're going to be able to do it with a big government one-size-
fits-all mandate when we're talking about such a diverse 
economy. I do know that when we were talking about the economy 
that we talk about how it goes up when the minimum wage goes up 
and it will go up when this happens and I don't necessarily 
doubt those statistics. But it doesn't go up in every business 
and when a business goes out of business, the people that own 
the business and the people that work for that business really 
feel like the economy has gone to hell. That's the economy that 
they're interested in, where they work, the job that they have, 
the job they understand, the job that they like going to every 
day. When that disappears, the economy is bad. So I hope we'll 
do some more discussion on small business and health insurance 
and of course, I have the small business health plan proposal 
that would have allowed businessmen to group together to get 
some lower prices, largely reducing administrative costs. 
Hopefully some of those ideas will move along yet and solve 
some problems for small business and their employees.
    The Chairman. You can see we have a full agenda here and 
not uniformity of agreement on most of these issues. If there 
is any further, we'll leave this open. You've been very, very 
helpful. We'll leave the record open for additional questions. 
We're very thankful to our witnesses. It's been very 
informative and valuable and we're grateful to you.
    The committee stands in recess.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Harkin

    For the past few decades, people have been throwing around 
the term ``family values'' here in Washington. But the policies 
that have been passed in that name often reflect anything but 
valuing families. I am proud to cosponsor this bill because it 
represents two of my highest priorities: respect for workers 
and their families, and workplace wellness.
    First, I think it is time for us to take a whole new view 
of labor policy. For the last several years, we have been 
moving in the direction of concession. We have been told that 
in the name of profit, in the name of competitiveness, that we 
have to force workers to give up the rights that past 
generations have fought and died for. We've seen overtime 
rights eroding. We have seen pensions evaporating out from 
under workers--while the executives keep their deferred 
compensation. We're rewarding record workplace productivity 
with more mandatory overtime and lower wages. Yet, CEOs are 
getting paid a record 400 times the wages of the average 
worker. We keep moving in the wrong direction.
    This bill is a step in the right direction. This bill says 
parents should have the right to take their sick child to the 
doctor. Workers should have the right to take care of their own 
health and well-being without worrying about losing pay or 
losing their job. I hope that we can begin to think again about 
the working men and women of this country as human beings with 
basic needs and basic rights, like the right to take a day off 
when they are sick.
    Unfortunately, a whopping 50 percent of private sector 
workers, and 76 percent of low-income workers don't have paid 
sick leave. These are people who have to work long hours, 
increasingly during nights and weekends, just to survive.
    As witness Jody Heymann has found, the United States is 
behind the curve in providing sick leave. She found that 139 
countries provide paid leave for short- or long-term illness--
with 117 of those providing a week or more annually.
    I know some of the witnesses have talked about this, but I 
really want to underscore the cruel irony that low-wage 
workers, who are least likely to have paid sick leave--and 
their kids are sick more often. It isn't surprising that kids 
health outcomes are better when a parent can spend time helping 
them to get better. If we value families, we shouldn't force 
parents to choose between job responsibilities and taking care 
of their sick children.
    As I said earlier, this is also a public health issue. I 
find it amazing that companies don't see their own interest in 
encouraging sick employees to stay home, and avoid infecting 
coworkers or customers. But amazingly, 78 percent of food 
service workers do not have paid sick days. In one hotel in 
Nevada, a worker who didn't have paid sick time went to work 
with a stomach virus and infected 600 customers and 300 
employees.
    As you know, wellness and illness prevention have been a 
top priority for me for many years. Americans spend an 
unbelievable $1 trillion every year on health care. Three 
quarters of that cost is accounted for by chronic diseases like 
heart disease, cancer, and diabetes that, in many cases, are 
preventable. We can save hundreds of billions of dollars on 
unnecessary hospitalization, treatment, and disability, but 
only if we make the up-front investment in prevention and allow 
our workers to take time off to get essential preventative 
screenings and assessments. We also know that one of the best, 
most common sense measures to preventing illness is keeping 
people with communicable illness at home until they are well 
again.
    Mr. Chairman, families are feeling more pressure every day 
to try to make ends meet with more responsibilities heaped on 
them. Rosa Pederson, from Fort Dodge, Iowa is working and 
raising a toddler. She writes, ``We're all supposed to be 
supermen. We're supposed to price compare health services and 
know which practices are proven most effective. We're supposed 
to actively manage our funds in a way that consistently beats 
the market. We're supposed to work our way through school and 
get through in 4 years. We're supposed to . . . save more and 
spend more while making less.'' Add to that having to show up 
to work even when you're sick, or to find a way to manage your 
child's sickness while still working full-time or more--or 
worse--you or your child is sick because someone else at work 
couldn't take a sick day. It is easy to see how families 
suffer.

                 Prepared Statement of Senator Clinton

    I would like to thank Chairman Kennedy and Ranking Member 
Enzi for holding this important hearing on the Healthy Families 
Act. I am a proud cosponsor of this legislation that would 
provide workers with 7 paid days of sick-leave, giving parents 
time off from work to go to the doctors' office with their 
child, aging relative, or to address their own health needs.
    Throughout my career as a lawyer, mother, First Lady and 
Senator, I have sought solutions to the difficult challenges 
that working parents face.
    That is why I am looking forward to re-introducing my 
``Choices in Child Care Act of 2007'' to meet the child care 
needs of working families. My bill provides a modest and 
important option for families who have none; it gives them the 
chance to stay at home with their infants when there is no 
childcare available to them. This is the critical next step to 
ensure low-income families welcoming children in their lives 
are afforded more economic security than they would have 
otherwise.
    I am also looking forward to re-introducing my ``Paycheck 
Fairness Act'' in March. This bill would prevent, regulate, and 
reduce pay discrimination for women across the country by 
taking critical steps to empower women to negotiate for equal 
pay, to create strong incentives for employers to obey the laws 
that are in place, and to strengthen Federal outreach and 
enforcement efforts.
    With this month marking the 14th anniversary of the Family 
and Medical Leave Act, we can celebrate how far we have come in 
terms of providing benefits for the hardest working families in 
this country. But we must also recognize the challenges 
Americans face in balancing work and family life today. The 
time has come, with the new 110th Congress, to give parents 
additional resources and options in helping them address these 
challenges.
    Thank you.

                  Prepared Statement of Senator Brown

    We are here today to discuss a very simple piece of 
legislation. The Healthy Families Act will guarantee millions 
of Americans the basic right to care for a family member or 
recuperate from an illness without worrying if they will be 
able to pay the rent that month. In my State of Ohio, 42 
percent of workers--2,232,125 workers in total--have no paid 
sick days. These people are forced to choose every day between 
their jobs and the health of themselves or a family member. 
This is a decision no American should have to make. A single 
parent should not have to worry about losing their job simply 
because they need to take their ailing child to the doctor.
    Paid sick leave improves overall health, lowers healthcare 
costs and makes good business sense. Experts agree that the 
ability to take time off and go to the doctor lowers the 
likelihood of chronic illness and ultimately the cost of 
healthcare. This benefits productivity and prevents ill workers 
from spreading their sickness to coworkers. The ability to stay 
home when you are sick is critical.
    This legislation would provide paid sick days for an 
employee's medical condition, doctor's appointment or other 
preventative treatment. It would also provide prorated leave 
for part-time employees and require employers to post notice of 
the availability of sick leave. This is crucial to thousands of 
Ohioans and middle class Americans who are just trying to work 
hard and take care of their families. I thank the Chairman for 
holding this hearing and drawing attention to the plight of so 
many Americans. I fully support this bill and encourage my 
colleagues to do the same. The time for mandatory paid sick 
leave is long overdue and millions of working Americans deserve 
better.
                  Statement of Dancing Deer Baking Co.
    Employers, families and our economy depend on the existence of a 
healthy workforce. I commend Senator Kennedy for his leadership in 
seeking paid sick days for employees around the Nation.
    At Dancing Deer Baking Company we have always sought to ensure that 
our employees can have the time to address their own and their 
families' health needs. We also provide all employees with short- and 
long-term disability insurance as a secondary safety net. Full time 
non-exempt employees at our company receive a minimum of 15 days per 
year in their first year of employment as paid time off (which can be 
used for any reason, including not coming to work because of the flu) 
which they start accruing immediately upon employment with us. It makes 
good business sense and good people sense to put structures in place to 
help people live more balanced, healthier lives.
    A national paid sick days law that sets a minimum standard is 
important because it means that employees do not have to choose between 
coming to work sick or staying home and losing a day's wages--or a job. 
National data indicates about half of private sector employees do not 
have paid sick days. That's an incomprehensible statistic, until you 
break it down and look at the granular, person-by-person implications. 
What you find is that health issues and family care issues are often 
the final straw that throws families into crisis. We see this in our 
work in the community targeted at ending family homelessness; Our 
``Sweet Home Project'' provides funds that help homeless families (the 
majority of whom are the working poor) move to healthy, economically 
stable lives.
    A national paid sick days law creates a level playing field for all 
businesses. Personally, I believe that we have a competitive advantage 
from our benefits policies, but many small businesses struggle with 
this issue. I believe that creating a level playing field with respect 
to incentives and requirements for ``doing the right thing'' is a good 
idea for all.
    It is encouraging that the committee is holding hearings on paid 
sick days. We hope that a bill will move through both Chambers and be 
on the President's desk. Paid sick days should be a non-partisan issue. 
A healthy nation is a productive nation.
    Founded in 1994 as a local bakery, Dancing Deer has advanced to the 
national stage through creativity, hard work and a maniacal attention 
to quality, detail and customer satisfaction. As we learned what and 
who did and didn't work organizationally, we developed a philosophy for 
the business. If people are happy, it shows in the food. Dancing Deer 
currently has approximately 70 full-time employees; The Company's 
policies are tailored to the inner city employee base. Dancing Deer has 
a low hourly requirement for full-time benefits (just 24 hours per 
week) and a flexible PTO (paid time off) policy, which allows single 
parents access to health care, and other benefits while managing family 
commitments.

For more information contact: Ursula Liff ; (617) 442-7300 ext. 210; 
Ursula.liff 
@Dancingdeer.com; 77 Shirley Street, Boston, MA 02119.
                                 ______
                                 
        The Medical Legal Partnership for Children,
                                          Boston, MA 02118,
                                                 February 12, 2007.
Hon. Edward Kennedy,
317 Russell Senate Building,
Washington, DC. 20510.
    Dear Senator Kennedy: We are a group of pediatricians who work 
among the most underserved populations in Boston, Massachusetts. 
Collectively we work at Boston Medical Center and the South End 
Community Health Center. We strongly support the Healthy Families Act 
because we believe the Healthy Families Act could be one of the most 
powerful treatments we have for children.
    As pediatricians, we support the well-being of the children and 
families with whom we work. Within the fabric of the family and the 
larger community, we seek to keep kids healthy. When there is a 
medicine, therapy, or treatment that will shorten the course of an 
illness or improve the health outcomes for children, we advocate for 
its use and make these recommendations to our patients and families. As 
physicians, we see what the research literature tells us: that children 
stay sick longer when their parents cannot be home to care for them.\1\ 
This is where we see the tremendous potential of the proposed 
legislation. As pediatricians seeking the best treatment and outcomes 
for our patients, we need to ensure that paid sick-time is available 
and accessible for all children and families, especially those without 
other resources. On a daily basis in the course of our practice, we are 
confronted with the many reasons that a parent would need the benefits 
of the Healthy Families Act.
---------------------------------------------------------------------------
    \1\ Jody Heymann, The Widening Gap: Why America's Working Families 
Are In Jeopardy & What Can Be Done About It, Perseus Book Groups, p. 
115 fig. 61. New York, NY. 2000.
---------------------------------------------------------------------------
    Children aged 5 to 17 year's old miss an average of more than 3 
days of school per year for health reasons.\2\ Younger children have 
higher rates of illness than those who are school age.\3\ The American 
Academy of Pediatrics recommends preventative medical care for children 
to stay healthy. It is of utmost importance that parents be present at 
these visits to give critical information to pediatricians about their 
children. The following examples clearly illustrates the importance and 
impact that the Healthy Families Act could have on children.
---------------------------------------------------------------------------
    \2\ Vicky Lovell, No Time to be Sick: Why Everyone Suffers When 
Workers Don't Have Paid Sick Leave, Institute for Women's Public Policy 
Research, May 2004, p. 3.
    \3\ Virginia Fried, Diane Makuc, and Ronica Rooks, Ambulatory 
Health Visits by Children: Principal Diagnosis and Place of Visit, U.S. 
Department of Public Health and Human Services, DHHS Pub. No. 98-1798, 
Hyattsville, MD, 1998.
---------------------------------------------------------------------------
    ``L'' is a school-aged child of a single working mother. His 
performance in school was fine until the third grade when his 
schoolwork started to deteriorate. He was starting to show signs of 
learning disabilities and Attention Deficit Hyperactivity Disorder 
(ADHD). L came with his grandmother to his yearly physical exam and a 
number of behavior-related visits, L's mother was unable to come to 
these appointments because of her fear of losing her job if she missed 
work, and without his mother's direct input, we had great difficulty 
understanding the scope and extent of the problem. It took many follow-
up calls to schedule a time where his mother could bring him in for an 
appointment and subsequently make a treatment plan which has 
dramatically helped L's school performance. This was not because L's 
mother did not want to help her son--it was because she was forced to 
make the unthinkable choice of keeping her job or bringing her child to 
important doctor appointments.
    Another story we would like to share with you is about ``B.'' B is 
a school-aged child with asthma. Because of the nature of her illness, 
she is admitted to the hospital a few times a year. Staying in the 
hospital is a scary situation for most people, especially children. 
Parents are allowed to stay with their children while hospitalized, 
however, this is not possible if the parent needs to be at work every 
day. That was the case with B. Her mother could not take time off of 
work to stay with B, and could only visit before and after work. 
Children like B who are alone in the hospital often tell us that they 
are afraid to sleep at night so they try to stay awake as long as 
possible. This stress prolonged B's recovery and impacted her hospital 
stays. We believe such occasions--which are all too frequent--might be 
avoided if parents could be with their children throughout their 
hospitalization, without fear of economic consequences. Paid sick time 
would allow more parents to be at their child's side during both 
illness and recovery--promoting recuperation, reducing stress on the 
family, and saving money for the health care system. We know that 
hospital stays are reduced by 31 percent if a parent is present in the 
children's care.\4\ By supporting the Healthy Families Act, you support 
minimizing expensive hospital stays for children, and getting parents 
back to work more quickly.
---------------------------------------------------------------------------
    \4\ See, Jody Heymann.
---------------------------------------------------------------------------
    These brief vignettes reflect the unthinkable choices our families 
are forced to make--go to work, or tend to my child's medical needs? 
Studies show that sick children have shorter recovery periods, better 
vital signs, and fewer symptoms when their parents participate in their 
care.\5\ Regardless of socioeconomic status, parents who received paid 
leave are five times more likely to be able to care for their sick 
children.\6\ And, this comes back to our essential point: The Healthy 
Families Act helps children get better quicker and families get back to 
work.
---------------------------------------------------------------------------
    \5\ See, Jody Heymann.
    \6\ See, Jody Heymann.
---------------------------------------------------------------------------
    For these reasons we offer our strongest support for the funding 
and passage of The Healthy Families Act.\7\
---------------------------------------------------------------------------
    \7\ Boston Medical Center & South End Community Health Center; 617-
414-7430; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d9d2d0d89dded2cac3dcdfd6f3d1ded09ddcc1d4">[email&#160;protected]</a>, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b1904091205451902180e05090e190c2b0906084504190c">[email&#160;protected]</a>, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aae6cbdfd8cfc484f9c7c3dec2eac8c7c984c5d8cd">[email&#160;protected]</a>, Megan.Sandel 
@bmc.org.
---------------------------------------------------------------------------
                                        Robyn Riseberg, MD,

                                          Jack Maypole, MD,

                                     Lauren Smith, MD, MPH,

                                     Megan Sandel, MD, MPH.

The authors are all affiliated with the Medical-Legal Partnership for 
Children at Boston Medical Center.
                                 ______
                                 
                        Children's Hospital Boston,
                                          Boston, MA 02115,
                                                 February 13, 2007.
Hon. Edward M. Kennedy,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy: On behalf of Children's Hospital Boston and 
the children and families we care for, I want to thank you for 
introducing the Healthy Families Act.
    As the Medical Director of the Cerebral Palsy Program at Children's 
Hospital Boston, I work with families all the time who are trying to 
balance work responsibilities with caring for their child with complex 
health care needs. Arranging the time off for medical appointments is a 
major source of stress. It is important for employers to give families 
flexibility to meet the health care needs of their child in a timely 
manner. Children need to have their parents present for emergencies as 
well as for management of their chronic health concerns. Affording 
families paid sick days also can reduce the spread of disease in child 
care settings, schools and at work.
    This legislation eases some of the tough choices that families have 
to make to meet the competing demands of their family and professional 
lives. I appreciate your work on this important issue.
            Sincerely,
                                        Laurie Glader, M.D.
                                 ______
                                 
Statement of Jeff Levi, Ph.D., Executive Director, Trust for America's 
                             Health (TFAH)
tfah supports the healthy families act; sick and family leave measures 
   in bill would be critical for containing a possible pandemic flu 
                                outbreak
    ``People shouldn't have to choose between protecting the health of 
their families and a paycheck during a crisis. The sick and family 
leave measures proposed in the Healthy Families Act, as introduced by 
Senator Edward Kennedy (D-MA), are important for ensuring that all 
Americans, regardless of their economic status, could take time off 
when they are sick or to care for family members. But the proposed sick 
and family leave policies are also essential for containing the spread 
of infectious disease and limiting the risk of illness during public 
health emergencies.
    Currently, 59 million workers in the United States do not have paid 
sick leave. Eighty-six million workers do not have paid sick leave that 
they can use to care for immediate family members. Three out of four 
`low-wage' workers have no sick leave at all.
    One of the biggest current threats to our Nation's health is a 
possible pandemic flu outbreak. The Centers for Disease Control and 
Prevention (CDC) is proposing that individuals who might become ill 
during a pandemic should stay home from work until they are fully 
recovered (an estimated 10 days), and that household members of those 
who are sick should also stay home while the individual is sick until 
it is clear that the household member has not become ill, which is 
known as voluntary home quarantine. The CDC has also suggested that 
schools could potentially close for 12 weeks during a pandemic, leading 
parents and guardians to struggle with managing child care issues 
during that time frame.
    Compliance with public health recommendations will be critical 
during the first wave of a pandemic, when vaccines would not yet be 
widely available. The minimum 7 days of paid sick leave a year that 
employees could use to meet their own medical needs or care for sick 
family members would allow people to meet most of the minimum 
requirement for recuperation and family care during a pandemic. TFAH 
also encourages employers to plan for a possible pandemic, and create 
tiered sick leave plans to allow for more time off during a public 
health crisis, when designated by the U.S. Secretary of Health and 
Human Services.''

Trust for America's Health is a non-profit, non-partisan organization 
dedicated to saving lives by protecting the health of every community 
and working to make 
disease prevention a national priority. <http://
www.healthyamericans.org>
<http://www.pandemicfluandyou.org>

Media Contacts: Laura Segal (202) 223-9870 x 27 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec809f898b8d80ac988a8d84c2839e8b">[email&#160;protected]</a> 
<mailto:lsegal@tfah.org> or Nicole Speulda (202) 223-9870 x29 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="630d101306160f0702231705020b4d0c1104">[email&#160;protected]</a> <mailto:nspeulda@tfah.org>.
    Response to Questions of Senators Kennedy and Enzi by Debra Ness
                      questions of senator kennedy
    Question 1. Would you please comment on why you think the provision 
of paid sick days is needed, and why reliance solely on voluntary 
benefits is insufficient?
    Answer 1. Currently, no Federal law guarantees paid sick days, and 
working families must rely on voluntary workplace policies. 
Consequently, nearly half (48 percent) of private-sector workers--and 
nearly four in five low-wage workers (79 percent)--lack even a single 
paid sick day.\1\ Two in five low-income working parents (41 percent), 
with household incomes below twice the poverty level, do not have any 
paid time off at all: no paid sick time, no paid vacation and no paid 
personal days.\2\ As a result, working people are forced to choose 
between taking care of their own health or a sick child or family 
member, and losing their pay--or even losing their job. An ordinary 
illness like the flu, can have devastating economic consequences for a 
struggling family. Clearly, reliance on voluntary benefits is not 
enough.
---------------------------------------------------------------------------
    \1\ Institute for Women's Policy Research, analysis of March 2006 
National Compensation Survey.
    \2\ Katherin Ross Phillips, Getting Time Off: Access to Leave among 
Working Parents (Policy Brief B-57), Urban Institute.
---------------------------------------------------------------------------
    Our existing labor laws are outdated and don't take into account 
the increasing numbers of working mothers and dual-earning families. 
The Healthy Families Act would establish a basic labor standard for 
paid sick days, much like the minimum wage does. From a business 
perspective, a basic labor standard levels the playing field for all 
businesses. While some may argue that businesses that provide paid sick 
days voluntarily are at a competitive disadvantage, a minimum standard 
would eliminate the perception of disadvantage.

    Question 2. The Healthy Families Act covers only businesses with 15 
or more employees, which is also the threshold set in the ADA and Title 
VII. Would you please comment on why you think 15 employees is an 
appropriate threshold, and why you think that businesses of that size 
are likely to be able to readily provide paid sick leave?
    Answer 2. I believe the 15-worker threshold is appropriate as it 
tries to cover as many workers as possible, while mitigating the burden 
of compliance for businesses.
    As the smallest of businesses grow and reach the 15-worker 
threshold, they begin to seek assistance from human resource managers 
or employment lawyers. At this size, businesses must understand and 
comply with the requirements of the ADA and Title VII. They are also 
required to display State and Federal posters that inform workers about 
workplace discrimination. By adopting this 15-worker threshold, the 
Healthy Families Act ensures that its compliance standards for small 
businesses are simplified.

    Question 3. Could you please comment on whether or not the Healthy 
Families Act's notice and medical certification provisions are 
reasonable and workable?
    Answer 3. The Healthy Families Act requires employers to post a 
notice describing leave available to workers under the act as well as 
pertinent information regarding the leave in conspicuous places or in 
employee handbooks. This is a reasonable and workable provision for 
employers. Most employers subject to the provisions of the Healthy 
Families Act already must comply with other posting requirements 
including minimum wage, FMLA, ADA, discrimination and safety and health 
standards. Therefore, they have the management and human resources 
capacities in place to accommodate the Healthy Families Act's minimal 
posting requirements. Furthermore, the posting requirements under the 
act are intentionally minimal so not to place an undue burden on 
businesses, even if it may impose a challenge to workers seeking 
additional information.
    The Healthy Families Act requires that workers provide their 
employer with medical certification for leave longer than three 
consecutive work days. This provision is reasonable for employers 
because it balances the need for certification, which would alleviate 
employer concerns of abuse, against the desire to not overburden human 
resources professionals with unnecessary paperwork or accounting tasks, 
which may occur with a more-frequent certification provision.
    The medical certification provision is reasonable for workers as it 
requires certification only for leave longer than three consecutive 
work days. For low-wage workers, a more-frequent certification 
requirement would create a barrier likely preventing them from taking a 
paid sick day. Two in five low-wage working people (41 percent), with 
incomes between $20,000 and $40,000 a year, were uninsured for at least 
part of 2005, the year the study was conducted.\3\ For low-wage workers 
without health insurance, the cost of a simple doctor's visit to obtain 
certification would present a financial hardship.
---------------------------------------------------------------------------
    \3\ Sara R. Collins, Gaps in Health Insurance: An All-American 
Problem, Commonwealth Fund, 2006.

    Question 4. The Healthy Families Act sets 7 paid sick days as a 
minimum required national standard. Why do you think this is an 
appropriate minimum? How does it compare with the standards set by 
other countries?
    Answer 4. The 7 paid sick days labor standard established by the 
Healthy Families Act is really a minimum number of days. Among the 52 
percent of private-sector workers who currently have access to paid 
sick days, the leave available to them varies from 8 to 11 days in 
smaller firms, and 11 to 21 days in larger firms.\4\ The Federal 
Government guarantees their workers 13 paid sick days a year.\5\ By 
comparison, the Healthy Families Act establishes a standard of 7 days--
significantly lower than what is currently offered to half the 
workforce in the private sector and Federal Government workforce--to 
set a minimum standard for paid sick days. Much like the minimum wage, 
the Healthy Families Act is intended to set a floor for the number of 
paid sick days.
---------------------------------------------------------------------------
    \4\ Bureau of Labor Statistics, 1996-1997 data (most recent 
available).
    \5\ United States Federal Government, USA Jobs: the Official Job 
Site for the United States Federal Government Web site, http://
www.usajobs.gov/ei61.asp.
---------------------------------------------------------------------------
    The United States lags behind other countries in paid sick day 
standards. Globally, 145 countries provide paid time off for short- or 
long-term illnesses, with 127 providing a week or more annually. More 
than 79 countries provide sickness benefits for at least 26 weeks or 
until recovery. Additionally, 37 nations provide some type of paid time 
for working parents when a child is ill.\6\
---------------------------------------------------------------------------
    \6\ Jody Heymann, et al., The Work, Family, and Equity Index, How 
Does the United States Measure Up?, 2007.

    Question 5. The Healthy Families Act provides that paid sick leave 
can be used to care for ``a child, a parent, a spouse, or any other 
individual related by blood or affinity whose close association with 
the employee is the equivalent of a family relationship.'' Could you 
please comment on why it is important to provide this scope of 
coverage? How is the act's definition of family member similar to other 
laws and how other countries are defining family for purposes of short-
term leave?
    Answer 5. The scope of coverage ensures the needs of all families, 
including blended, joint and non-traditional families, are adequately 
addressed. Twenty-nine percent of children are being raised outside the 
traditional two-parent family.\7\ In addition, as Baby Boomers retire, 
more working families are caring for elderly parents and relatives. An 
estimated 34 million people provide care for older family members.\8\ 
As the definition of ``family'' continues to evolve, it's clear that 
our workplace policies too must change to fit the needs and realities 
of our families. Today's families deserve the same peace of mind and 
opportunities to care for the members of their families as traditional 
families of past generations.
---------------------------------------------------------------------------
    \7\ U.S. Census Bureau, Living Arrangements of Children: 2001, July 
2005.
    \8\ National Alliance for Caregiving/AARP, Caregiving in the U.S., 
NAC/AARP, 2004.
---------------------------------------------------------------------------
    Unlike the proposed Healthy Families Act, many older Federal 
workplace laws, such as FMLA, are not as inclusive in their scope. 
Leave under the FMLA allows workers to care for spouses, children (step 
and biological) and parents, but does not permit the care of same-sex 
partners or grandchildren.
    San Francisco's paid sick day legislation, which passed in 2006, 
provides for a broader scope of coverage. Workers may provide care to 
``other persons'' including a child, parent, legal guardian or ward, 
sibling, grandparent, grandchild, spouse, registered domestic partner 
under any State or local law, coworker or ``designated person'' of 
their choosing.
    Other countries have broader definitions of family member to 
accommodate the needs of today's families or family-like relationships. 
For example, in the United Kingdom, all ``employees'' have the right to 
``reasonable'' time off work to help family members or friends who 
depend on them for assistance in an emergency, including a parent, 
wife, husband or child, or someone who lives with the employee as part 
of their family. A dependent can also be someone who ``reasonably'' 
relies on the employee for help if they are ill, or has an accident or 
when their normal care arrangements have broken down, such as a 
neighbor or friend with a disability.\9\
---------------------------------------------------------------------------
    \9\ Trades Union Congress, Time off for Families, http://
www.tuc.org.uk/tuc/families.pdf.
---------------------------------------------------------------------------
    In Canada, workers can take ``compassionate care'' leave to care 
for a child; spouse or common-law partner; parent or their spouse; 
grandchild or their spouses; sibling; son/daughter-in-law, father/
mother-in-law; uncle/aunt or their spouse/partner; niece/nephew or 
their spouse/partner; former foster parent; or current/former foster 
child. Workers can also take ``compassionate care'' leave to care for a 
gravely ill person who considers you like a family member, such as a 
close friend or neighbor.\10\ In Australia, paid ``carer's leave'' 
allows workers time off to provide care to a member of the worker's 
immediate family or household.\11\
---------------------------------------------------------------------------
    \10\ Government of Canada, Service Canada Web site, http://
www1.servicecanada.gc.ca/en/ei/types/compassionate--care.shtml#family.
    \11\ Australian Government, Employment & Workplace Relations 
Services Web site, http://www.workplace.gov.au/workplace/Programmes/
WorkFamily/Carersleave.htm.

    Question 6. A statement was made at the hearing that some employees 
do not need paid sick days because they could use flextime when they 
become ill or need medical care. Would you please comment on whether 
flextime is a workable substitute for paid sick days?
    Answer 6. Flex-time is not a suitable substitute for paid sick 
days. Some suggest that flex-time policies would allow workers to 
switch the time of their work when they are sick or when their child is 
sick. However, in most cases, flex-time does not give workers the 
option to choose their work hours. For these workers, their hours of 
work are at the discretion of their employers, and they don't have the 
guarantee that they will have time off when they need it most, when 
they are sick or when they must care for an ill family member.
    The majority of private-sector workers who would benefit most from 
paid sick days legislation are in the food service, hotel and retail 
industries. Additionally, majorities of child care and nursing home 
workers also would benefit from the Healthy Families Act. These 
occupations are customer-service oriented and are among the least 
flexible since they have specific hours of operation and structured 
worksites. Even with flex-time provisions in place, these workers would 
have little or any control over when they choose to work.

    Question 7. Mr. King claimed that employers will have difficulties 
complying with the Healthy Families Act because of existing compliance 
requirements under the FMLA and workers' compensation laws. Do you 
agree, why or why not?
    Answer 7. Mr. King's argument that adding the Healthy Families Act 
to existing compliance requirements will increase employers' 
``practical/operational and legal burdens'' is exaggerated. First, the 
Healthy Families Act applies to businesses with 15 or more workers. As 
businesses reach the 15-worker threshold, they seek out human resource 
managers or employment lawyers to help them with compliance. Therefore, 
by adopting this threshold, the added burden on compliance is minimal.
    Second, the notification requirements for this and other compliance 
requirements are intentionally minimal, so not to burden employers. The 
Healthy Families Act's requirement to post a notice in a conspicuous 
place and in employee handbooks is a very minor charge. Mr. King also 
asserts that Healthy Families Act compliance would create additional 
administrative burdens, comparing it to the FMLA. However, the greatest 
potential administrative load created by the Healthy Families Act would 
arise only after a worker has taken leave for more than 3 consecutive 
days. At that point, the employer may require a certification issued by 
a health care professional. Requesting and reviewing certification 
would take little time and money. In fact, a survey of similar FMLA 
medical certification requirements found that it took 39 percent of 
surveyed employers less than 10 minutes per case to request and review 
certification, and an additional 21 percent less than 30 minutes.\12\
---------------------------------------------------------------------------
    \12\ WorldatWork, FMLA Perspectives and Practices survey, April 
2005, http://www.worldatwork.org/pub/E157963FML05.pdf.
---------------------------------------------------------------------------
    Finally, Mr. King's assertion that the Healthy Families Act and its 
administrative requirements would hamper employers' ability to compete 
with offshore businesses is unsubstantiated. The businesses that are 
the least likely to provide paid sick days, such as in the food 
service, hotel, retail, child care and nursing home industries, are the 
least likely to have offshore competition. Businesses in these 
industries provide direct services to customers in structured, 
established worksites, which cannot be outsourced.

    Question 8. King argued that compliance with the Healthy Families 
Act will be administratively burdensome on employers. Given that so 
many employers in the United States and around the world already 
provide paid sick days, do you see compliance with these additional 
requirements as a problem for employers? Why or why not? What, if any, 
administrative procedures would the act add to typical payroll 
procedures?
    Answer 8. The vast majority of employers in the United States 
guarantee paid time off to their workers,\13\ as do employers around 
the globe. These workplaces have administrative practices in place to 
track time off. The Healthy Families Act targets the employers that 
don't offer the most basic workplace standard to their workforce: paid 
sick days. For these employers, the Healthy Families Act ensures that 
they are minimally burdened.
---------------------------------------------------------------------------
    \13\ Society for Human Research Management, 2006 Benefits, Survey 
Report, 2006, Table G-1.
---------------------------------------------------------------------------
    The administrative recording requirements of the Healthy Families 
Act are in accordance with the Fair Labor Standards Act. To minimize 
any potential undue burden on employers, the Healthy Families Act 
states that paid sick time provided may be accrued as determined by the 
employer as long as it is less than a quarterly basis. The act also 
allows for leave to be counted on an hourly basis--or in the smallest 
increment that the employer's payroll system uses to account for 
absences. Both of these provisions of the act would place a minimal 
administrative or procedural load on the business.

    Question 9. King asserted that employers will likely reduce 
benefits in response to the act's paid sick days requirement. Would you 
please comment on why that may or may not be the case?
    Answer 9. The argument that establishing a basic labor standard of 
paid sick days would result in an offsetting reduction of fringe 
benefits, including the receipt of health insurance, a partially-paid 
insurance premium, pension coverage or access to job training, is not 
new. It has been used most commonly against increases in the minimum 
wage, another basic labor standard. However, research has found no 
strong evidence that an increase in the minimum wage causes a reduction 
of fringe benefits or decline in working conditions.\14\
---------------------------------------------------------------------------
    \14\ Kosali Ilayperuma Simon and Robert Kaestner, ``Do Minimum 
Wages Affect Non-Wage Job Attributes? Evidence on Fringe Benefits,'' 
Industrial & Labor Relations Review 58, (Issue 1 2004), Article 3.
---------------------------------------------------------------------------
    The Healthy Families Act is a basic labor standard that would 
guarantee to more working people paid time off and job protection when 
they are sick or need to care for an ill family member. For the 
businesses that already provide paid sick days for their workers, a 
basic labor standard such as this would level the competitive playing 
field by requiring all businesses to guarantee paid sick days. When 
workers are guaranteed a minimum number of paid sick days, employers 
benefit as healthier workers are more productive and the spread of 
illness in the workplace is reduced.
    Without paid sick days, ill workers have no alternative but to go 
to work sick and risk spreading illness to coworkers and customers, 
lowering the overall productivity of the workplace. More than half (56 
percent) of human resources executives report that ``presenteeism''--
the practice of coming to work even when sick--is a problem in their 
companies. Studies have shown that ``presenteeism'' costs our national 
economy $180 billion, or an average of $255 per worker per year, in 
lost productivity annually. This productivity loss exceeds the cost of 
absenteeism and medical and disability benefits.\15\
---------------------------------------------------------------------------
    \15\ Ron Goetzal, et al., ``Health Absence, Disability, and 
Presenteeism Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers,'' Journal of Occupational and 
Environmental Medicine (April 2004).
---------------------------------------------------------------------------
    Businesses that don't offer their workers paid sick days may also 
be making themselves more vulnerable to illness-related costs, bad 
publicity and lawsuits. The recent surge in ``stomach-flu'' food-borne 
outbreaks in restaurants and on cruise ships is alarming the restaurant 
industry in particular. According to Restaurant News, the industry's 
own publication, the frequent outbreaks are a ``near-indictment of 
prevailing sick-leave practices.'' \16\ Nearly half of ``stomach flu''-
related outbreaks (largely caused by the norovirus) are linked to ill 
food-service workers,\17\ who are the least likely to have paid sick 
days.
---------------------------------------------------------------------------
    \16\ Peter Romeo, ``NRA Virus Confab Frames Contagious Workers as 
Leading Food Safety Threat,'' Restaurant News (7/27/07).
    \17\ Centers for Disease Control and Prevention, Norovirus Outbreak 
Associated with Ill Food-Service Workers, 1/2006.
---------------------------------------------------------------------------
    A single food-borne outbreak could cost a restaurant up to $75,000 
in direct costs, including clean up, re-staffing, restocking, 
settlements and regulatory sanctions. For a chain restaurant with 
several locations within a metropolitan area, the negative publicity 
resulting from a single food-borne outbreak can be devastating to the 
entire chain. The indirect loss of business resulting from a single 
food-borne outbreak at one establishment can total up to $7 million for 
all the restaurants in the chain within the metropolitan area.\18\
---------------------------------------------------------------------------
    \18\ Norman G. Marriott, Principles of Food Sanitation (An Aspen 
Publication: 1999).
---------------------------------------------------------------------------
                       questions of senator enzi
    Question 1. In your written testimony, you state that paid sick 
leave will reduce ``presenteeism'' and therefore be good for 
businesses. The study you cited found that the most productivity-
reducing conditions were depression and other mental illnesses, 
hypertension, heart disease, and arthritis. Considering that the 
mandate will reduce employer income margins by about $1,000 per 
employee, I think anyone can see that employers will have to look for a 
way to pay for this, and that way may be reducing healthcare benefits. 
For example, one could increase co-pays, reduce or eliminate 
prescription drug coverage, or worse. Can you see that employees with a 
mental illness, hypertension, heart disease, or arthritis--all of which 
are often treated with prescription drugs and none of which typically 
require time off--could be negatively impacted by this mandate?
    Answer 1. Studies have shown that both employers and workers would 
benefit significantly from the savings associated with the Healthy 
Families Act.
    I am not aware of the origin of the estimated $1,000 cost per 
employee cited in the above question. According to a cost-benefit 
analysis of the Healthy Families Act, costs associated with the bill 
were much less, at just $3.04 per worker per week, calculated for all 
wage and salary workers. The low cost of the Healthy Families Act is 
far outweighed by the benefits associated with the bill. The total 
savings associated with the bill, calculated for all wage and salary 
workers, is $4.26 per week--clearly higher than its cost. The costs and 
benefits are higher if calculated for only workers covered by the HFA: 
the per-worker per week cost of $5.98 is significantly less than the 
savings of $8.38 per worker per week.
    In addition, providing paid sick days to workers could result in 
health care cost savings for employers. Health care costs will decline 
because workers will be able to use the paid sick days to take care of 
their own health and the health of family members without being 
penalized by a cut in pay or disciplined. Workers would be more likely 
to access preventative care for themselves and family members, 
including regular physicals, vaccinations and screenings for diseases 
such as cancer, diabetes and heart disease. This could lead to reduced 
health care costs in the long run, and even a reduction in employer-
paid insurance premiums.

    Question 2. What was the methodology used in the ``presenteeism'' 
study? Who conducted it? Has the study, its methodology or its findings 
been subjected to any kind of academic peer review or professional 
validation? If so, who has conducted this review or validation and 
where are the findings reported? How was the $180 billion savings 
estimate calculated?
    Answer 2. The study, ``Health, Absence, Disability, and 
Presenteeism: Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers,'' was conducted by a group of 
researchers affiliated with the Cornell University Institute for Health 
and Productivity Studies, led by researcher Ron Goetzel, Ph.D. It was 
published in the Journal of the American College of Occupational and 
Environmental Medicine in April of 2004, a highly-regarded scientific 
publication that contains clinically-oriented research articles to 
guide physicians, nurses, and researchers. The journal maintains a 
rigorous peer review procedure. Each article is reviewed, using a 
double-blind procedure, by a group of academics in the field.
    Goetzel et al. calculated the direct and indirect costs of 
productivity loss associated with 10 common health conditions, using 
administrative data sources (insurance claims regarding medical care, 
employee absenteeism, and short-term disability payments) as well as 
employee self-reported data on presenteeism. Researchers found that 
presenteeism losses accounted for 61 percent of the total cost of the 
10 selected health conditions--higher than medical costs in most cases.
    The American Productivity Audit (APA) calculated that presenteeism 
costs $180 billion in lost productivity each year. The APA is a survey 
of nearly 30,000 workers that aims to put a numeric value on the 
effects of health conditions on work. The survey measures lost 
productive time, in both hours of work and dollars, related to health.

    Question 3. What is the direct labor cost to the private sector of 
the paid leave mandate contained in the Healthy Families Act? How was 
that cost calculated? What individual(s) or organization(s) calculated 
these direct private sector costs, what was the methodology utilized, 
and has the study, calculation and/or estimate been fully peer-
reviewed?
    Answer 3. Dr. Vicky Lovell of the Institute for Women's Policy 
Research \1\ estimated the total costs and benefits of taking leave 
under the Healthy Families Act using several data sources and 
analytical methods. Lovell estimated that the HFA's annual cost would 
be $20,235,900 for wages paid to workers taking HFA-provided paid sick 
days, payroll taxes, and administrative expenses. This number breaks 
down to $5.98 per HFA-covered worker per week. These costs, however, 
are far outweighed by the benefits of implementing the Healthy Families 
Act. According to Lovell's analysis, the total savings associated with 
the HFA would be $8.38 per HFA-covered worker per week. The sources of 
the costs and savings identified by Lovell's analysis are outlined 
below.
---------------------------------------------------------------------------
    \1\ Dr. Lovell and the Institute for Women's Policy Research are 
both well-respected for their quantitative techniques and original 
research, as well as their efforts towards research dissemination and 
citizen education.

    <bullet> Costs of the Healthy Families Act
    Lovell's analysis measured the costs associated with the HFA. 
Lovell calculated how many workers would be affected were the HFA to be 
enacted. Lovell used the numbers of workers who meet the HFA 
eligibility criteria, the number of workers who currently have no paid 
sick days or are not allowed to use their leave for ill children or to 
attend doctor visits, and the number of workers who currently have 
fewer paid sick days than provided by the HFA and would have access to 
additional paid sick days under the HFA.
    Lovell used data from a variety of sources, including the National 
Health Interview Survey, to calculate how many paid sick days workers 
would take if the law were enacted, for their own medical needs, for 
family care, for doctor visits, and for maternity leave and 
corresponding time for new mothers' partners.
    Next, Lovell utilized data on how much workers earn, the cost of 
legally mandated payroll taxes, the cost of administrative expenses, 
and the cost of replacing workers on HFA leave, should employers elect 
to hire a temporary worker during the leave. Again, the cost of the 
HFA, paid by employers, is estimated at $5.98 per HFA-covered worker 
per week.
    <bullet> Savings from the Healthy Families Act
    The savings associated with allowing workers to take paid sick days 
to care for their own illness or family members' illness are difficult 
to quantify. For the purposes of the analysis, Lovell estimated only 
the quantifiable aspects of the bill, including its health-related 
benefits, and then suggested other benefits that should be included in 
the analysis when the necessary data becomes available. Therefore, the 
analysis did not include all the possible benefits that may be 
associated with the bill.
    <bullet> Savings from Reduced Presenteeism
    The first cost savings Lovell identified was the savings associated 
with wages that businesses currently pay to sick workers on the job but 
with diminished productivity (``presenteeism'' costs). Lovell 
calculated the number of HFA-eligible workers who do not have paid sick 
days, as well as the cost of wages to sick workers with low 
productivity, the costs of the hourly wages of these workers, and the 
associated payroll taxes. Lovell found that the HFA would save 
$41,571,500 annually in wages that would have been paid to sick workers 
on the job who are less productive due to illness.
    <bullet> Savings from Reduced Turnover
    Second, Lovell calculated the cost savings associated with reduced 
turnover. Lovell cited research that concluded having paid sick days 
reduced workers' voluntary turnover by 5.58 percentage points for 
married men, by 3.61 percentage points for married women, 5.75 
percentage points for single women, and 6.43 percentage points for 
single men. If all employers offered paid sick days, voluntary turnover 
would reduce as workers considering a job change would have the same 
option of paid sick days at their current job as at a potential job--
with the exception of firms with fewer than 15 workers.
    Access to paid sick days also affects involuntary turnover by 
decreasing job termination related to unauthorized absences from work 
by sick workers or workers caring for sick family members. There are no 
data for estimating the savings associated with involuntary turnover, 
however, and Lovell's estimates did not include these savings.
    Turnover-related costs, which include expenses such as the cost of 
recruiting a new worker, low productivity of new workers, training, and 
human resources processing time for exit and entry, can be expensive 
for businesses, up to 25 percent of a worker's total compensation.
    Lovell's formula for calculating the costs associated with the HFA 
included the number of HFA-eligible workers who currently do not have 
paid sick days, the reduction in turnover associated with providing 
paid sick days, the cost of turnover, workers' hourly wages, and wages 
as a percent of total compensation (necessary for calculating the cost 
of turnover). Using this formula, Lovell estimated that the savings 
associated with reductions in turnover total $25,840,000 annually.
    <bullet> Savings from Reduced Spread of Flu
    Third, Lovell calculated the cost savings associated with the 
reduced spread of the flu within workplaces, due to reductions in 
absences and lowered productivity. Lovell used flu-related data to 
calculate savings, because the flu is highly contagious and accounts 
for a large proportion of illness-related worker absences. Lovell's 
analysis, which included both employers' wage costs and workers' 
medical costs, found that the savings due to reductions in the spread 
of the flu in workplaces would total $738.5 million annually if the HFA 
were enacted.
    <bullet> Savings from Reduced Short-Term Nursing Home Stays
    Fourth, Lovell added the cost savings associated with reduced 
short-term nursing home stays if workers were given the flexibility 
under the HFA to provide informal care for disabled, elderly, and 
medically-fragile relatives. Lovell found that the savings from 
reductions in short-term nursing home stays would total $225 million 
annually.
    <bullet> Conclusion: The HFA Yields Savings for Stakeholders, 
Particularly Employers
    Lovell outlined the distributed costs and savings to stakeholders 
under the Healthy Families Act. While the costs of the bill would be 
paid for by employers, employers reap the large majority of the 
estimated net savings, $2.40 per HFA-covered worker per week, which 
accrues to employers, workers, families, and taxpayers.

    Question 4. What is the indirect cost to the private sector of the 
paid leave mandate contained in the Healthy Families Act? How was that 
cost calculated? What individual(s) or organization(s) calculated these 
indirect private sector costs, what was the methodology utilized, and 
has the study, calculation and/or estimate been fully peer-reviewed?
    Answer 4. See answer for Question 3 for a complete answer to this 
query.

    Question 5. Do you believe that the bill's 15 employee coverage 
threshold is appropriate? Why shouldn't the threshold be 50 employees? 
Why shouldn't the threshold be 2 employees?
    Answer 5. We believe the 15-worker threshold is appropriate as it 
tries to cover as many workers as possible, while mitigating the burden 
of compliance for businesses.
    As the smallest of businesses grow and reach the 15-worker 
threshold, they begin to seek assistance from human resource managers 
or employment lawyers. At this size, businesses must understand and 
comply with the requirements of the ADA and Title VII. They are also 
required to display State and Federal posters that inform workers about 
workplace discrimination. By adopting this 15-worker threshold as well, 
the Healthy Families Act ensures that its compliance standards for 
small businesses are simplified.

    Question 6. Do you believe that the bill's entitlement of 7 paid 
sick days is appropriate? Why shouldn't the entitlement be 3 paid sick 
days? Why shouldn't the entitlement be 14 paid sick days?
    Answer 6. We believe a guarantee of 7 days per year is a reasonable 
minimum number of paid sick days employers should provide to workers. 
The intent of the Healthy Families Act is to establish a basic labor 
standard, much like the minimum wage. From this point, employers can 
offer additional days as appropriate for their workforce.
    Among the 52 percent of private-sector workers who currently have 
access to paid sick days, the time available to them varies from 8 to 
11 days in smaller firms, and 11 to 21 days in larger firms.\2\ The 
Federal Government guarantees their workers 13 paid sick days a 
year.\3\ By comparison to a large portion of the private sector and our 
government, the Healthy Families Act's minimum standard of 7 days is 
significantly lower.
---------------------------------------------------------------------------
    \2\ Bureau of Labor Statistics, 1996-1997 data (most recent 
available).
    \3\ United States Federal Government, USA Jobs: the Official Job 
Site for the United States Federal Government Web site, http://
www.usajobs.gov/ei61.asp.
---------------------------------------------------------------------------
    On average, workers currently miss about four and a half days of 
work per year to recover from illness or address health needs.\4\ With 
all adults working in 70 percent of today's families,\5\ and a stay-at-
home parent no longer the norm, working people need additional days to 
care for ill family members. The 7-day standard accommodates the very 
basic health needs of working people and their families. School-age 
children miss at least 3 school days per year due to health reasons.\6\
---------------------------------------------------------------------------
    \4\ Vicky Lovell, Valuing Good Health: An Estimate of Costs and 
Savings for the Healthy Families Act, 2005, www.iwpr.org/pdf/B248.pdf.
    \5\ Williams, Joan. One Sick Child Away from Being Fired. 
University of California, Hastings College of Law. Undated. Boushey, 
2008. Analysis of U.S. Census Bureau, Current Population Survey, Annual 
Social and Economic Supplements, Tables F14, F13, F10, and FINC03.
    \6\ Vicky Lovell, No Time to be Sick, Institute for Women's Policy 
Research, May 2004.
---------------------------------------------------------------------------
    While the 7-day standard is intended to set a minimum standard for 
paid sick time, the reality is that the overwhelming majority of 
workers will not take the maximum number of the days they are 
guaranteed. An analysis of the 2003 National Health Interview Survey 
(NHIS) showed that when constrained to 7 days of work loss, workers 
offered paid sick days miss only 1.8 days annually on average due to 
illness and injury, excluding maternity leave. Workers who are not 
provided with paid sick days miss an average of 1.3 days annually, and 
the average for all workers is 1.6 days.\7\
---------------------------------------------------------------------------
    \7\ Lovell, 2005, ``Valuing Good Health.''

    Question 7. As I am sure you are aware, under the Fair Labor 
Standards Act, Federal workers can enter into voluntary arrangements 
with their employers to establish flex-time schedules, i.e. 80 hour bi-
weekly schedules, as a means to better balance work, personal and 
family life. Would you be in favor of extending this to workers in the 
private sector? What is [are] the reason[s] for your view?
    Answer 7. Flex-time is not a suitable substitute for paid sick 
days. Some suggest that flex-time policies would allow workers to 
switch the time of their work when they are sick or when their child is 
sick. However, in most cases, flex-time does not give workers the 
option to choose their work hours. For these workers, their hours of 
work are at the discretion of their employers, and they don't have the 
guarantee that they will have time off when they need it most, when 
they are sick or when they must care for an ill family member.
    The majority of private-sector workers who would benefit most from 
paid sick days legislation are in the food service, hotel and retail 
industries. Additionally, majorities of child care and nursing home 
workers also would benefit from the Healthy Families Act. These 
occupations are customer-service oriented and are among the least 
flexible since they have specific hours of operation and structured 
worksites. Even with flex-time provisions in place, these workers would 
have little or any control over when they choose to work.
    Flex-time schedules that establish an 80-hour 2-week work period 
would hurt millions of working families by giving them less control 
over their daily schedules and serve as a pay cut. The Fair Labor 
Standards Act established a 40-hour work week to enable working people 
to spend more time away from work and with their families, and 
discourage employers from requiring excessive overtime by making 
overtime more expensive. Undermining the 40-hour work week would result 
in employers requiring more people to work more overtime. For example, 
under an 80-hour 2-week work period, workers who work 50 hours in 1 
week would not receive any overtime pay. Workers who rely on time-and-
a-half overtime pay under a 40-hour work week may need to get a second 
job to make ends meet, which would put additional stress on working 
families that are already stretched thin. For employers, maintaining a 
40-hour work week that provides for overtime pay beyond 40 hours 
ensures that they recruit and retain talented, dedicated workers.

    Question 8. Please provide the committee with a copy of the study 
which you cite in footnote 23 of your testimony.
    Answer 8. Please see attached for the full text of the report.

    [Editor's Note: Due to the high cost of printing, previously 
published materials will not be reprinted. The above report can be 
found in committee files or by contacting the American College of 
Occupational and Environmental Medicine.]
      Response to Questions of Senators Kennedy, Enzi, and Coburn 
                      by Jody Heymann, M.D., Ph.D.
                      questions of senator kennedy
    Question 1. Would you please comment on why you think the provision 
of paid sick days is needed, and why reliance solely on voluntary 
benefits is insufficient?
    Answer 1. The Healthy Families Act is crucial because of the 
transformation that has occurred in the workplace and in American 
families. Today, the clear majority of working Americans are caring for 
children, or disabled or elderly family members. According to the 
Bureau of Labor Statistics, 70 percent of mothers with children under 
18 are in the workforce. At the same time, between 25 percent and 35 
percent of working Americans are currently providing care for someone 
over 65. According to the Census Bureau, 2 in every 7 families report 
having at least one member with disabilities. The ability of Americans 
to provide essential health care for their families while working 
depends enormously on the availability of paid sick days.
    Yet, in the absence of a Federal mandate on paid sick days, the 
private sector has not filled the gap. Nearly half of private sector 
workers have no paid sick days at all. An even larger percentage lack 
the ability to take days off to care for sick family members. While 
many families cannot reliably count on paid sick days, working poor 
families are at the highest risk. As The Widening Gap, a book reporting 
a series of national studies on American working families, notes, 76 
percent of low-income working parents do not consistently have paid 
sick days. Moreover, despite greater caregiving demands, working women 
are less likely than men to have paid sick days.\1\ While voluntary 
adoption of paid sick day policies has covered some Americans, the only 
way to address these gaps for all Americans is through Federal 
legislation.

    Question 2. Is additional research needed to determine who lacks 
paid sick days in America, whether paid sick days would make a 
difference, and whether the United States can remain competitive while 
requiring paid sick days? Do you think there has been adequate research 
to demonstrate the need for paid sick days?
    Answer 2. The research evidence on sick days is by now thoroughly 
comprehensive. The benefits of paid sick days for individual and family 
health are clear. From as far back as 1965, studies of hospitalized 
children have shown that sick children have shorter recovery periods, 
better vital signs, and fewer symptoms when their parents are available 
to provide care.\2\ \3\ \4\ Numerous studies from 1972 onward have 
indicated that sending children to day care sick with contagious 
diseases increases the rate of observed infections in day care 
centers,\5\ \6\ \7\ \8\ including respiratory and gastrointestinal 
infections.\9\ \10\ \11\ Research on both families and child care 
providers makes clear that when parents lack paid sick days they are 
far more likely to send sick children to both child care and 
school.\12\ \13\ I led the research team that carried out the first 
primary data collection to look at the impact of paid sick days on the 
ability of parents to care for children when they are sick. This peer-
reviewed research by Heymann, Toomey and Furstenberg found that parents 
with paid sick days are five times as likely to be able to care for 
sick children at home and are also more likely to provide preventive 
health care.\14\
    Since 1993, a wealth of research has also shown that when sick 
adults receive support from family members, they have substantially 
better health outcomes from conditions such as heart attacks \15\ \16\ 
and strokes.\17\ In addition, elderly individuals live longer when they 
have higher levels of social support from friends and family 
members.\18\ \19\ Studies have also demonstrated that taking time off 
from work to rest and recuperate when sick encourages a faster recovery 
\20\ and may prevent minor health conditions from progressing into more 
serious illnesses that require longer absences from work and more 
costly medical treatment.\21\ \22\ \23\
    In 1996, a Pediatrics article by Heymann, Earle, and Egleston 
detailed the first study to examine how many paid sick days families 
might need, using the National Medical Expenditure Survey to look at 
illness in a national sample and the NLSY to make estimates of paid 
sick leave availability across America.\24\ The study found that one in 
more than a third of families, family members were sick enough to stay 
home from school or work for 2 weeks or more each year. However, the 
study also found that millions of Americans lacked paid sick days. The 
wide gaps between what Americans need in sick days and what employers 
provide have thus been clear for over a decade. The impact of meeting 
sick needs on success at work is also clear. Other researchers have 
found that without paid sick days, working families who take time off 
to provide care for family members are prone to both wage and job 
loss.\25\ \26\ \27\ In 2000, results from the first nationally 
representative daily diaries survey to gauge how often working 
Americans disrupt work for family members, published in The Widening 
Gap, revealed that the leading reason for disruptions is health.\28\ A 
peer-reviewed study by Earle and Heymann, published in 2002, used over 
a decade of longitudinal data to look at job loss and found that, after 
controlling for a wide range of human capital factors and social 
conditions, ill health and the poor health of children are leading 
determinants of job loss.\29\ Moreover, an article by Earle, Ayanian, 
and Heymann, published in the Journal of Women's Health in 2006, 
demonstrated the importance of paid sick days in improving the return 
to work among adults with major health problems, finding that nurses 
are more than twice as likely to return to work after a heart attack or 
angina if they have paid days.\30\
    Policy options have also thoroughly been explored. Since 2004, 
Institute for Women's Policy Research (IWPR) has been publishing pieces 
on the availability of paid sick days in the United States and the 
affordability of remedying the gap. Their studies in Massachusetts and 
California have likewise shown the importance of paid sick days and 
their ready feasibility. Since 2004, the National Partnership for Women 
and Families has documented state by state the general shortage of 
provisions available for private sector employees to take paid time off 
from work in order to care for their own health, as well as for the 
health of their families. In 2004, The Project on Global Working 
Families conducted the first studies to look at the global availability 
of paid sick days and leave \31\ and, in 2006, how provision of paid 
sick days is related to the ability of countries to compete 
economically.\32\ This second study published in the Journal of 
Comparative Policy Analysis found that the more economically 
competitive countries are more likely to provide paid sick days and 
leave.
    This is only a fraction of the research that has been conducted on 
sick days. As a researcher, it would be easy to call for more research, 
but the reality is we know enough for Congress to act.

    Question 3. The Healthy Families Act covers only businesses with 15 
or more employees, which is also the threshold set in the ADA and Title 
VII. Would you please comment on why you think 15 employees is an 
appropriate threshold, and why you think that businesses of that size 
are likely to be able to readily provide paid sick leave?
    Answer 3. Providing sick days to employees is feasible for 
businesses of all sizes. While absences due to illnesses can be 
challenging, businesses already deal with these absences. In companies 
that provide paid sick days, employees are not even absent a day more a 
year on average than in companies which do not provide sick days.\33\ 
The real difference is that it's paid and your job is protected. 
Moreover, we know from practical experience that the smallest companies 
in the United States are able to provide paid sick days and remain 
economically competitive. In businesses with only one to nine 
employees, 42 percent of employees are currently eligible for paid sick 
days. Lastly, countries around the world have ensured paid sick days 
for firms of all sizes. Thus, limiting this benefit to businesses with 
more than 15 employees is a conservative approach.

    Question 4. Could you please comment on whether or not the Healthy 
Families Act's notice and medical certification provisions are 
reasonable and workable?
    Answer 4. Clearly, there are some health care needs that working 
Americans have flexibility in scheduling. Examples of these include 
routine checkups and annual preventive medical tests. While employees 
will face some constraints due to the health care system in scheduling 
these, it makes sense that they should make a reasonable effort to 
schedule these at a time that is not unduly disruptive to work. Other 
health care needs, such as caring for a sick child, addressing one's 
own serious acute illness, or caring for a dying parent, clearly cannot 
be scheduled. The Healthy Families Act has been drafted to require 
employees to make the important effort to meet schedulable health care 
needs while trying to minimize any unnecessary impact on work.

    Question 5. The Healthy Families Act sets 7 paid sick days as a 
minimum required national standard. Why do you think this is an 
appropriate minimum? How does it compare with the standards set by 
other countries?
    Answer 5. A national standard of 7 guaranteed paid sick days is a 
minimum compared to international norms. At least 136 countries provide 
a week or more of paid sick days annually.\34\ All of the most 
economically competitive countries, with the exception of the United 
States, guarantee paid sick days, and 18 of the top 20 provide 31 or 
more sick days with pay.

    Question 6. The Healthy Families Act provides that paid sick leave 
can be used to care for ``a child, a parent, a spouse, or any other 
individual related by blood or affinity whose close association with 
the employee is the equivalent of a family relationship.'' Could you 
please comment on why it is important to provide this scope of 
coverage? How is the act's definition of family member similar to other 
laws and how other countries are defining family for purposes of short-
term leave?
    Answer 6. The definition of family used in the Healthy Families Act 
comes from the regulations covering Federal employees issued after 
passage of the Federal Employees Family Friendly Leave Act of 1997. 
(See 5 CFR   630.201.) Just like Federal employees, Americans have a 
wide range of close family relationships, and it is crucial for 
legislation to honor American families in all the ways they care for 
each other.
    The Widening Gap reports evidence from a study that asked working 
Americans in every State across the country when they had to disrupt 
work to care for a family member. While care for children accounted for 
42 percent of work disruptions that were related to family, 15 percent 
were to care for parents, 12 percent to care for spouses or partners, 7 
percent for grandchildren, and 24 percent for other family members. 
This should not come as a surprise to us. When a grandparent is caring 
for a grandchild whose parents are serving in the military, they need 
to be able to take time from work to care for that grandchild. When an 
American is caring for an aging aunt who has no children and becomes 
gravely ill, the niece or nephew may be the only person available to 
provide care. These are only two of a number of crucial circumstances 
that need to be covered. It will be important to have specific 
guidelines on the interpretation of this clause, but this is best done 
in regulation, not in law, to ensure that it covers American families 
well as their circumstances change.
    Recognition of the breadth of family commitments is shared by many 
other countries. Just to cite a few examples of countries that ensure 
leave to care for sick family members: Austria's coverage includes all 
persons in need of care living in the same household; New Zealand 
similarly includes people who depend on the employee for care. Nor is a 
full understanding of family limited to high-income countries. El 
Salvador, for example, covers spouses, ascendants, descendants, and 
others who depend economically on the worker.

    Question 7. A statement was made at the hearing that some employees 
do not need paid sick days because they could use flextime when they 
become ill or need medical care. Would you please comment on whether 
flextime is a workable substitute for paid sick days?
    Answer 7. Flextime is not a workable substitute for paid sick days. 
Currently, most flextime programs require substantial advance 
notification which makes it unworkable for covering unexpected 
illnesses. Even when flextime is available with little notice--a far 
less common circumstance--it is not an adequate substitute for paid 
sick days. For example, employees who have been sick for a week cannot 
readily make up 40 hours of work at a different time while 
simultaneously caring for their health and their family.

    Question 8. Mr. G. Roger King, who testified at the hearing, 
claimed that employers will have difficulties complying with the 
Healthy Families Act because of existing compliance requirements under 
the FMLA and workers' compensation laws. Do you agree, why or why not?
    Answer 8. Employers should not have difficulty complying with the 
Healthy Families Act while complying with the FMLA and the workers' 
compensation laws. In fact, half of the private sector already provides 
paid sick days, as noted above. These companies are successfully 
ensuring their employees can care for their health, and are able to do 
this without conflict with the FMLA or workers' compensation laws. Paid 
sick days may be used to cover both common health problems--these are 
not covered by the FMLA, and so there is no overlap at all--and serious 
illness. In the case of serious illness, nothing in the FMLA prohibits 
paying employees, so ensuring they are paid under the Healthy Families 
Act for 7 days will not create any compliance difficulties.

    Question 9. Mr. King argued that compliance with the Healthy 
Families Act will be administratively burdensome on employers. Given 
that so many employers in the United States and around the world 
already provide paid sick days, do you see compliance with these 
additional requirements as a problem for employers? Why or why not? 
What, if any, administrative procedures would the act add to typical 
payroll procedures?
    Answer 9. An employer that does not currently provide sick days 
will need to develop a system for granting requests for sick days and 
keeping track of the number of sick days taken and remaining for the 
year. Those procedures, however, can easily be integrated into existing 
payroll procedures, as has already been done by employers for half of 
all private sector employees.

    Question 10. Mr. King asserted that employers will likely reduce 
benefits in response to the act's paid sick days requirement. Would you 
please comment on why that may or may not be the case?
    Answer 10. As currently written, the act clearly prohibits 
employers from reducing benefits in response to the act's passage. Any 
employers that reduce benefits in response to the act if it passes 
would violate the law.
                                endnotes
    \1\ Heymann J. (2000). The Widening Gap: Why America's Working 
Families are in Jeopardy and What Can Be Done about It. New York: Basic 
Books.
    \2\ Van der Schyff G. (1979). The role of parents during their 
child's hospitalization. Aust Nurs J. 8:57-61.
    \3\ Mahaffy P. (1965). The effects of hospitalization on children 
admitted for tonsillectomy and adenoidectomy. Nurs Res. 14:12-19.
    \4\ Palmer S.J. (1993) Care of sick children by parents: A 
meaningful role. J Adv Nurs. 18:185.
    \5\ Loda F.A., W.P. Glezen, & W.A. Clyde. (1972). Respiratory 
disease in group day care. Pediatrics 49:428-0437.
    \6\ Sullivan P., W.E. Woodward, L.K. Pickering, & H.L. Dupont. 
(1984). Longitudinal study of occurrence of diarrheal disease in day 
care centres. Am J Public Health 74:987.
    \7\ Dahl I.L, M. Grufman, C. Hellberg, & M. Krabbe. (1991). 
Absenteeism because of illness at daycare centers and in three-family 
systems. Acta Paediatr Scand. 80:436.
    \8\ Mottonen M. & M. Uhari. (1992). Absences for sickness among 
children in day care. Acta Paediatr. 81:929.
    \9\ Loda F.A., W.P. Glezen, & W.A. Clyde. (1972). Respiratory 
disease in group day care. Pediatrics 49:428-437.
    \10\Strangert K. (1976). Respiratory illness in preschool children 
with different forms of day care. Pediatrics 57:191.
    \11\ Doyle A.B. (1976). Incidence of illness in early group and 
family day care. Pediatrics 58:607.
    \12\ Heymann S.J. (2000) The Widening Gap: Why American Families 
are in Jeopardy and What Can Be Done About It. Basic Books: New York.
    \13\ Heymann S.J., Vo PH, and Bergstrom CA. (2002). Child care 
providers' experiences caring for sick children: Implications for 
public policy. Early Child Development and Care 172(1): 1-8.
    \14\ Heymann S.J., S. Toomey, & F. Furstenberg. (1999). Working 
parents: What factors are involved in their ability to take time off 
from work when their children are sick? Archives of Pediatrics & 
Adolescent Medicine 153:870-874.
    \15\ Bennet S.J. (1993). Relationships among selected antecedent 
variables and coping effectiveness in postmyocardial infarction 
patients. Research in Nursing and Health 16:131-139.
    \16\ Gorkin L. E.B. Schron, M.M. Brooks, I. Wiklund, J. Kellen, J. 
Verter, J.A. Schoenberger, Y. Pawitan, M. Morris, & S. Shumaker. 
(1993). Psychosocial predictors of mortality in the Cardiac Arrhythmia 
Suppression Trial-1 (CAST-1). American Journal of Cardiology 71:263-
267.
    \17\ Tsouna-Hadjis E., K.N. Vemmos, N. Zakopoulos, & S. 
Stamatelopoulos. (2000). First-stroke recovery process: The role of 
family support. Archives of Physical Medicine and Rehabilitation 
81:881-887.
    \18\ Seeman T.E. (2000). Health promoting effects of friends and 
family on health outcomes in older adults. American Journal of Health 
Promotion 14:362-370.
    \19\ Berkman L.F. (1995). The role of social relations in health 
promotion. Psychosomatic Medicine 57:245-254.
    \20\ Gilleski D.B. (1998). A dynamic stochastic model of medical 
care use and work absence. Econometrica 66:1-45.
    \21\ Aronsson G., K. Gustafsson, & M. Dallner. (2000). Sick but yet 
at work: An empirical study of sickness and presenteeism. Journal of 
Epidemiology and Community Health 54:502-509.
    \22\ Grinyer A. and V. Singleton. (2000). Sickness absence as risk-
taking behaviour: A study of organizational and cultural factors in the 
public sector. Health, Risk, and Society 2:7-21.
    \23\ Johannsson G. (2002). Work-life balance: The case of Sweden in 
the 1990s. Social Science Information 41:303-317.
    \24\ Heymann S.J., Earle A., and Egleston B. (1996). Parental 
availability for the care of sick children. Pediatrics 98(2 part 
1):226-230.
    \25\ Murphy B., H. Schofield, J. Nankervis, S. Bloch, H. Herman, & 
B. Singh. (1997). Women with multiple roles: The emotional impact of 
caring for ageing parts. Ageing and Society 17:277-291.
    \26\ Joshi H., P. Paci, & J. Waldfogel. (1999). The wages of 
motherhood: Better or worse? Cambridge Journal of Economics 23:543-564.
    \27\ National Alliance for Caregiving and American Association of 
Retired People. (2004). Caregiving in the U.S. Available at http://
www.caregiving.org/data/04finalreport.pd.
    \28\ Heymann J. (2000). The Widening Gap: Why America's Working 
Families are in Jeopardy and What Can Be Done about It. New York: Basic 
Books.
    \29\ Earle A. & S.J. Heymann. (2002). What causes job loss among 
former welfare recipients? The role of family health problems. Journal 
of the American Medical Women's Association 57:5-10.
    \30\ Earle A., J.Z. Ayanian, & S.J. Heymann. (2006). What predicts 
women's ability to return to work after newly diagnosed coronary heart 
disease: Findings on the importance of paid leave. Journal of Women's 
Health 15(4): 430-441.
    \31\ Heymann, S.J., Earle A., Simmons S., Breslow S.M., and 
Kuehnhoff A. (2004). Work, Family, and Equity Index: Where Does the 
United States Stand Globally? Boston: Project on Global Working 
Families.
    \32\ Earle A. & J. Heymann. (2006). A comparative analysis of paid 
leave for the health needs of workers and their families around the 
world. Journal of Comparative Policy Analysis 8(3):241-257.
    \33\ Lovell V. (2005). Valuing Good Health: An Estimate of Costs 
and Savings for the Healthy Families Act. Washington, D.C. : Institute 
for Women's Policy Research. Available online at: http://www.iwpr.org/
pdf/B248.pdf.
    \34\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
Equity Index: How Does the United States Measure Up? Boston/Montreal: 
Project on Global Working Families. Available online at: http://
www.mcgill.ca/files/ihsp/WFEIFinal2007.pdf.
                       questions of senator enzi
    Question 1. In your written testimony you said that the Healthy 
Families Act is ``superbly constructed.'' By that, do you mean that it 
is the bill supporters' intention to cover cosmetic procedures such as 
botox injections or teeth whitening?
    Answer 1. Currently, American mothers who stay home to care for an 
infant with a 104 degree fever are being fired. Sons who seek to 
address the health needs of elderly parents are having to choose 
between neglecting their own mothers and fathers and losing jobs. To 
avoid losing pay, millions of Americans are going to work every month 
sick and spreading infections to their coworkers and those they come 
into contact with at work. Restaurant workers need paid sick days so 
they don't spread disease to all those they serve, and health care 
workers need paid sick days so they don't spread illness to their 
vulnerable patients. The Healthy Families Act is indeed well 
constructed to begin to meet these crucial needs and to have a 
substantial positive impact on public health at an affordable cost.

    Question 2. Vacation time has demonstrable effects on employee 
morale, and productivity. Would you favor mandating paid vacation time 
for all private sector employees?
    Answer 2. As you correctly note, vacation time has important 
benefits for both employees and employers. Moreover, it is readily 
affordable. One hundred thirty-seven countries guarantee paid annual 
leave.\1\ The majority of the most competitive countries globally 
guarantee paid annual leave. That having been said, the bill under 
consideration addresses a far more urgent need--paid sick days. Whether 
or not we have consensus on other legislation, paid sick days are 
crucial to public health, the health of employees and their families, 
to the long-term economic productivity of the country, and to the 
welfare of all Americans.
---------------------------------------------------------------------------
    \1\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
Equity Index: How Does the United States Measure Up? Boston/Montreal: 
Project on Global Working Families. Available online at: http://
www.mcgill.ca/files/ihsp/WFEIFinal2007.pdf.

    Question 3. What is the direct labor cost to the private sector of 
the paid leave mandate contained in the Healthy Families Act? How was 
that cost calculated? What individual(s) or organization(s) calculated 
these direct private sector costs, what was the methodology utilized, 
and has the study, calculation and/or estimate been fully peer-
reviewed?
    Answer 3. Please see answer 4.

    Question 4. What is the indirect cost to the private sector of the 
paid leave mandate contained in the Healthy Families Act? How was that 
cost calculated? What individual(s) or organization(s) calculated these 
indirect private sector costs, what was the methodology utilized, and 
has the study, calculation and/or estimate been fully peer-reviewed?
    Answer 4. In response to questions 3 and 4: During the testimony, 
you received cost estimates from Heidi Hartmann. The details on these 
estimates including methodology are publicly available through the 
Institute for Women's Policy Research. In carrying out these estimates, 
they have received input from a wide range of researchers in the field.
    The bigger question is what do we know about the affordability of 
paid sick days? First, half of all employees in America currently work 
for businesses which provide paid sick days. These businesses have been 
able to successfully compete both locally and globally while providing 
paid sick days. This is true of firms of every size category, from the 
smallest to the largest. The problem is that the lack of a Federal 
mandate has left nearly half of American workers in the private sector 
with no paid sick days. Countries around the world have shown they can 
compete while mandating paid sick days. All of the most competitive 
countries, with the exception of the United States, guarantee paid sick 
days. In short, we have excellent evidence that it is affordable.

    Question 5. Do you believe that the bill's 15 employee coverage 
threshold is appropriate? Why shouldn't the threshold be 50 employees? 
Why shouldn't the threshold be 2 employees?
    Answer 5. Providing sick days to employees is feasible for 
businesses of all sizes. While absences due to illnesses can be 
challenging, businesses already deal with these absences. In companies 
that provide paid sick days, employees are not even absent a day more a 
year on average than in companies which do not provide sick days.\2\ 
The real difference is that it's paid and your job is protected. 
Moreover, we know from practical experience that the smallest companies 
in the United States are able to provide paid sick days and remain 
economically competitive. In businesses with only one to nine 
employees, 42 percent of employees are currently eligible for paid sick 
days. Lastly, countries around the world have ensured paid sick days 
for firms of all sizes. Thus, limiting this benefit to businesses with 
more than 15 employees is a conservative approach.
---------------------------------------------------------------------------
    \2\ Lovell V. (2005). Valuing Good Health: An Estimate of Costs and 
Savings for the Healthy Families Act. Washington, D.C. : Institute for 
Women's Policy Research. Available online at: http://www.iwpr.org/pdf/
B248.pdf.

    Question 6. Do you believe that the bill's entitlement of 7 paid 
sick days is appropriate? Why shouldn't the entitlement be 3 paid sick 
days? Why shouldn't the entitlement be 14 paid sick days?
    Answer 6. A national standard of 7 guaranteed paid sick days is a 
minimum compared to international norms. At least 136 countries provide 
a week or more of paid sick days annually.\3\ All of the most 
competitive countries, with the exception of the United States, 
guarantee paid sick days, and 18 of the top 20 provide 31 or more sick 
days with pay.
---------------------------------------------------------------------------
    \3\ Heymann J., A. Earle, & J. Hayes. (2007). The Work, Family, & 
Equity Index: How Does the United States Measure Up? Boston/Montreal: 
Project on Global Working Families. Available online at: http://
www.mcgill.ca/files/ihsp/WFEIFinal2007.pdf.

    Question 7. As I am sure you are aware, under the Fair Labor 
Standards Act, Federal workers can enter into voluntary arrangements 
with their employers to establish flex-time schedules, i.e. 80 hour bi-
weekly schedules, as a means to better balance work, personal and 
family life. Would you be in favor of extending this to workers in the 
private sector? What is [are] the reason[s] for your view?
    Answer 7. There is a range of alternative work schedules that can 
help employees balance work, personal, and family life that are already 
possible for all employers in the United States to offer, including 
flexible work hours and part-time schedules as examples. Some countries 
go further and have laws requiring employers to make flexible hours 
schedules available to their workers. The United Kingdom has a law that 
facilitates flexibility by providing working parents with the right to 
request flexible schedules in order to care for children. A law in New 
South Wales, Australia, gives employees in companies with more than 
five people the right to have reasonable accommodations made, including 
flexible scheduling, in order to allow them to care for any immediate 
family member in need of care. Laws in the Netherlands and Germany give 
employees the right to request a reduction or extension in the number 
of hours worked. While these laws only require companies to consider 
requests and to enact them if feasible, I would be happy to put you in 
touch with other experts on these new approaches to flexibility.
                      questions of senator coburn
    Question 1. In your review of other countries and their government-
mandated leave policies, how many of the countries had Federal 
constitutions like the U.S. Constitution which limits the role of the 
Federal Government unless specifically authorized to act?
    Answer 1. Congress has passed labor legislation on a wide variety 
of important issues that range from prohibitions on child labor, to 
ensuring occupational safety, to passing a minimum wage. All of these 
have been accomplished while respecting the American Constitution. The 
Healthy Families Act is quite similar to the minimum wage and other 
legislation that has already been passed to ensure basic decent working 
conditions for Americans. With respect to other countries, as 145 
countries ensure paid sick days or paid sick leave, these represent the 
full range of constitutional and non-constitutional systems--including 
Federal Governments, as well as governments that are not based on a 
Federal system--and the full political and economic spectrum.

    Question 2. Section 5(d)(3) of S. 932--the Healthy Families Act--
introduced by Senator Kennedy in the 109th Congress sets out that leave 
can be used for the ``purpose of caring for a child, a parent, a 
spouse, or any other individual related by blood or affinity whose 
close association with the employee is the equivalent of a family 
relationship. . .'' (emphasis added) Please explain what situations and 
who Section 5(d)(3) could encompass.
    Answer 2. The definition of family used in the Healthy Families Act 
comes from the regulations covering Federal employees issued after 
passage of the Federal Employees Family Friendly Leave Act of 1997. 
(See 5 CFR   630.201.) Just like Federal employees, Americans have a 
wide range of close family relationships, and it is crucial for 
legislation to honor American families in all the ways they care for 
each other.
    The Widening Gap reports evidence from a study that asked working 
Americans in every State across the country when they had to disrupt 
work to care for a family member. While care for children accounted for 
42 percent of work disruptions that were related to family, 15 percent 
were to care for parents, 12 percent to care for spouses or partners, 7 
percent for grandchildren, and 24 percent for other family members. 
This should not come as a surprise to us. When a grandparent is caring 
for a grandchild whose parents are serving in the military, they need 
to be able to take time from work to care for that grandchild. When an 
American is caring for an aging aunt who has no children and becomes 
gravely ill, the niece or nephew may be the only person available to 
provide care. These are only two of a number of crucial circumstances 
that need to be covered. It will be important to have specific 
guidelines on the interpretation of this clause, but this is best done 
in regulation, not in law, to ensure that it covers American families 
well as their circumstances change.
    Recognition of the breadth of family commitments is shared by many 
other countries. Just to cite a few examples of countries that ensure 
leave to care for sick family members: Austria's coverage includes all 
persons in need of care living in the same household; New Zealand 
similarly includes people who depend on the employee for care. Nor is a 
full understanding of family limited to high-income countries. El 
Salvador, for example, covers spouses, ascendants, descendants, and 
others who depend economically on the worker.

    Question 3. Section 5(e) of S. 932--the Healthy Families Act--
introduced by Senator Kennedy in the 109th Congress, sets out that ``An 
employee shall make a reasonable effort to schedule leave under 
paragraphs (2) and (3) of subsection (d) in a manner that does not 
unduly disrupt the operations of the employer.'' (emphasis added) 
Please explain what the term ``reasonable effort'' could encompass.
    Answer 3. Clearly, there are some health care needs that working 
Americans have flexibility in scheduling. Examples of these include 
routine checkups and annual preventive medical tests. While employees 
will face some constraints due to the health care system in scheduling 
these, it makes sense that they should make a reasonable effort to 
schedule these at a time that is not unduly disruptive to work. Other 
health care needs, such as caring for a sick child, addressing one's 
own serious acute illness, or caring for a dying parent, clearly cannot 
be scheduled. The Healthy Families Act has been drafted to require 
employees to make the important effort to meet schedulable health care 
needs while trying to minimize any unnecessary impact on work.

    Question 4. Are you aware of any States or localities (other than 
San Francisco) that are considering legislative action to address this 
issue?
    Answer 4. Numerous States and localities--from Maine to Montana, 
from Maryland to Massachusetts, to the city of Madison, Wisconsin, 
among many others--have or are considering legislative action on paid 
sick days or paid family leave, because of the current vacuum that has 
been left at the Federal level. Yet, an increasing number of companies 
are noting that it will be far easier for them to comply if this is 
addressed at a Federal level with more uniform standards. Until these 
basic needs are met by Federal legislation, it makes sense that State 
and local governments will and should pass legislation to protect the 
health of their residents. At the same time, the best solution, both 
for ease of administration for companies and for ensuring a level 
playing field for all Americans, is Federal passage.
      Response to Questions of Senators Kennedy, Enzi, and Coburn 
                       by Rajiv Bhatia, M.D., MPH
                      questions of senator kennedy
    Question 1. The Healthy Families Act covers only businesses with 15 
or more employees, which is also the threshold set in the ADA and Title 
VII. Would you please comment on why you think 15 employees is an 
appropriate threshold, and why you think that businesses of that size 
are likely to be able to readily provide paid sick leave?
    Answer 1. As a public health physician, I believe providing paid 
sick leave has benefits to employees, employers, society, and 
government with regards to economic well being as well as physical and 
mental health. As sickness does not discriminate based on the number of 
employees in a business, all employees, irrespective of the size of the 
business need and should have the ability to access paid sick days. 
With regards to feasibility, San Francisco's paid sick day law requires 
all employers to provide sick leave to all employees regardless of the 
size of the business. Smaller businesses are allowed to cap the accrued 
leave to 40 hours while all other businesses may cap accrued leave at 
72 hours. Businesses of all sizes are currently complying with this law 
in San Francisco. Internationally, businesses in countries that require 
universal paid sick leave benefits appear to be competitive and 
successful.

    Question 2. Mr. King asserted that employers will likely reduce 
benefits in response to the act's paid sick days requirement. Would you 
please comment on why that may or may not be the case?
    Answer 2. It is not clear specifically which benefits Mr. King is 
referring to. In theory, some employers may conceivably reduce benefits 
that they already provide (e.g. vacation) in order to provide paid sick 
days leave. I don't believe many employers would reduce existing 
benefits for two reasons. First, I believe the number of employers 
which provide substantial benefits without providing paid sick day 
benefits is relatively small. In general, the provision of diverse 
benefits appears to be correlated positively. For example, employers 
who provide vacation benefits also provide sick day benefits. Employers 
who do not provide paid sick days also do not provide vacation and 
other benefits. Second, sick leave benefits are not comparable to other 
benefits in that they are not utilized uniformly by all employees. 
Typically, vacation benefits are used or accrued. Health care insurance 
benefits are paid by the employer irrespective of utilization of care. 
Paid sick days are utilized only when there is an illness or need for 
care. In a particular time period, paid sick leave benefits are 
typically not utilized completely by all employees who have them. Many 
employees may utilize little or no sick leave. Only a minority of 
employees have chronic or acute care needs requiring full utilization 
of all leave. I believe few employers would be likely to reduce an 
existing benefit (like vacation) for all employees as a trade-off for a 
new benefit whose utilization may vary substantially among employees.
                       questions of senator enzi
    Question 1. Your testimony about the public health value of 
mandating sick leave referenced infectious diseases such as influenza, 
stomach flu, and viral meningitis that are indeed very dangerous for 
the general population. I am concerned that the Healthy Families Act as 
introduced last Congress would cover many more far less compelling 
cases. The paid leave mandated under this bill could be applied for any 
``absence resulting from obtaining professional medical care.'' As a 
Doctor, you know that ``professional medical care'' could apply to 
numerous cosmetic health procedures and a host of other plainly 
elective options. Under this bill, an employee, working for a small 
employer, could choose to have a teeth-whitening procedure done in the 
middle of the work day. This employee would have to be paid for the 
time away from work, and the employer would have to find a replacement 
employee to fill in for the absence with very little notice. Do you 
think this type of sick leave utilization is appropriate? If not, why 
doesn't the bill restrict sick leave to medically necessary conditions 
and procedures?
    Answer 1. In my testimony, I articulated the benefits with regards 
to both acute infectious diseases as well as more chronic diseases. 
There are additional potential benefits of paid sick days mediated 
through the care and prevention of chronic diseases, prevention of 
cancers, and treatment of functional disabilities; and care for 
children. Sick leave would be appropriate for some elective procedures 
however, it may be appropriate to limit paid sick leave for procedures 
that do not have a medical necessity, a preventative health purpose, or 
a functional benefit. With regards to elective procedures, I would 
personally make the distinction between (1) elective procedures that 
prevent or ameliorate an existing or potential functional disability 
(knee surgery to improve or preserve the range of motion of the knee); 
(2) elective procedures that screen for or prevent more serious 
preventable conditions (colonoscopy for colon cancer); and (3) elective 
procedures that has no relationship to a disease or disability (e.g. 
cosmetic surgery for purely aesthetic purposes). With regards to this 
latter sub-category of elective procedures (3), paid sick days would 
not appear to have a compelling public health benefit.

    Question 2. Do you believe sick leave should be limited to full day 
increments? How small should the allowable time increments be?
    Answer 2. I do not believe that sick leave should be limited to 
full day increments. Full day increments do not correspond to common 
health care needs in a variety of circumstances. For example, for some 
disease conditions, an individual may need frequent but brief 
appointments with his or her physician, appointments with a physical 
therapist, or appointments for laboratory work. In these situations the 
medical care could be short (e.g. 1 hour). Thus, an employee could take 
sick leave to attend a routine medical appointment and also potentially 
work for the majority of a workday. This is advantageous for both 
employees and employers.

    Question 3. Assuming that employer resources are not limitless, 
from a public health perspective, do you think employer benefit dollars 
are best spent on providing accessible and affordable health insurance 
or on paid sick leave programs for employees?
    Answer 3. I do not view the two types of benefits comparable with 
regards to type of benefit or fiscal implications for employers; 
therefore, it is not possible for me to evaluate the tradeoffs 
suggested by the question. Health care insurance benefits are typically 
paid as insurance premiums and there is no rebate to employees for 
healthy employees who do not utilize resources in any premium period. 
In contrast, there is variable utilization of paid sick day benefits 
and potential employer benefits on productivity, employee retention, 
and health care costs. Furthermore, paid sick leave and heath care 
insurance benefits are complimentary. Health insurance can prevent some 
illness among employees and reduce the need for paid sick days. Paid 
sick days had potential to increase the utilization of primary and 
preventive care and reduce the utilization of more expensive 
therapeutic and hospital care, thus reducing the health care cost 
burden borne by employers collectively.
                      questions of senator coburn
    Question 1. Section 5(d)(3) of S. 932--the Healthy Families Act--
introduced by Senator Kennedy in the 109th Congress sets out that leave 
can be used for the ``purpose of caring for a child, a parent, a 
spouse, or any other individual related by blood or affinity whose 
close association with the employee is the equivalent of a family 
relationship. . .'' (emphasis added) Please explain what situations and 
who Section 5(d)(3) could encompass.
    Answer 1. In my opinion, typical situations could include care for 
an individual who is suffering from, under evaluation for, or under 
treatment for an illness, disease, injury, or infirmity, whether 
permanent, temporary, acute, or chronic. I believe the subjects being 
cared for could include: a child, stepchild, foster child, or adopted 
child; parent or step-parent; spouse; grandparent or grandchild; 
domestic partner; or a sibling.

    Question 2. Section 5(e) of S. 932--the Healthy Families Act--
introduced by Senator Kennedy in the 109th Congress, sets out that ``An 
employee shall make a reasonable effort to schedule leave under 
paragraphs (2) and (3) of subsection (d) in a manner that does not 
unduly disrupt the operations of the employer.'' (emphasis added) 
Please explain what the term ``reasonable effort'' could encompass.
    Answer 2. In my opinion, a reasonable effort on the part of the 
employee could encompass the following: conferring with the employer to 
learn when medical appointments may be least disruptive; scheduling 
routine or preventative medical care on a day or at a time of day that 
is least disruptive to the employee's business if care is available at 
that time; scheduling more immediate or acute health care needs at a 
time of day least disruptive to the employer's business if care is 
available; providing the employer timely advanced notice of routine or 
preventative care. Caring for a family member with an acute or 
emergency health condition, of course, cannot be scheduled in advance, 
but notice should be provided to the employer as soon as practicable.

    Question 3. Are you aware of any States or localities (other than 
San Francisco) that are considering legislative action to address this 
issue?
    Answer 3. I understand that in the United States, the States of 
California, Connecticut, Vermont, Washington, and Massachusetts 
currently have pending legislation to provide paid sick days to 
employees, and initial work on policy development is underway in 
several others.
   Response to Questions of Senators Enzi and Coburn by G. Roger King
                       questions of senator enzi
    Question 1. I know that many large employers voluntarily offer 
their employees paid Family and Medical Leave Act time in an effort to 
remain competitive. In your experience working with employers who are 
covered by FMLA, is there a higher likelihood of abuse among employees 
who have access to paid vs. unpaid leave? Can you offer any suggestions 
as to why this may be the case?
    Answer 1. There is the potential for abuse among employees who have 
access to paid vs. unpaid sick leave. This is likely because certain 
employees who receive paid sick leave often view this leave as an 
``entitlement'' or part of their compensation, rather than a benefit 
that is to be used only when necessary. As evidence of this, some 
clients who have traditional sick leave programs have advised us that 
they see an increase of sick leave on Mondays and Fridays or around 
national holidays or traditional vacation periods (i.e., Christmas or 
Independence Day). Some employees will take ``mental health'' days and 
call in ``sick'' when they are not actually ill. The problem with using 
sick leave in this manner is that the leave is often unscheduled and 
thus creates staffing issues and considerable increased expenses for 
employers.
    Human Resources professionals and clients have advised us that when 
sick leave and vacation leave are provided as two separate benefits, 
employees use sick leave because they have it. When employers switch to 
using a paid time off (``PTO'') leave bank system they usually find 
that utilization of unscheduled time off changes drastically. Instead 
of using unscheduled ``sick days,'' employees will save their time and 
use it for planned vacation and truly needed time off.

    Question 2. It appears that Section 5(g)(2) of the bill would 
freeze all leave policies upon enactment, and would effectively bar a 
covered employer from ever changing those policies in the future. 
Moreover, under Section 5(g) were those existing policies not deemed to 
be ``equivalent'' it would appear that the mandated leave called for 
under the bill would be in addition to that which an employer was 
voluntarily providing. Is that a fair reading of Section 5(g)? Could 
this wind up punishing employers that currently provide paid leave? Do 
you believe the bill language is clear as to the meaning of 
``equivalent''?
    Answer 2. I agree with your reading of 5(g)(2) of the bill (which 
states that an employer may not eliminate or reduce the leave that it 
offers at the time the bill is enacted in order to comply with the 
HFA). As discussed in my written testimony, this edict would appear to 
contradict other sections of the HFA that will require employers to 
substantially modify their leave policies to become compliant with the 
HFA. Further, Section 5(g)(2) is troubling as it states ``an employer 
may not eliminate or reduce leave in existence on the date of enactment 
of this Act, regardless of the type of such leave, in order to comply 
with the provisions of this Act.'' As noted above, does this subsection 
prohibit even minor adjustments to an employer's current leave 
programs? For example, it is unclear under the bill as currently 
written whether an employer that has a paid time-off program \1\ that 
does not specifically identify sick leave would be prevented from 
changing in any manner how this paid time-off system works, including 
the eligibility and accrual levels associated with such plan. The 
``equivalency'' provision of the HFA raises serious questions as to how 
such PTO and analogous programs would deem to be ``equivalent'' to the 
7-day paid sick leave requirement of the HFA. Indeed, the cost of 
regulatory staff and time associated with such ``equivalency'' reviews 
no doubt would be considerable as would be the cost of the inevitable 
litigation that will arise from such determinations.
---------------------------------------------------------------------------
    \1\ The term or phrase ``sick leave'' is a term or concept that is 
no longer used by a substantial number of employers in this country. 
Paid sick leave has been replaced or folded into comprehensive leave 
programs such as paid time off (``PTO'') and other similar leave 
policies and procedures. This approach combines traditional paid sick 
leave days, vacation days and other paid leave time (e.g., personal 
days, attendance incentive pay, etc.) into a consolidated or 
comprehensive paid leave program. Under this approach, a worker is 
given the option of when to take such paid leave time and may choose to 
do so within general constraints for any reason for which he or she 
chooses, including taking leave for personal or family illness 
situations.
---------------------------------------------------------------------------
                      questions of senator coburn
    Question 1. In your testimony you mentioned the problems that have 
arisen with FMLA. Please discuss some of the litigation trends related 
to FMLA and whether you consider the Healthy Families Act as another 
bill that could spur similar litigation?
    Answer 1. If the HFA is enacted based on the experience of many 
employers under FMLA, employers of all sizes may be discouraged from 
implementing any additional improvements in their paid leave programs--
assuming after paying for their additional paid leave costs, 
administrative expenses, and litigation costs associated with the HFA 
that they would even have any resources left to make such improvements. 
Indeed, in many instances it may be that the added administrative and 
litigation costs and other compliance expenses associated with the HFA 
will drain any resources that otherwise would have been available for 
paid leave benefit improvements.
    As an employment attorney, I have seen the following issues in FMLA 
litigation that would likely arise with similar frequency under the 
Healthy Families Act:

(1) The use (and abuse) of intermittent leave;
(2) The inadequacy of notice and certification before a leave period 
    begins;
(3) Impact on attendance incentive programs;
(4) Litigation costs associated with compliance;
(5) Potential class claims (such as those that are currently plaguing 
    employers in the wage and hour arena).

    Intermittent leave is one area that particularly deserves this 
committee's attention. Two different regulations, the regulation 
permitting intermittent leaves when there is no planned and scheduled 
medical treatment on the day of the absence and the regulation 
embracing chronic conditions as covered ``serious health conditions,'' 
intersect to create one of the biggest problems for employers in terms 
of day-to-day operations. Together, these regulations allow an employee 
to have unscheduled absences of up to 60 single work days per year or 
approximately 25 percent of all workdays for conditions that may not be 
a serious health condition. This means that an employee could be absent 
for 1.2 days every single week in a calendar year or a consecutive 12 
month period.
    Additionally, intermittent leave can be taken in as little as 10 or 
15 minute increments with the potential, therefore, for an employee to 
take off a portion of his or her workday everyday in the calendar year 
or in a consecutive 12 month period. Further, if the employee manages 
to work 1,250 hours in the previous 12 months, the employee will be 
eligible to continue this cycle.
    Similar concerns will arise with the Healthy Families Act if 
employees use the 7 days of paid leave intermittently. The use of 
intermittent paid leave will subject small employers (those not covered 
by the FMLA) to similar scheduling and coverage issues as those 
employers currently covered by the FMLA and will serve to exacerbate 
the already difficult situation faced by employers who are covered 
under the FMLA. The impact of unnoticed intermittent sick leave on a 
small employer could be devastating to production and/or operations.

    Question 2. Section 5(d)(3) of S. 932--the Healthy Families Act--
introduced by Senator Kennedy in the 109th Congress sets out that leave 
can be used for the ``purpose of caring for a child, a parent, a 
spouse, or any other individual related by blood or affinity whose 
close association with the employee is the equivalent of a family 
relationship. . . (emphasis added) Please explain what situations and 
who Section 5(d)(3) could encompass.
    Answer 2. This is, in my estimation, one of the fundamental 
definitional flaws in the act. This phrase is susceptible to a very 
broad inclusion of a variety of individuals. It could be construed to 
include frequent visitors to a household, a nanny or other domestic 
help, domestic partners, friends who live together as roommates--the 
list is potentially limitless. The potential litigation that might 
arise from this definition will likely further increase employers' 
burden in complying with the act.

    Question 3. Section 5(e) of S. 932--the Healthy Families Act--
introduced by Senator Kennedy in the 109th Congress, sets out that ``An 
employee shall make a reasonable effort to schedule leave under 
paragraphs (2) and (3) of subsection (d) in a manner that does not 
unduly disrupt the operations of the employer.'' (emphasis added) 
Please explain what the term ``reasonable effort'' could encompass.
    Answer 3. This open-ended and minimal requirement of notice to an 
employer for unscheduled leave will pose significant practical, 
financial, and operational problems. The term ``a reasonable effort'' 
is entirely subjective and most employers will be unwilling to 
challenge any notice provided by an employee, even if that notice comes 
too late for the employer to cover the employee's absence.

    Question 4. Are you aware of any States or localities (other than 
San Francisco) that are considering legislative action to address this 
issue?
    Answer 4. Yes. Currently there are State efforts to enact 
legislation similar to that of San Francisco's in Maine, Maryland, 
Massachusetts, Michigan, Montana, Wisconsin, Vermont, and Washington 
and municipal efforts in Madison, Wisconsin and Washington D.C. Also, 
the Federal Government and all State governments currently provide paid 
sick leave to their workers. Seven States (California, Connecticut, 
Hawaii, Maine, Minnesota, Washington, and Wisconsin) provide that 
workers who have paid sick days must be permitted to use them to care 
for family members. Many of these initiatives are quite recent and 
largely untested. For example, it is interesting to note that numerous 
problems have arisen regarding the San Francisco ordinance in this area 
and this new law has therefore been delayed in its implementation.
         Questions of Senator Kennedy to Heidi Hartmann, Ph.D.
    Question 1. Please explain how you arrived at the estimated cost of 
the Healthy Families Act, and address Mr. King's statement that the act 
would cost employers approximately $80 billion a year.

    Question 2. The Healthy Families Act covers only businesses with 15 
or more employees, which is also the threshold set in the ADA and title 
VII. Would you please comment on why you think 15 employees is an 
appropriate threshold, and why you think that businesses of that size 
are likely to be able to readily provide paid sick leave?

    Question 3. The Healthy Families Act sets 7 paid sick days as a 
minimum required national standard. Why do you think this is an 
appropriate minimum? How does it compare with the standards set by 
other countries?

    Question 4. A statement was made at the hearing that some employees 
do not need paid sick days because they could use flextime when they 
become ill or need medical care. Would you please comment on whether 
flextime is a workable substitute for paid sick days?

    Question 5. Mr. King asserted that employers will likely reduce 
benefits in response to the act's paid sick days requirement. Would you 
please comment on why that may or may not be the case?

    [Editor's Note: Responses to the above questions were not available 
at time of print.]

    [Whereupon, at 11:42 a.m., the hearing was adjourned.]

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
